<html>
<title> - THE FISCAL YEAR 2019 ENVIRONMENTAL PROTECTION AGENCY BUDGET</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




      THE FISCAL YEAR 2019 ENVIRONMENTAL PROTECTION AGENCY BUDGET

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 26, 2018

                               __________

                           Serial No. 115-121





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov

                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
31-504 PDF                WASHINGTON : 2018                 


















                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana             Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

                                 _____

                      Subcommittee on Environment

                         JOHN SHIMKUS, Illinois
                                 Chairman
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
  Vice Chairman                        Ranking Member
JOE BARTON, Texas                    RAUL RUIZ, California
MARSHA BLACKBURN, Tennessee          SCOTT H. PETERS, California
GREGG HARPER, Mississippi            GENE GREEN, Texas
PETE OLSON, Texas                    DIANA DeGETTE, Colorado
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
BILL FLORES, Texas                   TONY CARDENAS, California
RICHARD HUDSON, North Carolina       DEBBIE DINGELL, Michigan
KEVIN CRAMER, North Dakota           DORIS O. MATSUI, California
TIM WALBERG, Michigan                FRANK PALLONE, Jr., New Jersey (ex 
EARL L. ``BUDDY'' CARTER, Georgia        officio)
JEFF DUNCAN, South Carolina
GREG WALDEN, Oregon (ex officio)

                                  (ii) 
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     2
    Prepared statement...........................................     4
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     5
    Prepared statement...........................................     6
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     7
    Prepared statement...........................................     9
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................    10
    Prepared statement...........................................    11

                               Witnesses

E. Scott Pruitt, Administrator, Environmental Protection Agency..    12
    Prepared statement...........................................    15
    Answers to submitted questions \1\...........................   142

                           Submitted Material

Report of the Government Accountability Office, ``U.S. 
  Environmental Protection Agency--Installation of Soundproof 
  Privacy Booth,'' April 16, 2018, by Thomas A. Armstrong, 
  General Counsel, submitted by Ms. DeGette......................    90
Letter of April 25, 2018, from Lexi Shultz, Vice President, 
  Public Affairs, American Geophysical Union, to Mr. Walden, et 
  al., submitted by Ms. DeGette..................................    98
Statement of the American Association for the Advancement of 
  Science, April 20, 2018, submitted by Mr. McNerney.............   100
Article of April 25, 2018, ``Virginia Tech team gets EPA grant to 
  engineer citizen-science water quality project,'' by Robby 
  Korth, The Roanoke Times, submitted by Mr. Griffith............   101
List of questions asked by Mr. Pallone, et al., submitted by Ms. 
  Castor.........................................................   104
Letter of April 23, 2018, from Lauren Atkins, South 
  Connellsville, PA, to Mr. Walden and Mr. Pallone, submitted by 
  Mr. Pallone....................................................   105
Letter of April 23, 2018, from William Armbruster, Ph.D., et al., 
  to E. Scott Pruitt, Administrator, Environmental Protection 
  Agency, submitted by Mr. Shimkus...............................   107

----------
\1\ Mr. Pruitt's response to submitted questions has been 
  retained in committee files and also is available at  https://
  docs.house.gov/Committee/Calendar/ByEvent.aspx?EventID=108218.

 
      THE FISCAL YEAR 2019 ENVIRONMENTAL PROTECTION AGENCY BUDGET

                              ----------                              


                        THURSDAY, APRIL 26, 2018

                  House of Representatives,
                       Subcommittee on Environment,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m. in 
room 2123, Rayburn House Office Building, Hon. John Shimkus 
(chairman of the subcommittee) presiding.
    Members present: Representatives Shimkus, McKinley, Barton, 
Blackburn, Harper, Olson, Johnson, Flores, Hudson, Cramer, 
Walberg, Carter, Duncan, Walden (ex officio), Tonko, Ruiz, 
Peters, Green, DeGette, McNerney, Cardenas, Dingell, Matsui, 
and Pallone (ex officio).
    Also present: Representatives Long, Costello, Bilirakis, 
Lance, Griffith, Rush, Eshoo, Schakowsky, Butterfield, Castor, 
Sarbanes, Welch, Lujan, Loebsack, Kennedy, and Engel.
    Staff present: Jennifer Barblan, Chief Counsel, Oversight 
and Investigations; Mike Bloomquist, Staff Director; Samantha 
Bopp, Staff Assistant; Daniel Butler, Staff Assistant; Karen 
Christian, General Counsel; Kelly Collins, Legislative Clerk, 
Energy/Environment; Jerry Couri, Deputy Chief Counsel, 
Environment; Jordan Davis, Senior Advisor; Lamar Echols, 
Counsel, Oversight and Investigations; Wyatt Ellertson, 
Professional Staff Member, Energy/Environment; Margaret Tucker 
Fogarty, Staff Assistant; Adam Fromm, Director of Outreach and 
Coalitions; Ali Fulling, Legislative Clerk, Oversight and 
Investigations, Digital Commerce and Consumer Protection; 
Jordan Haverly, Policy Coordinator, Environment; Zach Hunter, 
Director of Communications; Peter Kielty, Deputy General 
Counsel; Bijan Koohmaraie, Counsel, Digital Commerce and 
Consumer Protection; Tim Kurth, Deputy Chief Counsel, 
Communications and Technology; Ben Lieberman, Senior Counsel, 
Energy; Ryan Long, Deputy Staff Director; Milly Lothian, Press 
Assistant and Digital Coordinator; Mary Martin, Chief Counsel, 
Energy/Environment; Drew McDowell, Executive Assistant; Brandon 
Mooney, Deputy Chief Counsel, Energy; Annelise Rickert, 
Counsel, Energy; Peter Spencer, Senior Professional Staff 
Member, Energy; Jason Stanek, Senior Counsel, Energy; Austin 
Stonebraker, Press Assistant; Hamlin Wade, Special Advisor, 
External Affairs; Andy Zach, Senior Professional Staff Member, 
Environment; Michelle Ash, Minority Chief Counsel, Digital 
Commerce and Consumer Protection; Priscilla Barbour, Minority 
Energy Fellow; Jeff Carroll, Minority Staff Director; 
Jacqueline Cohen, Minority Chief Environment Counsel; Jean 
Fruci, Minority Policy Advisor, Energy and Environment; Tiffany 
Guarascio, Minority Deputy Staff Director and Chief Health 
Advisor; Caitlin Haberman, Minority Professional Staff Member; 
Rick Kessler, Minority Senior Advisor and Staff Director, 
Energy and Environment; Jourdan Lewis, Minority Staff 
Assistant; John Marshall, Minority Policy Coordinator; Jon 
Monger, Minority Counsel; Kaitlyn Peel, Minority Digital 
Director; Alexander Ratner, Minority Policy Analyst; Tim 
Robinson, Minority Chief Counsel; Michelle Rusk, Minority FTC 
Detailee; Andrew Souvall, Minority Director of Communications; 
Tuley Wright, Minority Energy and Environment Policy Advisor; 
C.J. Young, Minority Press Secretary; and Catherine Zander, 
Minority Environment Fellow.
    Mr. Shimkus. The subcommittee will come to order. Before we 
begin, I would like to take a moment to address the guests in 
our audience. First of all, thank you for coming. We think 
engaged citizens are a welcome and valuable part of the 
political process. I only wish every hearing drew this much 
interest.
    The purpose of this hearing is to hear from the 
Administrator of the EPA on important matters currently before 
the Agency, including the subcommittee's continued interest in 
the workings of the Environmental Protection Agency. It is an 
opportunity for the subcommittee to ask questions and have a 
thoughtful discussion on these issues. The number of people in 
the audience this morning demonstrates the strong interest in 
these topics, and we welcome that interest and your attendance 
today.
    I do want to remind our guests in the audience that the 
Chair is obligated under the rules of the House and the rules 
of the committee to maintain order and preserve decorum in the 
committee room. I know that we have deep feelings on these 
issues and that we may not agree on everything, but I ask that 
we abide by the rules and be respectful of our audience 
members, our viewers, and our witnesses.
    The Chair appreciates the audience's cooperation to 
maintaining order as we have a full discussion on these 
important issues. And I would like to recognize myself for 5 
minutes for an opening statement.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Good morning, Administrator Pruitt, and welcome back to the 
Environment Subcommittee. I am glad you are here today and look 
forward to our discussion. From a policy perspective and from 
my seat outside the Agency, I am generally pleased with the 
direction you are taking at the EPA. As I mentioned when you 
were here 5 months ago, the American people don't want 
ideologues rewriting or reinterpreting our laws, they expect 
and deserve folks at agencies like the EPA who will faithfully 
implement what Congress has passed.
    I am especially happy with the reinvigorated Superfund 
program and in particular, after more than 20 years on the 
National Priorities List, I am very glad to see progress 
finally being made on the West Lake Landfill which we have 
talked about numerous times. Superfund sites are a tangible 
environmental and public health problem that may pose multiple 
immediate threats.
    One of the bills I worked on when I joined this committee 
was to help make the Superfund program operate more rationally, 
so to see that you also care about this program is important to 
me. I also want to applaud your initiative to look at the EPA's 
workforce and identify ways to make the Agency more efficient 
and effective. As I mentioned back in December, this exercise, 
sadly, has not been undertaken in more than 20 years. I believe 
a lack of consistent review can lead to complacency or foster 
regulatory overreach and I look forward to learning more about 
efforts to reshape the bureaucracy.
    As the author of the changes to Title I of the Toxic 
Substances Control Act, I also want to commend you for reducing 
the backlog of applications for new chemicals. I understand the 
backlog has crept back up by one-third of its normal level, but 
I look forward to seeing what actions you take including the 
use of new user fees to help EPA operate its new chemicals 
review process more expeditiously.
    Finally, I am glad to hear that the regulatory process you 
are running is not looking to short-circuit public comment. 
Past administrations have issued enforceable guidelines or 
employed other tricks to get their way on policy when many 
Americans and their representatives in Congress may have 
disagreed.
    Now as public servants our jobs are not based solely on the 
things we do or the things we have done, but also the way we 
conduct our business. It is no secret that there have been many 
stories in the press about the management and operation to the 
Agency and your dealings with potentially regulated sectors. I 
consider much of this narrative to be a distraction, but one 
this committee cannot ignore.
    I look forward to hearing your side of the story on the 
rumors and allegations you are facing. Before yielding back my 
time I want to make a couple of environmental budget and policy 
observations. First, even though Federal law requires the 
President to propose a budget, the U.S. Constitution vests the 
actual budget and spending authority with the Congress, 
particularly the House of Representatives. Second, the 
President's budget was released on February 12th, 2018 without 
full knowledge what Congress would do in the Consolidated 
Appropriations Act that became law 6 weeks later. Had the 
Administrator joined us in February or March, he would not have 
had to face this dynamic. But regardless of what Members think 
of the administration's budget proposal, I hope today they will 
remember our own role in the budget and spending debate.
    Finally, I want to say something about administrative 
efforts regarding transportation fuels. Recently, the White 
House is engaged with the EPA and Department of Agriculture to 
consider administrative changes to the Renewable Fuel Standard. 
I take these efforts quite seriously, not only as subcommittee 
chairman but also as a representative of a corn and soybean 
growing district in southern Illinois that also happens to have 
two oil refineries.
    I believe that no matter how well intentioned any 
regulatory effort may be, the only way to get a lasting 
solution, especially one that will not spend more time in court 
than on the books, is by having Congress settle this issue by 
statute. I urge you, Mr. Administrator, and the other members 
of the executive branch to patiently work with us in good faith 
on a legislative solution to the Renewable Fuel Standard.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    Good morning Administrator Pruitt and welcome back to the 
Environment subcommittee. I am glad you are here today and look 
forward to our discussion.
    From a policy perspective, and from my seat outside the 
Agency, I am generally pleased with the direction you are 
taking the EPA.
    As I mentioned when you were here 5 months ago, the 
American people don't want ideologues rewriting or 
reinterpreting law. They expect and deserve folks at agencies 
like EPA who will faithfully implement what Congress has 
passed.
    I am especially happy with the reinvigorated Superfund 
program and in particular, after more than 20 years on the 
National Priorities List, I'm very glad to see progress finally 
being made at the West Lake Landfill. Superfund sites are 
tangible environmental and public health problems that may pose 
multiple immediate threats. One of the first bills I worked on 
when I joined this committee was to help make the Superfund 
program operate more rationally; so, to see that you also care 
about this program is important to me.
    I also want to applaud your initiative to look at the EPA's 
workforce and identify ways to make the Agency more efficient 
and effective. As I mentioned back in December, this exercise, 
sadly, has not been undertaken in more than 20 years. I believe 
a lack of consistent review can lead to complacency or foster 
regulatory overreach, and I look forward to learning more about 
efforts to reshape the bureaucracy.
    As the author of the changes to title I of the Toxic 
Substances Control Act, I also want to commend you for reducing 
the backlog of applications for new chemicals. I understand the 
backlog has crept back up by one-third of its normal level, but 
I look forward to seeing what actions you take, including the 
use of new user fees, to help the EPA operate its new chemicals 
review process more expeditiously.
    Finally, I am glad to hear that the regulatory process you 
are running is not looking to short circuit public comment. 
Past administrations have issued enforceable guidelines or 
employed other tricks to get their way on policy when many 
Americans and their representatives in Congress may have 
disagreed.
    Now, as public servants, our jobs are not based solely on 
the things we do, or the things we have done, but also on the 
way we conduct our business.
    It is no secret that there have been many stories in the 
press about the management and operations of the Agency and 
your dealings with potentially regulated sectors. I consider 
much of this narrative to be a distraction, but one this 
committee cannot ignore. I look forward to hearing your side of 
the story on the rumors and allegations you're facing.
    Before yielding back my time, I want to make a couple of 
environmental budget and policy observations.
    First, even though Federal law requires the President to 
propose a budget, the U.S. Constitution vests the actual budget 
and spending authority with the Congress, particularly the 
House of Representatives.
    Second, the President's budget was released on February 12, 
2018 without full knowledge what Congress would do in the 
Consolidated Appropriations Act that became law six weeks 
later. Had the Administrator joined us in February or March, he 
would not have had to face this dynamic. But regardless of what 
Members think of the administration's budget proposal, I hope 
today they will remember our own role in the budget and 
spending debate.
    Finally, I want to say something about administrative 
efforts regarding transportation fuels. Recently, the White 
House has engaged with the EPA and Department of Agriculture to 
consider administrative changes to the Renewable Fuels 
Standard. I take these efforts quite seriously, not only as 
subcommittee chairman, but as the representative of a corn and 
soybean growing district in Southern Illinois that also happens 
to have oil refineries.
    I believe that no matter how well intentioned ANY 
regulatory effort may be, the only way to get a lasting 
solution--especially one that will not spend more time in court 
than on the books--is by having Congress settle this issue in 
statute. I urge you, Mr. Administrator and the other members of 
the Executive Branch, to patiently work with us in good faith 
on a legislative solution to the RFS.
    With that, I yield back the balance of my time and 
recognize the ranking member of the subcommittee, the gentleman 
from New York, Mr. Tonko, for 5 minutes.

    Mr. Shimkus. With that, I have 50 seconds left. Seeing no 
one wishing that time, I yield back the balance of my time and 
recognize the ranking member of the subcommittee, the gentleman 
from New York, Mr. Tonko, for 5 minutes.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Mr. Chair. We are here today to 
discuss EPA's budget for fiscal year 2019. The President has 
called for a nearly 30 percent cut at EPA which would severely 
impair the Agency's ability to fulfill its mission, to 
safeguard public health, and our environment. We know all too 
well the costs of failing that mission, of the pain of 
communities, of children and families who suffer illness 
resulting from pollution in their air and water. So yes, I am 
concerned that EPA is increasingly allowing polluters to set 
the agenda and threaten public health with minimal 
accountability.
    Under Administrator Pruitt, common-sense public health and 
environmental protections are being slated for elimination with 
no regard for scientific evidence and little justification 
beyond the wishes of regulated entities. These actions include 
reopening clean car standards without any mention of health or 
pollution, continuing to repeal the Clean Power Plan and 
dismissing the science of climate change, implementing TSCA 
reform that ignores bipartisan congressional intent, and a 
number of attempts to undermine the Clean Air Act.
    I expect the courts will agree that many, if not all, of 
these actions are unjustified. In addition, I am troubled by 
the dismissal of science by the Agency's political leadership. 
Hundreds of scientists have left EPA with no apparent plan to 
replace them. Expertise on the science advisory boards has been 
eroded and the recently proposed rule to undermine the use of 
science in rulemakings will severely limit the Agency's ability 
to safeguard public health.
    I know many career employees at EPA simply want to work 
hard to ensure the air we breathe is clean and the water we 
drink is safe. To them I say thank you. But the Agency's 
political leadership is pursuing a different agenda and the 
mounting evidence of serious ethics violations, incredible 
investigations at the highest level cannot go unscrutinized.
    Mr. Chair, I value this subcommittee's bipartisan record. 
There are times that we disagree, but we have worked through 
tough issues together and are often able to find bipartisan 
balance. I know there are those in the majority who support 
rollbacks of EPA rules, but all of us should be troubled by the 
numerous reports of misuse of taxpayer dollars and apparent 
conflicts of interest that have made the Administrator a 
frequent subject of investigation.
    I am of course referring to the Administrator's pattern of 
wasteful spending on luxury travel, personal security and yes, 
office upgrades. To say nothing of his well-documented 
sweetheart rental from a lobbyist with business before EPA and 
huge unapproved raises for top political staff, amongst others. 
Perhaps most concerning have been the reports of retaliation 
against employees both career and political that have dared to 
question Administrator Pruitt's most troubling abuses and 
expenditures. And in almost all cases, the more we have learned 
the worse they get.
    At this point, we must ask if the Inspector General will 
have the resources needed to investigate the Administrator's 
seemingly endless misconduct. At the heart of all these issues 
is an apparent pattern of an Administrator refusing 
accountability and putting personal and special interests ahead 
of the American people. I would ask my colleagues on the other 
side of the aisle to imagine, if a Democrat acted in this 
manner, would you stand for it? I think the answer is clear: 
You would not. My colleagues and I may disagree about many of 
the policy decisions coming out of this EPA, but one thing I 
hope we can agree on is that we cannot afford to turn a blind 
eye to the reports of this Administrator's fiscal mismanagement 
and abuse of his position.
    Mr. Administrator, the evidence is clear. You have failed 
as a steward of American taxpayer dollars and our environment. 
You claim to believe in the mission of the EPA, but your 
actions including your mistreatment of EPA's dedicated career 
staff tell a very different story. Evidence from your time in 
State government should have made this obvious, but only in 
recent weeks have we come to fully understand the extent of 
your political ambitions, your tendency to abuse your position 
of personal gain, and to advance the agendas of your political 
benefactors, and what appears to be a propensity for grift.
    But, most importantly, your conduct as Administrator has 
demonstrated a lack of respect for American taxpayers and the 
Agency you were appointed to lead and has affirmed the 
regrettable but inevitable conclusion that you were never fit 
for this job and your refusal to provide any serious 
transparency, accept any accountability, or show even the 
slightest contrition is inexcusable.
    Mr. Chair, no one is above the law. Congress must hold this 
Administrator accountable on behalf of the American people, and 
I hope our committee can continue to investigate and bring the 
truth of these important issues to light in a bipartisan 
manner. With that, I yield back.
    [The prepared statement of Mr. Tonko follows:]

                 Prepared statement of Hon. Paul Tonko

    We are here today to discuss EPA's budget for fiscal year 
2019. The President has called for a nearly 30 percent cut at 
EPA, which would severely impair the Agency's ability to 
fulfill its mission to safeguard public health and our 
environment.
    We know all too well the costs of failing that mission, of 
the pain of communities, of children and families who suffer 
illness resulting from pollution in their air and water.
    So yes, I am concerned that EPA is increasingly allowing 
polluters to set the agenda and threaten public health with 
minimal accountability.
    Under Administrator Pruitt, commonsense public health and 
environmental protections are being slated for elimination with 
no regard for scientific evidence and little justification 
beyond the wishes of regulated entities.
    These actions include reopening clean car standards without 
any mention of health or pollution, continuing to repeal the 
Clean Power Plan and dismissing the science of climate change, 
implementing TSCA reform that ignores bipartisan Congressional 
intent, and a number of attempts to undermine the Clean Air 
Act.
    I expect the courts will agree that many, if not all, of 
these actions are unjustified.
    In addition, I am troubled by the dismissal of science by 
the Agency's political leadership.
    Hundreds of scientists have left EPA with no apparent plan 
to replace them. Expertise on the Science Advisory Boards has 
been eroded. And the recently proposed rule to undermine the 
use of science in rulemakings will severely limit the Agency's 
ability to safeguard public health.
    I know many career employees at EPA simply want to work 
hard to ensure the air we breathe is clean and the water we 
drink is safe. To them, I say thank you.
    But the Agency's political leadership is pursuing a 
different agenda. And the mounting evidence of serious ethics 
violations and credible investigations at the highest levels 
cannot go unscrutinized.
    Mr. Chairman, I value this subcommittee's bipartisan 
record. There are times that we disagree, but we have worked 
through tough issues together and are often able to find 
bipartisan balance.
    I know there are those in the Majority who support 
rollbacks of EPA rules. But all of us should be troubled by the 
numerous reports of misuse of taxpayer dollars and apparent 
conflicts of interest that have made the Administrator a 
frequent subject of investigation.
    I am of course referring to the Administrator's pattern of 
wasteful spending on luxury travel, personal security, and 
office upgrades. To say nothing of his well-documented 
sweetheart rental from a lobbyist with business before EPA and 
huge unapproved raises for top political staff, among others.
    Perhaps most concerning have been the reports of 
retaliation against employees, both career and political, that 
have dared to question Administrator Pruitt's most troubling 
abuses and expenditures.
    And in almost all cases, the more we have learned, the 
worse they get.
    At this point, we must ask if the Inspector General will 
have the resources needed to investigate the Administrator's 
seemingly endless misconduct.
    At the heart of all these issues is an apparent pattern of 
an Administrator refusing accountability and putting personal 
and special interests ahead of the American people.
    I would ask my colleagues on the other side of the aisle to 
imagine if a Democrat acted in this manner. Would you stand for 
it? I think the answer is clear- you would not.
    My colleagues and I may disagree about many of the policy 
decisions coming out of this EPA. But one thing I hope we can 
agree on is that we cannot afford to turn a blind eye to the 
reports of this Administrator's fiscal mismanagement and abuse 
of his position.
    Mr. Administrator, the evidence is clear: you have failed 
as a steward of American taxpayer dollars and our environment.
    You claim to believe in the mission of the EPA, but your 
actions, including your mistreatment of EPA's dedicated career 
staff, tell a very different story.
    Evidence from your time in State government should have 
made this obvious, but only in recent weeks have we come to 
fully understand the extent of your political ambitions, your 
tendency to abuse your position for personal gain and to 
advance the agendas of your political benefactors, and what 
appears to be a propensity for grift.
    But most importantly, your conduct as Administrator has 
demonstrated a lack of respect for American taxpayers and the 
Agency you were appointed to lead, and has affirmed the 
regrettable but inevitable conclusion that you were never fit 
for this job.
    And your refusal to provide any serious transparency, 
accept any accountability, or show even the slightest 
contrition is inexcusable.
    Mr. Chairman, no one is above the law. Congress must hold 
this Administrator accountable on behalf of the American 
people. I hope our committee can continue to investigate and 
bring the truth of these important issues to light in a 
bipartisan manner. I yield back.

    Mr. Shimkus. The Chair thanks the gentleman. The Chair now 
recognizes the chairman of the full committee, Greg Walden from 
Oregon, for 5 minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you, Mr. Chairman.
    Mr. Pruitt, welcome back to the House Energy and Commerce 
Committee. As you know, we scheduled this hearing to focus on 
the EPA's policy and budget priorities some time ago, but you 
surely understand that Members on both sides of the aisle have 
some serious questions about the management and operations of 
the Agency. We expect you to answer these questions fully and 
truthfully.
    I am concerned that the good progress being made on policy 
front is being undercut by allegations about your management of 
the Agency and use of its resources. These issues are too 
persistent to ignore and I know many Members are looking 
forward to hear more clarity from you today. You will have 
ample opportunity to help provide us with any information that 
can help answer these questions. Additionally, there are 
numerous ongoing investigations into these issues and I want 
you to commit to the committee that you will provide us with 
all the same information you provide to the EPA Inspector 
General and other congressional committees.
    Having said that, let me also say that I appreciate your 
good work to focus EPA on the mission Congress has tasked it 
with in statute, that being clean air for Americans to breathe, 
safe water for our citizens to drink, and soils free from 
pollution. As an example, I want to commend your efforts to 
reinvigorate the Superfund program and specifically to 
accelerate the cleanup of the Willamette River at the Portland 
Harbor. This has gone on long enough and you stepped in and 
made a difference to the satisfaction of the people of 
Portland, Oregon. And even some of your most liberal detractors 
applaud your efforts on this critical cleanup and I thank you 
for taking the lead.
    I also appreciate your desire to rebalance the power 
between Washington, DC, and the States, making our efforts more 
efficient and helping deliver tangible results to communities 
across the country. To truly succeed, we need stronger local, 
State, Federal, and private partnerships where we can team up 
and leverage all available resources to accomplish the goals of 
cleaner water, cleaner air, and cleaner soils. Importantly, I 
appreciate your stated commitment to administer the law as 
Congress intended and to have the Agency concentrate on its 
statutory obligations under environmental and public health 
laws as well as the Administrative Procedures Act.
    Bringing new transparency to your public processes, 
especially when it comes to the data and science that underpins 
policies, is truly a welcome change from past EPAs. Mr. 
Administrator, too many of your predecessors believed a clean 
environment was also incompatible with a healthy economy. I 
share your view that we can and must have both in America. We 
need common sense regulation that protects the public, actually 
cleans up the environment, and does so in a way that does not 
unnecessarily suffocate the economy. I believe the EPA should 
focus on innovative problem solving and partnership with 
States, the private sector, and other stakeholders that 
leverage their resources and expertise. I look forward to our 
discussion today about the Agency's budget and the EPA's 
direction now and in the future.
    As with our hearing with you 5 months ago, I remain 
interested in the goals you are establishing for the programs 
at EPA and the metrics you intend to use to measure their 
progress. Particularly, I noticed objective number 5 in the 
proposed budget discusses staffing and internal management 
issues. It is important that EPA not be bloated, but it is 
essential that EPA have the staff with proper expertise, 
implementing and enforcing programs that correlate with their 
experience; finding that critical staffing balance is one of 
the most important roles of anyone given the enormous task of 
managing a large, taxpayer-funded enterprise.
    Finally, I want to applaud those objectives in the Agency's 
budget that reduce red tape result in the regulated community 
better knowing what is expected of them and promoting prompt, 
even, and fair enforcement of the law. I look forward to 
learning more about all of that today. So I thank you for 
joining us again before the Energy and Commerce Committee, and 
I look forward to your testimony.
    With that Mr. Chairman I yield back the balance of my time.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Welcome back to the House Energy and Commerce Committee, 
Mr. Administrator. As you know, we scheduled this hearing to 
focus on the EPA's policy and budget priorities. But you surely 
understand that Members on both sides of the aisle also have 
serious questions the management and operations of the Agency. 
We expect you to answer these questions fully and truthfully.
    I am concerned that the good progress being made on the 
policy front is being undercut by allegations about your 
management of the Agency and use of its resources. These issues 
are too persistent to ignore, and I know many Members are 
looking for more clarity from you today. You will have ample 
opportunity today to provide us with any information. 
Additionally, while there are numerous ongoing investigations 
into these issues, I want you to commit to providing this 
committee with all the same information you provide to the EPA 
Inspector General and other congressional committees.
    Having said that, let me also say that I appreciate your 
good work to focus EPA on the mission Congress has tasked it 
with in statute: clean air for Americans to breathe, safe water 
for our citizens to drink, and soils free from pollution. As an 
example, I want to commend your efforts to reinvigorate the 
Superfund program, and specifically to accelerate the cleanup 
of the Willamette River at the Portland Harbor. Even your most 
liberal detractors applaud your efforts on this critical clean 
up.
    I also appreciate your desire to rebalance the power 
between Washington, DC, and the States, making our efforts more 
efficient and helping deliver tangible results to communities 
across the country. To truly succeed, we need stronger local, 
State, Federal and private partnerships where we can team up 
and leverage all available resources to accomplish the goals of 
cleaner water, air and soil.
    Importantly, I appreciate your stated commitment to 
administer the law as Congress intended, and to have the Agency 
concentrate on its statutory obligations under environmental 
and public health laws, as well as the Administrative 
Procedures Act. Bringing new transparency to your public 
processes, especially when it comes to the data and science 
that underpins public policy, is truly a welcome change from 
the past practices at the EPA.
    Mr. Administrator, too many of your predecessors believed a 
clean environment was incompatible with economic growth and job 
creation. I share your view that we can and must have both. We 
need common sense regulation that protects the public, actually 
cleans up the environment and does so in a way that doesn't 
unnecessarily suffocate the economy.
    I believe the EPA should focus on innovative problem 
solving and partnerships with the States, the private sector, 
and other stakeholders that leverage their resources and 
expertise. I look forward to our discussion today about the 
Agency's budget and EPA's direction now and into the future.
    As with our hearing five months ago, I remain interested in 
the goals you are establishing for the programs at EPA and the 
metrics you intend to use to measure their progress. 
Particularly, I noticed Objective #5 in the proposed budget 
discusses staffing and internal management issues. It is 
important that EPA not be bloated, but it is essential that EPA 
have staff with proper expertise implementing and enforcing 
programs that correlate with their experience. Finding that 
critical staffing balance is one of the most important roles of 
anyone given the enormous task of managing a large, taxpayer-
funded enterprise.
    Finally, I want to applaud those objectives in the Agency's 
budget that reduce red-tape, result in the regulated community 
better knowing what is expected of them, and promote prompt, 
even, and fair enforcement of the law. I look forward to 
learning more about that today.
    Again, thank you for being here today. I look forward to 
your testimony.

    Mr. Shimkus. The gentleman yields back the balance of his 
time. The Chair now recognizes the ranking member of the full 
committee, Congressman Pallone from New Jersey, for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    Administrator Pruitt has brought secrecy, conflicts of 
interest, and scandal to the EPA. In any other administration, 
Republican or Democrat, you would be long gone by now. So far, 
140 House Democrats have signed on to a resolution introduced 
by Ms. Castor expressing no confidence in you, Mr. Pruitt. 
Additionally, four Republican House Members have also called on 
you to step down.
    And the voices are growing. Just look at the critiques from 
former Bush EPA Administrator and New Jersey Governor Christine 
Todd Whitman who called Administrator Pruitt's tenure, and I 
quote, a slap in the face to fiscal responsibility and 
responsible governance, and said also that evidence is abundant 
of the dangerous political turn of an Agency that is supposed 
to be guided by science. Another former Republican EPA 
Administrator William Reilly called Administrator Pruitt, and I 
quote, a third-rate ideologue.
    Past Administrators of both parties believed in the EPA's 
mission and understood that they had been given a sacred trust 
by the people of our country. Unfortunately, this is not the 
case with you, Mr. Pruitt. Clearly, you do not believe in EPA's 
mission and appear to have forgotten that you are here to serve 
all the American people, not merely a select few or just 
yourself. And the fact is, Administrator Pruitt has used this 
office as nothing more than an opportunity to either enrich 
himself or his corporate friends and President Trump seems to 
be perfectly fine with all these actions. So much for draining 
the swamp.
    When we met in December, you pledged to be more 
transparent. You promised to do a better job providing 
technical assistance, sending witnesses to hearings, and 
responding to congressional requests. But you have followed 
through on none of these promises. What you have done is 
generate scandal after scandal. When confronted about them you 
have repeatedly failed to take responsibility for your actions 
and instead you have blamed your staff, your security detail, 
your critics, pretty much anyone but yourself, and you are 
accountable for your Agency and all of these scandals, in my 
opinion. The buck stops at your desk.
    There are so many outstanding questions that we need 
truthful answers to today but because so far we have only 
gotten half-truths, misleading answers, or outright falsehoods. 
For instance, you rented a condo at well below market value and 
then emphatically claimed on Fox News that your landlord's 
lobbyist husband had no business before the EPA, a statement 
that was proven to be untrue. And it is that kind of conduct 
that prompted Ranking Members Tonko, DeGette, and Vice Ranking 
Member Castor and I to request that you be placed under oath 
for this hearing and that it be expanded to include the 
Oversight and Investigations Subcommittee.
    The chairman did not agree to that request, but I would 
remind you what Chairman Walden said to the press when he 
declined our request. He said lying to Congress is a crime 
regardless of whether or not you are sworn in. So now committee 
Republicans have conveniently told the press that they are 
investigating you for some of your outrageous ethical abuses, 
yet I have seen no evidence from committee Republicans that 
that is really happening.
    Fortunately, committee Democrats have been demanding 
answers, and five independent Federal investigations are now 
being done into your conduct at our request. Yesterday, I 
joined with Ranking Member Cummings of the Oversight and 
Government Reform Committee to request an additional 
investigation by the Office of Special Counsel into your 
troubling pattern of apparently retaliating against EPA 
employees who question your extravagant spending, and I am 
confident that these investigations will affirm what I have 
come to believe is true: that you are unfit to hold public 
office and undeserving of the public trust.
    And I don't say those words, you know, because I 
particularly dislike you or, you know, hold you in ill repute. 
I just think that every indication we have is that you really 
should resign and you are undeserving of the public trust. And 
I yield back, Mr. Chairman. Thank you.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Administrator Pruitt has brought secrecy, conflicts of 
interest and scandal to the EPA. In any other administration, 
Republican or Democrat, you would be long gone by now.
    So far, 140 House Democrats have signed onto a resolution 
introduced by Ms. Castor expressing ``no confidence'' in you, 
Mr. Pruitt. Additionally, four Republican House Members have 
also called on you to step down.
    And the voices are growing. Just look at the critiques from 
former Bush EPA Administrator and New Jersey Governor Christine 
Todd Whitman, who called Administrator Pruitt's tenure a ``slap 
in the face to fiscal responsibility and responsible 
governance'' and said, ``Evidence is abundant of the dangerous 
political turn of an Agency that is supposed to be guided by 
science.'' Another former Republican EPA Administrator, William 
Reilly, called Administrator Pruitt a, ``third rate 
ideologue.''
    Past Administrators of both parties believed in the EPA's 
mission and understood that they had been given a sacred trust 
by the people of our country.
    Unfortunately, this is not the case, Mr. Pruitt, clearly 
you do not believe in EPA's mission, and appear to have 
forgotten that you are here to serve all the American people, 
not merely a select few, or just yourself. The fact is 
Administrator Pruitt has used this office as nothing more than 
an opportunity to enrich himself and his corporate friends, and 
President Trump seems to be perfectly fine with all of his 
actions. So much for draining the swamp.
    When we met in December, you pledged to be more 
transparent. You promised to do a better job providing 
technical assistance, sending witnesses to hearings, and 
responding to Congressional requests. You have followed through 
on none of those promises.
    What you have done is generate scandal after scandal. When 
confronted about them, you have repeatedly failed to take 
responsibility for your actions. Instead, you have blamed your 
staff, your security detail, your critics--pretty much anyone 
but yourself. You are accountable for your Agency and all of 
these scandals. The buck stops at your desk.
    There are so many outstanding questions that we need 
truthful answers to today, because so far, we've only gotten 
half-truths, misleading answers, or outright falsehoods. For 
instance, you rented a condo at well below market value, and 
then emphatically claimed on Fox News that your landlord's 
lobbyist husband had no business before the EPA--a statement 
proven to be untrue.
    It is that kind of conduct that prompted Ranking Members 
Tonko, DeGette, and Vice Ranking Member Castor and I to request 
that you be placed under oath for this hearing and that it be 
expanded to include the Oversight and Investigations 
Subcommittee. The chairman did not agree to that request, but I 
would remind you what the chairman said to the press when he 
declined our request: lying to Congress is a crime, regardless 
of whether or not you are sworn in.
    Now, committee Republicans have conveniently told the press 
they are investigating you for some of your outrageous ethical 
abuses. Yet, I've seen no evidence from committee Republicans 
that this is really happening.
    Fortunately, committee Democrats have been demanding 
answers and five independent Federal investigations are now 
being done into your conduct at our request. Yesterday, I 
joined with Ranking Member Cummings of the Oversight and 
Government Reform Committee to request an additional 
investigation by the Office of Special Counsel into your 
troubling pattern of apparently retaliating against EPA 
employees who question your extravagant spending.
    I am confident that these investigations will affirm what I 
have come to believe is true: You are unfit to hold public 
office and undeserving of the public trust.

    Mr. Shimkus. The gentleman yields back his time. We now 
conclude with Members' opening statements. The Chair would like 
to remind Members that, pursuant to committee rules, all 
Members' opening statements will be made part of the record.
    We would also now like to thank and welcome our 
distinguished witness, U.S. EPA Administrator Scott Pruitt, for 
being here today. You will have an opportunity to give an 
opening statement followed by a round of questions by Members. 
You are joined by the Honorable Holly Greaves, Chief Financial 
Officer. Welcome to you also, we appreciate you being here.
    And, Mr. Administrator, we now recognize you for 5 minutes 
for your opening statement.

  STATEMENT OF E. SCOTT PRUITT, ADMINISTRATOR, ENVIRONMENTAL 
                       PROTECTION AGENCY

    Mr. Pruitt. Well, good morning to you, Mr. Chairman, 
Ranking Member Pallone, members of the committee, it is good to 
be with you today and I appreciate the opportunity to discuss 
these matters that you have raised.
    There is consequential and important work being done at the 
EPA since the beginning of the Trump administration, both in 
terms of improved environmental outcomes as well as substantial 
regulatory reform. We are stripping burdensome costs from the 
American economy at an unprecedented pace, and we are doing 
this while inspiring confidence in the American people that 
it's Government going to work with them as opposed to against 
them, to achieve harmony between jobs and growth and 
environmental stewardship.
    In the short time of the Trump administration we have made 
enormous progress as far as improved environmental outcomes. 
These are just a few: We have removed over three times the 
number of polluted sites in contaminated communities across the 
country as compared to the previous administration for 2017, 
and for 2018 we are on pace to remove as many as ten times the 
number of polluted sites. We are working cooperatively with the 
States to improve air quality through the approval of 350 State 
Implementation Plans. And with regard to water we are leading a 
multiagency approach that has set a goal of eradicating lead 
from our drinking water within 10 years, largely through the 
utilization of a tool that you provided, WIFIA. It is my goal 
to prioritize applications for critical water infrastructure 
over the 10 years to hopefully see $4 billion a year dedicated 
to the replacement of lead service lines in order to reduce 
lead in our drinking water.
    President Trump has set an ambitious goal for the EPA under 
his administration, and our measurable achievements are a 
testament to the effectiveness which a results-driven EPA can 
achieve. President Trump did not only task us with 
accomplishing the core mission of the EPA acting more 
efficiently and more effectively than ever before, he also 
demanded comprehensive regulatory reform. That transformational 
change is happening. In just 1 year, the Trump administration 
has saved the American people almost $8 billion in regulatory 
savings. And the EPA alone is responsible for nearly two dozen 
regulatory actions, saving Americans one billion of that eight 
billion in regulatory cost.
    These actions are providing America's job creators with the 
regulatory clarity they deserve. By repealing and replacing the 
so-called Clean Power Plan we are ending a one-size-fits-all 
regulation on energy providers and restoring rule of law. By 
rescinding and rewriting the 2015 Waters of the United States 
rule we are ending Washington's power grab over land use 
decisions across the country. It is indisputable that we have 
made enormous progress in advancing President Trump's reform 
agenda and pruning back decades of regulatory overreach that 
was unnecessary, burdensome, and ultimately harmful to 
hardworking Americans across the country.
    When the President nominated me to this position I believed 
the work was going to be impactful and it has been and 
tremendous progress has been made. But I did not expect the 
work to be easy and I knew there would be meaningful 
opposition. However, as I sit before you today, I recognize 
there have been very troubling media reports over the past few 
weeks. I promise you that I, more than anyone, want to 
establish the hard facts and provide answers to questions 
surrounding these reports.
    Let me be very clear. I have nothing to hide as it relates 
to how I have run the Agency for the past 16 months. I am not 
afraid to admit that there has been a learning process, and 
when Congress or independent bodies of oversight find fault in 
our decisionmaking, I want to correct that and ensure that it 
does not happen again. Ultimately, as the Administrator of the 
EPA, the responsibility for identifying and making changes 
necessary rests with me and no one else. With that being said, 
facts are facts, and fiction is fiction, and a lie doesn't 
become truth just because it appears on the front page of a 
newspaper. Much of what has been targeted towards me and my 
team has been half-truths, or at best stories that have been so 
twisted they do not resemble reality. And I am here, and I 
welcome the chance to be here to set the record straight in 
these areas.
    But let's have no illusions about what is really going on 
here. Those who have attacked the EPA and attacked me are doing 
so because they want to attack and derail the President's 
agenda and undermine this administration's priorities. I am 
simply not going to let that happen. I look forward to your 
questions today, and thank you, Mr. Chairman.
    [The prepared statement of Mr. Pruitt follows:]
  
  
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Mr. Shimkus. The gentleman yields back his time. The Chair 
thanks the Administrator. I will start the series of 
questioning, and I will recognize myself for 5 minutes for the 
first round.
    We have obviously a lot of media presence here. I have been 
asked the last couple days what am I going to do, what am I 
going to say, and I said, ``Well, I am going to talk policy and 
stewardship.'' So half my 5 minutes is going to be on a policy 
issue, and hopefully that will save some time for us to talk 
about some stewardship issues.
    Since you last testified before the subcommittee, the White 
House has hosted a number of meetings, some of which have 
included you and other Cabinet officials, senators, and various 
stakeholders, to discuss changes in the Renewable Fuel 
Standard. As I alluded to in my opening statement, those 
potential administrative actions hang like the sword of 
Damocles over efforts on Capitol Hill to reach an enduring, 
legislative solution to the problems of that program.
    Are any of these administrative changes imminent, or will 
you commit to allowing Congress time to work on a legislative 
solution?
    Mr. Pruitt. Well, Mr. Chairman, I think both are important, 
and I do think there are some regulatory options that we can 
pursue. Many have talked about transparency as an example with 
respect to the trading platform and the RFS trading platform, 
how long you can hold a RIN as an example, who can buy, who can 
sell RINs. There are those kinds of, I think, evaluations that 
we can engage from a regulatory perspective. And, as you know, 
there is also consideration about the RVP waiver and the E15 
being allowed year-round.
    I think that is something, it is a legal determination. It 
is not a policy determination. And we have been earnest the 
last several months evaluating that in hopes that we can get to 
a conclusion on our ability to take those kinds of actions. But 
I really believe that Congress' role in this is terribly 
important because as you look at the issues that we are facing 
with respect to the Renewable Fuel Standard and the viability 
of the RINs platform we need both Congress and our regulatory 
responses to be working together.
    Mr. Shimkus. Well, let me just tell you from my perspective 
what happens as we are trying to get our disparate groups 
together is that every time someone gets hauled down to the 
White House the other side goes crazy. And then, you probably 
get to see the same thing, the other side gets hauled down and 
the other side goes crazy. And we are trying to get everybody 
in the room and that is the perspective that I come from.
    The follow-up on this is what actions, if any, are you 
taking now to prepare for the Renewable Fuel Standard post 
2022?
    Mr. Pruitt. Well, as you know, under the statute we have an 
ability to reset those volume obligations, and we are 
evaluating that. There is a cap of 15 billion for conventional 
presently. But another area, Mr. Chairman, that I know you have 
been interested in is high octane. And with respect to--it was 
mentioned in some other comments about the CAFE standards. 
There needs to be a serious consideration of us pursuing as a 
country fuel choices and options to meet those CAFE standards 
and provide high octane as an option to the American people. I 
think there is a potential that will serve both the ag sector 
as well at the auto sector and consumers across this country 
that we could pursue together.
    Mr. Shimkus. Well, thank you. Now I want to move to the 
administrative portion of my two questions. Obviously you have 
already alluded to and some of my colleagues have alluded to 
all the recent stories and issues and your willingness to set 
the record straight. So, in my minute and 45 seconds left, I 
want to give you the time to address those as you will.
    Mr. Pruitt. Well, I think, Mr. Chairman, as I indicated in 
my opening comment, I want to address each of these respective 
issues and provide information, and we will work with Congress 
both with Oversight as well as this committee to provide any 
and all information that helps answer those questions. Those 
have been a distraction to our agenda, I think the Congressman 
mentioned that earlier, and that troubles me. Ultimately, as 
Administrator of the EPA, I have to take responsibility to make 
changes internal to the Agency to get accountability in our 
processes to ensure that in each of these areas we get better 
results and that we show the American people that we are 
committed to being good stewards of taxpayer resources, staying 
true to our mission at the Agency, which I believe that we are 
and have, and I am committed to doing that. That is why I am 
here to talk to you about it today.
    Mr. Shimkus. I thank the Administrator and I yield back my 
time and now turn to the ranking member of the subcommittee, 
Mr. Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair. Recently it came out that 
two EPA employees who came with you to Washington from Oklahoma 
were given significant raises over the White House's objection. 
When you were interviewed by Ed Henry on Fox News you claimed 
to have been unaware of those raises. At the time, Ed Henry 
asked you whether you intentionally went around the White House 
or whether you simply had no idea what your staff was up to.
    The EPA Inspector General is looking into those raises and 
last week the IG released preliminary information showing that 
the forms to grant the raises were signed by your chief of 
staff, Mr. Ryan Jackson, who wrote that he was signing on your 
behalf. This is your opportunity to set the record straight. 
Did you, Administrator, authorize Mr. Jackson to sign those 
documents for you?
    Mr. Pruitt. Congressman, those were delegated to Mr. 
Jackson, and the Inspector General did reference that in his 
management alert and he recognized the authority.
    Mr. Tonko. So you did authorize him then to sign them?
    Mr. Pruitt. Those decisions, that decision was made by my 
chief of staff.
    Mr. Tonko. Yes or no, did you authorize him?
    Mr. Pruitt. There are delegations giving him that 
authority.
    Mr. Tonko. So that is a yes.
    Mr. Pruitt. The Inspector General recognized that, 
Congressman.
    Mr. Tonko. So you authorized Mr. Jackson to sign those 
documents for you. In internal emails, Sarah Greenwalt, one of 
the aides who received a substantial raise, stated that you 
were aware of and supported the raises. Was that true?
    Mr. Pruitt. I think with respect to the raises, what is 
important----
    Mr. Tonko. Was that true?
    Mr. Pruitt. Congressman.
    Mr. Tonko. I have 5 minutes, so I have to move along.
    Mr. Pruitt. I was not aware of the amount, nor was I made 
aware----
    Mr. Tonko. Not the amount, were you aware of the raises?
    Mr. Pruitt. I was not aware of the amount, nor was I aware 
of the bypassing or the PPO process not being respected.
    Mr. Tonko. Well, then, I am concerned that you have no idea 
of what is going on in your name at your Agency, especially on 
an issue already under IG investigation. You have spent this 
week claiming to champion transparency, but on Tuesday you 
blocked the press from attending an event where you announced a 
new proposal that will severely limit the Agency's use of 
public health studies in policymaking.
    When internal emails came out about this new policy last 
week, they revealed that it had been developed entirely by 
political staff, seemingly without a robust outside stakeholder 
process, and once the press started covering those emails they 
were removed from the Agency's public FOIA portal. I do not 
know if you were personally involved in the decision to remove 
those emails, but it certainly was not transparent.
    Mr. Administrator, you like to claim that you support the 
rule of law and acknowledge the limits of EPA's authority. Many 
of our environmental statutes are clear. EPA must use the best 
available science as a foundation of policymaking. This 
proposal would prevent that. Are you aware, yes or no, that 
Nancy Beck raised concerns that such a policy could also impact 
data that would be important to industry such as confidential 
business information? Yes or no.
    Mr. Pruitt. This effort----
    Mr. Tonko. Yes or no.
    Mr. Pruitt. This effort, Congressman, was about ensuring 
that----
    Mr. Tonko. Were you aware that----
    Mr. Pruitt [continuing]. At the Agency----
    Mr. Tonko. Were you aware that Nancy Beck raised the 
concern? Were you aware?
    Mr. Pruitt. As I indicated, Congressman, this effort is 
actually a reflection of Congress' commitment to transparency 
at the Agency.
    Mr. Tonko. Sir, I need to move on. I take that as a yes. To 
mitigate that concern it appears that the proposal has been 
crafted so that you, the Administrator, has the discretion to 
grant exemptions as you see fit without any transparency or 
accountability for your decisions. For example, if EPA was 
assessing the safety of a chemical, you alone would have the 
power to selectively block public health studies that do not 
support your political priorities and allow ones that favor 
your friends in industry. Not only does this open the door to 
special treatment for industry over the public health, but you 
could also pick winners and losers amongst the industry types.
    Do you think it would be hypocritical to exempt industry 
data containing confidential business information from 
disclosure but not personal health information from public 
health researchers? Yes or no? Would it be hypocritical?
    Mr. Pruitt. I think that is a misstatement. Congressman, I 
believe that what needs to be clear is that what actions we 
took this week were to ensure that data and methodology were 
also available to those that are are concerned about our 
rulemaking.
    Mr. Tonko. You know, I believe it is hypocritical. So 
moving on, given your track record how can the public trust 
your discretion to make fair decisions when it comes to those 
biases?
    Mr. Pruitt. You know, Congressman, this was an effort to 
ensure transparency. Because as we do rulemaking at the Agency 
what is important----
    Mr. Tonko. Based on your record should the public trust 
your decision-making here with the hypocrisies that would exist 
in the system you defined?
    Mr. Pruitt. This is actually in support of transparency for 
all rulemaking at the Agency. This is not an individual 
decision that is made by the Administrator. This is 
programmatic offices making decisions on rules----
    Mr. Tonko. Sir.
    Mr. Pruitt [continuing]. That are based upon transparent--
--
    Mr. Tonko. Sir, I think this boils down to an issue of 
trust, and you have developed a system where you are picking 
winners and losers. We pit the public against the industry or 
you are picking favorites within the industry and I think there 
is a hypocritical outcome to it all.
    And with that, Mr. Chair, I yield back.
    Mr. Shimkus. I thank my colleague for staying within time. 
And the Chair recognizes the chairman of the full committee, 
Congressman Walden, for 5 minutes.
    Mr. Walden. Thank you, Mr. Chairman. As I mentioned in my 
opening statement there are many reviews currently going on at 
the EPA, in the Inspector General's Office, Government 
Accountability Office, and other congressional committees, 
about some of these concerns you are hearing about today, Mr. 
Administrator, and that have been raised in the media. So my 
question is pretty easy. Will you commit the EPA will provide 
this committee with all the documents and information EPA 
produces for those inquiries?
    Mr. Pruitt. Absolutely.
    Mr. Walden. Thank you. As I told you the last time you were 
here, this committee is charged by the House of Representatives 
with legislative and oversight responsibility for the bulk of 
the statutes that the EPA implements and we decide where the 
Agency's money can best be spent. Can you help me understand 
your guiding principles for determining legitimate uses of 
Federal money by the EPA including whether you are using any 
kind of previous spending guidance to make these decisions?
    Mr. Pruitt. Congressman, I believe that as we are making 
decisions we have policy and guidelines at the Agency that 
drive those decisions. Some of them are attributable to 
programmatic offices, some of them are attributable to, you 
know, the science part of our office. But yes, those guidelines 
govern our decisions each and every day.
    Mr. Walden. And are they similar to the guidelines that 
governed your predecessor's decisions?
    Mr. Pruitt. Yes.
    Mr. Walden. In what ways?
    Mr. Pruitt. Well, these are policies that predated our time 
there at the Agency, and so they have governed our--you know, 
from travel to internal decisionmaking on allocation of dollars 
to serve programmatic offices. So these are predated policies 
that govern our actions every single day.
    Mr. Walden. Let me ask you about the issue of science and 
transparency. I have had a lot of constituents over the years 
who have been very concerned about decisions in various 
agencies that get made by Administrators or the bureaucracy, 
and in some cases they can't get access to the underlying data 
that underpins the decisions. The proposal that you put forward 
this last week or so, how does that address that issue? Are we 
going to get science that everybody gets a chance to see that 
can be replicated that maybe is peer-reviewed so we are all 
working off facts?
    Mr. Pruitt. And actually this has been an interest of 
Congress. As you know, there has been proposed legislation to 
address this very issue.
    Mr. Walden. Yes, it has been.
    Mr. Pruitt. And this was a regulatory action that was taken 
this week, a proposed rule that actually goes to the heart of 
transparency, as I was trying to share earlier. Because it 
requires that--and when we do rulemaking at the Agency we can't 
just simply publish the conclusions, the summaries of studies, 
because what has happened historically is third parties have 
provided studies or summaries, we have taken those conclusions, 
used those as a basis of rulemaking but not published the data, 
not published the methodology that actually supported the 
conclusion. And so, those that are commenting on rules were 
ill-equipped to be able to understand whether the conclusions 
were rightly concluded or not.
    So this is an effort on our part to ensure that, as we do 
science at the Agency--whether it is internal at the EPA or 
whether we use third parties, as far as their findings--data, 
methodology, and conclusion should all be a part of the 
package.
    Mr. Walden. So is what you are trying to do is make more 
information available or less information available?
    Mr. Pruitt. Yes, absolutely more information available.
    Mr. Walden. To the public. So you are going to require that 
every one of these decisions or whatever they are based on, the 
data and the methodology as well as the conclusions are 
transparent and available to the public. Is that going to be on 
your website? How are we going to know this?
    Mr. Pruitt. Well, it is actually a proposed rule, 
Congressman. It is actually something that we are taking 
comment on, and I am sure there will be a wide array of comment 
on that very proposal. But the objective, once again, is to 
ensure transparency, reproducibility, with respect to the 
science that we rely upon in making our decisions in 
rulemaking.
    Mr. Walden. As you know, Mr. Administrator, last year, and 
then I think we actually passed it into law this year, this 
committee unanimously, I believe, here and in the House, 
rewrote America's Brownfields Legislation and we are working 
together to rewrite the Safe Drinking Water, clean Drinking 
Water Act as well and make additional grants available. What 
are you doing to help clean up these brownfields sites that 
litter our neighborhoods and our country?
    Mr. Pruitt. You know, we just issued a series of grants 
across the country this week with respect to the Brownfields 
Program, and you are right. It has been a tremendous success 
reclaiming polluted areas across this country to allow 
communities to once again enjoy those areas. And so with the 
partnership of Congress, the increased omnibus, you know, 
provided additional monies there for us to enhance that 
program, we are administering those grants and seeking to 
partner with communities all over the country to ensure that 
these areas are cleaned up and re-purposed and able to be 
enjoyed again by those communities.
    Mr. Walden. And I just have a few seconds left. I want to 
follow up on what the chairman of the subcommittee talked about 
regarding the RFS and new fuel standards. I want you to know 
that Mr. Flores and Mr. Shimkus and others on this committee 
have put a lot of time in because it is a priority of mine and 
theirs to figure out going forward how we have a standard that 
works for those who grow corn, those who refine fuels, the auto 
industry, and the environment.
    And I would hope this administration would look to our 
leadership in this effort as well as any independent actions or 
the fact that we are actually a co-equal branch and the House 
has some authority in this area as well as the Senate. Will you 
commit to that?
    Mr. Pruitt. I think it is essential, as I shared with the 
chairman earlier, because at the end of the day certainty is 
very important in this area. And I think you see tremendous 
investment over the last----
    Mr. Shimkus. The gentleman's time is expired. We will make 
sure--and I apologize. I just want to make sure that--we have a 
lot of people lined up. We will have more time to talk about 
that.
    Mr. Walden. Thank you, Mr. Chairman.
    Mr. Shimkus. The Chair thanks the chairman, and the Chair 
now recognizes the ranking member of the subcommittee, Mr. 
Pallone, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman.
    You know, I listened, Mr. Administrator, to your reasons 
why you haven't resigned and basically you said that you are 
staying because only you can carry out the President's mission. 
And I strongly disagree with that. I think your actions are an 
embarrassment to President Trump and distract from the EPA's 
ability to effectively carry out the President's mission and if 
I were the President I wouldn't want your help, I would just 
get rid of you. But I am not the President so let me move on.
    It has been reported that you have even gone so far as to 
retaliate against EPA's employees, punishing those who 
questioned your spending and management, and sidelining those 
who attempted to advance important public health protections. 
So I wanted to ask again, yes or no, because we don't have a 
lot of time, it has been reported that at least five EPA 
employees were recently reassigned, demoted, or otherwise 
retaliated against after they raised concerns about your 
spending. Is that correct, yes or no?
    Mr. Pruitt. I don't ever recall a conversation to that end.
    Mr. Pallone. Well, I will take that as a yes. I was further 
alarmed----
    Mr. Pruitt. It shouldn't be taken as a yes.
    Mr. Pallone [continuing]. That you removed the head of the 
EPA office that found that you did not face direct death 
threats. Has it always been your practice to fire people who 
disagree with you?
    Mr. Pruitt. I mean, Congressman, the Inspector General 
himself has noted that the threats against me are 
unprecedented----
    Mr. Pallone. Well, you are not answering yes or no. So 
again----
    Mr. Pruitt [continuing]. With respect to the quantity and 
the type of threats and is on the record saying so.
    Mr. Pallone. OK. Look, six staffers is a pattern, I think 
you need to start taking responsibility. But you say you are 
going to take responsibility but you don't. I am very concerned 
by this troubling pattern of retaliation which is not only 
potentially illegal but is also creating a hostile environment 
that is expediting the exodus of valuable expertise from the 
EPA. In place of those dedicated public servants you are 
installing industry lobbyists.
    Let's look at the case of Wendy Cleland-Hamnett, an expert 
who fought to finalize a ban on methylene chloride, a deadly 
chemical used in paint strippers. The New York Times and other 
media have reported that her efforts were opposed by Nancy 
Beck, the chemical industry lobbyist you put in charge of 
regulating chemicals. Just last year, Nancy Beck was being paid 
by the chemical industry to lobby against chemical regulations. 
Now that she is retired, Nancy Beck is running the chemical 
program and the proposal to ban methylene chloride has been 
abandoned.
    Yes or no, were you involved in the decision to abandon 
that rulemaking or was that decision made by Nancy Beck?
    Mr. Pruitt. The rulemaking has not been abandoned. Actually 
there is a proposed rule----
    Mr. Pallone. Well, you say that but that is not accurate. 
Do you know that manufacturers of methylene chloride paint 
strippers have been aware of deaths linked to this use for more 
than 28 years but continue to produce it? Yes or no.
    Mr. Pruitt. That is actually a solvent that we are 
considering under the----
    Mr. Pallone. OK. Obviously you don't want to admit what it 
does. Despite all your scandals, the White House says you have 
the President's support because you are implementing his 
deregulatory agenda, but I think that agenda has real costs. In 
October 2017, right before EPA abandoned the rulemaking, Drew 
Wynne, a 31-year-old small business owner in South Carolina, 
died while using methylene chloride. Drew's brother is here 
today, and I want to thank him for traveling here from South 
Carolina and continuing to advocate for a ban of this deadly 
chemical.
    Were you or others at EPA aware of Drew Wynne's death when 
the Agency abandoned the ban of this deadly chemical? Yes or 
no, were you aware of his death?
    Mr. Pruitt. I think it is important, Congressman, to know 
that we have a proposed ban in place that is being considered 
and we are taking comments on, and we haven't finished that 
process.
    Mr. Pallone. Well, obviously you are not going to admit 
whether you know about Drew's death. Unfortunately, in February 
another 31-year-old man, Joshua Atkins, died using a methylene 
chloride paint stripper to refinish his bike. I learned about 
Joshua from his mother, Lauren, who sent me a deeply touching 
letter.
    And I would ask unanimous consent, Mr. Chairman, to put 
that letter into the record, in which she states her hope that 
her son will be the last to die from this chemical.
    Mr. Shimkus. Can we make sure we see the letter?
    Mr. Pallone. Yes. I will give it to you right now, Mr. 
Chairman.
    Again, Mr. Pruitt, your deregulatory agenda costs lives, 
real people with names, with brothers, with mothers. You have 
the power to finalize the ban of methylene chloride now and 
prevent more deaths, but you haven't done it. Do you have 
anything to say to these families at this point?
    Mr. Pruitt. Congressman, as I was trying to indicate 
earlier, there is a proposed ban in place that we took comment 
on that we are reviewing presently. There has been no decision 
at this time to not----
    Mr. Pallone. All right. Well, obviously you have nothing to 
say to these families. Look, you say you are going to do 
something, but these chemicals are still on the shelves and 
they make a mockery of Lautenberg's TSCA reform legislation 
that this committee worked so hard on, including our chairman, 
Mr. Shimkus, and it makes a mockery of the EPA. You have the 
power immediately to get this chemical off the shelves, and you 
are not doing it and you should do it.
    And again, Mr. Shimkus, I appreciate your help with TSCA, 
but he is not implementing TSCA, so I am wondering if our 
efforts were totally in vain. Thank you, Mr. Chairman.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
thanks the gentleman. The Chair now recognizes Chairman 
Emeritus Congressman Barton from Texas for 5 minutes.
    Mr. Barton. Thank you, Mr. Chairman, and I am honored to 
have the EPA Administrator back before the committee.
    Mr. Administrator, you are not the first person to be the 
victim of, for lack of a better term, Washington politics. You 
got picked to be the EPA Administrator because of the service 
you provided for the great State of Oklahoma in fighting some 
of the Obama administration radical clean air policies. You 
recommended and I support the recommendation that you made to 
the President that we withdraw from the Paris climate change 
agreement. That is a decision that most of the stakeholders at 
EPA violently oppose.
    If you can't debate the policies in Washington, you attack 
the personality and that is what is happening to you. 
Republicans do it when it is a Democratic President. The 
Democrats do it when it is a Republican President. And in my 
opinion, and it is just my opinion, that is what is happening 
to you.
    On your housing costs, were those approved, the contract, 
before it was signed? Didn't you get an ethics review and 
didn't that individual say it was acceptable?
    Mr. Pruitt. There have been two ethics reviews, 
Congressman.
    Mr. Barton. I need quick answers because I want to ask 
you----
    Mr. Pruitt. There have been two ethics reviews speaking to 
the lease itself saying that it met market rates.
    Mr. Barton. OK. You have been attacked for flying first 
class. Is that illegal?
    Mr. Pruitt. Congressman, that was approved by the travel 
office and the security team at the EPA. I have since made 
changes to that. But that was----
    Mr. Barton. But it is not illegal.
    Mr. Pruitt. It is not.
    Mr. Barton. It may look bad but it is not illegal. There 
was an Energy secretary named Hazel O'Leary under the Clinton 
administration. She leased party jets that were used by rock 
stars. Party jets, not one time but several times. Have you 
ever rented a party jet?
    Mr. Pruitt. No, Congressman.
    Mr. Barton. You have not rented a party jet. OK, that is 
good. Let's talk about this transparency issue. As I understand 
it, your transparency proposal is that if they are going to use 
the science to make a recommendation on an EPA regulation they 
have to actually report what the science is. They have to 
release the documents and the data sets and all of that. Is 
that correct?
    Mr. Pruitt. That is exactly right, Congressman.
    Mr. Barton. Is there anything wrong with that?
    Mr. Pruitt. I think it enhances transparency and the 
confidence of the American people as we do rulemaking.
    Mr. Barton. I think it is an excellent idea and it is long 
overdue. In your budget----
    Mr. Shimkus. Will the gentleman suspend for a minute?
    We have guests in the gallery. You are our guests. I have 
some magic words that will then cause you to have to leave. I 
do not want to say that. So if you would respect--we were asked 
for decorum. That is not being decorous, whatever the word is. 
So let's just continue on with the testimony and we will move 
forward.
    The chair recognizes the chairman emeritus.
    Mr. Barton. OK, thank you. On your transparency proposal, 
if it is actually accepted, we will actually get to see what 
the science is behind the support for the regulation. Is that 
not correct?
    Mr. Pruitt. It is. And I think what has been of note to me 
as I have been serving at the Agency is that there is a 
reliance at the Agency on many third-party studies. And, as 
those studies are the support of our rulemaking, it is 
important to make sure that the methodology and data accompany 
those conclusions so that the American people can make informed 
decision about the rules and whether they actually are based 
upon sound science.
    Mr. Barton. This is to get a little bit to the budget we 
are actually here to discuss, there is a program in your Agency 
called Leaking Underground Storage Tanks, short in acronym is 
LUST. The money that goes into that fund is supposed to be used 
to clean up or prevent leaks from underground storage tanks. To 
your knowledge, is there anything under current law that 
prevents a State from using it for other purposes? In other 
words, the money is supposed to be used to clean up these 
underground storage tanks, but my understanding is very few 
States use it for that purpose.
    Mr. Pruitt. You know, Congressman, I am not aware of that 
happening but it is something that we would investigate and 
look into if you have some information about that happening in 
your State and elsewhere.
    Mr. Barton. Would you do that and----
    Mr. Shimkus. The gentleman's time is expired. The Chair 
recognizes the gentleman from California, Dr. Ruiz, for 5 
minutes.
    Mr. Barton. Thank you for your service.
    Mr. Ruiz. Thank you, Mr. Chairman.
    Administrator Pruitt's ethical violations as the head of an 
Agency with a mission to protect the public's health 
demonstrate a concerning lack of integrity and a pattern of the 
rich and powerful putting their rich and powerful friends and 
their own self-interest above the interest of the public's 
health and at the expense of the common good. Clean air to 
breathe and safe water to drink is not a privilege only for the 
rich and powerful but a right for everyone, and the role of a 
public servant is to serve and protect the public, in 
particular the public's health.
    However, the gross elimination of many public health 
protections are kickbacks to the rich lobbyists and corporation 
friends that have a real impact and I want to highlight one 
example. This week the EPA announced that it intends to limit 
the kind of scientific studies it will use in issuing new 
protections to only studies that make public the private, 
personal, confidential information of the people who 
participate in those studies.
    Revealing that info is a clear ethical violation of any 
reputable research institutional review board in the United 
States. The type of studies you want to exclude are the same 
kind of scientific studies that were used to prove that lead in 
pipes and paints harm children and that secondhand smoke is a 
dangerous carcinogen. We are talking about landmark studies 
such as the Harvard School of Public Health's six-city study 
which proved a connection between air pollution and early death 
back in 1993. That just by living in a city with poor air 
quality your average life expectancy was lower than those who 
didn't. This study later became the basis of fine particulate 
matter regulations in the Clean Air Act.
    When you were here in December, you and I spoke about fine 
particle matter which, thanks to studies based on confidential 
patient health information, we now know is associated with 
premature death, asthma attacks, chronic bronchitis, decreased 
lung function, and respiratory diseases. You acknowledge these 
risks and agree that there is no safe level of fine particle 
pollution, but your new policy would block EPA from considering 
the studies that have shown these dangerous health 
implications.
    So do you deny now that fine particle pollution has these 
health impacts, and will these new regulations cause your 
Agency to disregard these sentinel studies?
    Mr. Pruitt. If they provide the data and methodology to the 
Agency and the findings, it will be used.
    Mr. Ruiz. Well, that is a clear violation of ethical rules 
protecting patient confidentiality.
    Mr. Pruitt. Those can be redacted, Congressman.
    Mr. Ruiz. Who is protecting the subjects in those studies? 
So you have promised us a replacement rule for the Clean Power 
Plan. Will that replacement rule acknowledge the health impacts 
of fine particle pollution?
    Mr. Pruitt. We actually have, as you know, a proposed rule 
in the marketplace on just that issue.
    Mr. Ruiz. Well, you know, I mentioned the risks of lead in 
drinking water. So with this new rule--those risks were shown 
by epidemiological studies that protected the patient 
confidentiality and all the other intricacies of confidential 
information. Now your rule would lead to the idea that if it 
doesn't suit the manufacturers' intent that now those studies 
could be disregarded.
    So do you believe that mesothelioma can, or that asbestos 
causes mesothelioma?
    Mr. Pruitt. I do. But the confidential business information 
to which you refer along with personal information can be 
redacted.
    Mr. Ruiz. So that information--so you have been in office, 
you know, you have dismantled protections for the public's 
health, and there is--and protections for children who suffer 
asthma, seniors with respiratory illnesses, and you 
demonstrated a disregard for true scientific study, the 
scientific process, and the confidentiality of people who want 
to participate and help further our collective knowledge to 
protect the public good.
    You have done this to allow your rich and powerful 
corporate friends to create more pollution in order to increase 
profit at the expense of the common good. Again if children 
with asthma and seniors with COPD--and I am an emergency 
physician. I participated in IRB boards. I know the importance 
of protecting the information in order to get more 
participants, and I have also treated children with asthma 
gasping for air or seniors at their last wits' end. When you 
remove these protections under the guise of a false 
transparency notion, then you are making life more difficult 
for everyday American families, and this is disgraceful and the 
American people deserve better.
    Mr. Shimkus. The gentleman's time is expired. The Chair 
recognizes the gentleman from West Virginia for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman. And thank you, 
Administrator, for coming before us. I think that was the first 
policy question you got from the other side of the aisle. 
Observation.
    And to the public, I think this has been a lot of a classic 
display of innuendo and McCarthyism that we are seeing too 
often here in Washington that, unfortunately, I think works 
against civility and respect for people in public office. I am 
hoping we would be able to stay on policy today as much as we 
could, but I can see some just can't resist the limelight, the 
opportunity to grandstand.
    So, having said all that, I thank you for what you have 
done. You have been able to stay disciplined on these policies. 
I know in West Virginia the impact that it has had on 
Brownfields Legislation of what you are doing on that I see the 
rollback of some of the regulatory reform that there is hope 
now. A lot of the people in the fossil fuel industry that they 
could see that deterioration in the past 8 years prior to that. 
There is some hope. We are seeing the economy start to rebound 
thanks to you and the administration of taking this fight on.
    So I know that if I could, I know just as an example, here 
was an example that despite what has been said to the 
achievements that you have made that the EPA just awarded $1.9 
million to research in drinking water having to do with Flint, 
that research in Flint. People are ignoring the progress that 
we are making and they are trying to make this another attack 
on President Trump, and unfortunately there are a lot of people 
that are going to go along with that.
    So if we could, if I could get back to one of the things 
that has disturbed me some with some of the events over the 
last numbers of years was we had a good friend in Leslie 
Lampton who passed away last week. Lampton has Ergon Refinery 
located in Mississippi but they have the only refinery in West 
Virginia. It is a small, kind of a boutique operation at 23,000 
barrels. I know the definition of a small refinery is 75,000 
barrels, so they are a third of the size. But yet, so they are 
struggling meeting all of the qualifications, all the 
requirements of a major refinery.
    Is there something that we could work together or something 
to help out these small refineries so that they can compete? 
Because they can't handle the RINs, they don't have a market 
for that with them. So is there something that we could be 
doing to help out these boutique refineries?
    Mr. Pruitt. Congress has been very helpful in providing a 
small refinery exemption under the statute. It is objectively 
determined. It is 75,000 barrels, as you indicated, production 
and we have received I think 24 applications in 2017, a little 
bit over 30 in 2018. And I would say to you that the volatility 
of the RIN trading platform is creating instability across the 
entire RFS discussion.
    So it is really in everyone's best interest to get more 
clarity and confidence in how this RIN trading platform and 
relief needs to occur. It is going to benefit the ethanol 
industry, benefit the ag sector, and I think benefit those that 
are suffering with the RIN obligations. And so it is our hope 
that we can chart a path forward with Congress to achieve those 
kinds of outcomes.
    Mr. McKinley. OK. Mr. Administrator, for numbers of years 
we were working to try to get resolved something for it was 
sitting out here for 30 to 40 years was the coal ash issue and 
we got that taken care of 2 years ago. But my question then 
back to you as the Administrator is are there States that have 
opted not to put together their own program and turn it over to 
the EPA, or can you help us, like give me an update on where we 
are with some of the State implementation?
    Mr. Pruitt. We have provided guidance to the States with 
respect to developing their own programs, and very few States 
have actually done that, to your question. And we are working 
with those State partners to equip and educate them on the 
option by providing the guidance. I think it is important that 
they pursue it and I think it is important they pursue it in a 
timely way, and it hasn't taken place yet.
    Mr. McKinley. Have any States chosen not to put together 
their own program?
    Mr. Pruitt. I just think it is early. It is nascent in the 
process and I think it is just very few early adopter States so 
far, and that is the reason we are working hard to educate and 
inform those States.
    Mr. McKinley. Mr. Administrator, thank you for handling all 
these issues and I hope that we can stay on policy and talk 
about some of the progress that has been made because I think 
it has been good for the environment. Thank you. I yield back.
    Mr. Pruitt. Thank you.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
recognizes the gentleman from California, Mr. Peters, for 5 
minutes.
    Mr. Peters. Thank you, Mr. Chairman. I do want to ask a 
couple questions about the Superfund program, particularly 
about your friend Mr. Albert Kelly, who you put in charge of 
the program despite his past. He was scheduled to appear before 
the committee in January, but he backed out at the last minute, 
citing travel obligations. I know my colleagues on both sides 
of the aisle were disappointed in that, but Mr. Kelly sent a 
letter for the record that he would be willing to answer any 
and all of our questions regarding his lifetime ban from the 
banking industry and the illegal activities that led up to 
that.
    It is now more than 3 months later, we have gotten no 
information from Mr. Kelly. We are told that political 
leadership has been preventing him from speaking with us, and 
if that is true, that is certainly disappointing. Two weeks 
ago, you were interviewed on Fox News by Ed Henry, and he asked 
you several questions about Mr. Kelly. In the interview, you 
said that the details of the settlement with the FDIC were 
private, and that none of us really know what happened.
    So my question is, if Mr. Kelly is happy to share the 
details of his lifetime banking ban as a matter of 
transparency, is he not telling us the truth, or are you 
stopping him from doing that?
    Mr. Pruitt. I think Mr. Kelly, if he is willing to share 
that with you, he should do that.
    Mr. Peters. Terrific.
    Mr. Pruitt. And I would encourage him to do so.
    Mr. Peters. And because we do think that it is an important 
issue of transparency, I am glad to hear that.
    The FDIC ban is not the only concern about Mr. Kelly. It 
has been widely reported that his family abuts a Superfund 
National Priorities List site. He is the head of the Superfund 
program, creating at least a perception of a conflict of 
interest in that he might be favoring the site that is next to 
his property. You have mentioned that one of your goals, one of 
your values, is that you are committed to good stewardship of 
taxpayer resources.
    Has this financial conflict been reviewed by EPA ethics 
officials, and if so, were they provided with all the necessary 
information to conduct that review?
    Mr. Pruitt. I don't have knowledge about that, Congressman, 
if that has happened or not.
    Mr. Peters. All right. I certainly would ask that that be 
done. When you came to testify before this subcommittee in 
December you claimed that you had to remove scientists from 
EPA's Science Advisory Board because of, quote, the appearance 
of a lack of independence. John Konkus, your Deputy Associate 
Administrator for the Office of Public Affairs, who is tasked 
with reviewing millions of dollars of grants for EPA, was 
approved to provide media consulting advice to unnamed clients, 
likely including his prior clients from his Republican-
affiliated consulting firm. Were you aware that Mr. Konkus was 
continuing to work as a media consultant for outside clients?
    Mr. Pruitt. I am aware that the ethics officials at the 
Agency approved that. That is what I am aware of.
    Mr. Peters. Don't you think this creates an appearance of a 
lack of independence?
    Mr. Pruitt. The ethics officials didn't believe that.
    Mr. Peters. Do you have an opinion personally about that?
    Mr. Pruitt. I don't know anything about the contract. I 
just know that the ethics officials approved that transaction.
    Mr. Peters. It just seems to me that, if he is working for 
people outside the Agency with his fingers inside the Agency, 
that that could be a lack of independence, and I will just 
offer that as my own observation, then.
    You brought in Jeff Sands directly from Syngenta, which was 
facing a very large fine from EPA for failing to protect its 
workers from a dangerous pesticide, chlorpyrifos. During his 
brief tenure at EPA, this fine was reduced from $4.9 million to 
$400,000. Were you personally involved in this decision to 
reduce this fine?
    Mr. Pruitt. It is my understanding that Mr. Sands' 
involvement at the Agency occurred after the decision in March 
of last year with respect to chlorpyrifos----
    Mr. Peters. OK. Without respect to the timing, then, were 
you personally involved then in the decision to reduce this 
fine?
    Mr. Pruitt. I was not.
    Mr. Peters. And I guess, I think I would suggest it also 
creates at least the appearance of and independence.
    And now it has come out that your head of security, who was 
promoted to that role after you fired his predecessor for 
questioning your security spending, did outside investigative 
work during the 2016 presidential election for America Media 
Incorporated, the publisher of National Enquirer. That includes 
the period when AMI purchased and killed a story about 
President Trump having an affair with a Playboy Playmate. Do 
you think that that outside work at least creates the 
appearance of a lack of bias?
    Mr. Pruitt. It is my understanding that is being reviewed. 
And I was not aware of that outside contract, and it is being 
reviewed.
    Mr. Peters. OK. I guess again I would say you are not 
answering the question, I think it creates at least the 
appearance of bias, and we would like to see attention to that.
    Finally, I guess, just to follow up on the first question, 
are you willing to produce Mr. Kelly to answer the questions 
before this committee?
    Mr. Pruitt. I am not standing in the way of Mr. Kelly 
providing information to this committee or any other committee 
and that is a decision that he can make and provide that 
information.
    Mr. Peters. In the interest of transparency would you be 
willing to direct him to come and answer those questions?
    Mr. Pruitt. I don't think I have that authority. I would 
encourage him to do so.
    Mr. Peters. If you have that authority would you be willing 
to exercise it?
    Mr. Pruitt. I would encourage him to do so.
    Mr. Peters. I will take that as a no.
    I will yield back.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the gentlelady from Tennessee for 5 minutes, 
Congresswoman Blackburn.
    Mrs. Blackburn. Thank you, Mr. Chairman.
    And Mr. Administrator, thank you for being here. We do have 
questions about the budget. And we are always interested in 
ways that we can stop Federal overreach, and that is something 
that is so important to my constituents in Tennessee and 
something that we hear about a good bit and they want the EPA 
to kind of get off their back many times when they are 
manufacturers and when they are farmers.
    And as a matter of fact, talking with some of my farmers at 
Mule Day in Columbia, Tennessee, they were talking about the 
WOTUS rule and I want to ask you about that because they say 
that they have to move heaven before they can move earth and so 
they want to get the EPA off their farms. And they are very 
grateful that we have had the delay in the WOTUS rule and it is 
important to them, it is important to manufacturers. They feel 
like they can move forward and do something and they are not 
fighting with this rule.
    So I want you to talk a little bit quickly because I have 
one other question for you about where we are with the repeal 
and the rewrite on WOTUS and then the cost of implementing that 
rule and what you all have ascertained through your cost-
benefit analysis of what the cost of compliance of that rule 
would have been.
    Mr. Pruitt. Well, I will address a couple things, 
Congresswoman, in response to your question. First, the 
decision on repeal as well as the replacement to the 2015 rule 
will all occur in 2018. We will be done with that process this 
year. As you know, and you made reference to that, the 
compliance dates have been extended but we actually have two 
other rules in the marketplace. One is to rescind the 2015 rule 
and then a proposal will be coming out next month with respect 
to the replacement that will be inspired by Justice Scalia and 
I believe the intent of the Clean Water Act with respect to the 
definition of the Water of the United States.
    Mrs. Blackburn. OK, thank you. Let's talk about fuel 
economy standards. We have auto manufacturers in Tennessee and 
in Franklin and we have Nissan, the plants over in Smyrna. We 
have GM, which is in my district down in Spring Hill, you have 
Volkswagen over in Chattanooga. One of the things they talk a 
lot about are the fuel economy standards and the cost per car 
that trying to go to these new economy standards would do, and 
you have talked about adjusting the standards.
    So there again I want you to talk a little bit about where 
we are when it comes to adjusting those standards and then what 
you see as the cost of implementing and then the cost of 
compliance.
    Mr. Pruitt. Well, Congresswoman, as you indicate we 
recently issued a midterm evaluation that occurred in April of 
this year and we determined that the standards that have been 
set were too ambitious and didn't meet the facts and data that 
we currently have at present. So we started or will be starting 
very soon a rulemaking process along with DOT to reevaluate 
those standards.
    I think what is important about the CAFE standards is we 
ought to endeavor as a country to set standards for lower 
emissions on cars that people actually want to buy, you know, 
and I think what has happened for a number of years is that we 
have created these arbitrary levels that has put a certain 
sector of the cars in the marketplace that no one is purchasing 
which means they stay in older vehicles which actually defeats 
the purpose of the very act.
    So we are working with DOT in collaboration interagency to 
address that and that proposed rule will be coming out very, 
very soon with DOT.
    Mrs. Blackburn. OK. That sounds great. I think you are 
exactly right on that. And we hear that not only from 
manufacturers but from the dealers that the economy standards 
have pushed forward vehicles that people don't want to purchase 
many times and so they are staying in the car longer or they 
buy a bigger car that is heavier that they feel like is going 
to be a safer vehicle for them.
    So I appreciate you being here today and I will yield back 
my 30 seconds.
    Mr. Shimkus. The chairman thanks the gentlelady. The Chair 
now recognizes the gentleman from Texas, Mr. Green, for 5 
minutes.
    Mr. Green. Thank you, Mr. Chairman.
    And I want to, Mr. Administrator, I want to thank the EPA 
for a recent announcement of an agreement was brokered between 
International Paper and the McGinnis Industrial Maintenance 
Corporation which are the responsible parties for the site 
cleanup at San Jacinto docks and waste pits in East Harris 
County in Texas. Over the past 10 years, Congressman Poe and I 
have shared that area, although now it is in Congressman 
Babin's district. Our district lines change pretty often in 
Texas, anytime a Federal court decides it.
    So we have been working on it for 10 years and I want to 
thank you for that. The reporting on the agreement stated that 
right now the remediation process is expected to take about 29 
months. Do you know or can you say how certain is that 
timeline? Because having watched other Superfund cleanup sites, 
once you get into it you always find other problems. So.
    Mr. Pruitt. Well, I feel very confident at the timing on 
that, Congressman. Region 6 there in Texas and headquarters, 
the partnership that existed there working with the local 
community is exactly how this should work. There was a 
temporary solution that had been put in place at San Jacinto 
and it threatened the health of citizens in that area and this 
is a permanent solution that will be provided within the time 
period you described and at a cost of $115 million.
    Mr. Green. Well, and I know that is expensive. But again 
this area is developing and for years we have had signs up at 
the San Jacinto River and the Upper Galveston Bay about 
expectant mothers and children shouldn't eat the crabs or the 
fish, but when I go out there, I don't see anybody that is not 
crabbing or fishing. So it is really important to get it 
completely cleaned up so it can be restored.
    It is also an area where we park a lot of our barges in the 
Houston Ship Channel and recently those barges break loose when 
there is a storm or a flood and they will break that cap, that 
temporary cap that they have. And EPA has been really good on 
the job, the regional office in Dallas, to make sure they, you 
know, they keep that pollution at the docks and from continuing 
to come out.
    Let me go to our----
    Mr. Pruitt. If I may, Congressman, I think with the 
hurricanes that came through last year there was significant 
concern about those temporary measures being displaced which 
was really what hastened a solution with respect to a permanent 
solution.
    Mr. Green. Yes. Hurricane Ike actually broke the temporary 
dike but that was coming from the Gulf. Our problem last year 
was the flooding coming downstream that hurt that and also, 
like I said, barges came loose from their mooring and ran into 
it.
    Let me talk about the Renewable Fuel Standard, because if 
you know the area that I represent at one time I had five 
refineries, now I only have three of them. But the American 
Petroleum Institute and ethanol industry agree on--there is not 
much they agree on. A number of waivers the Agency has granted 
under the small refinery exemption under your watch has managed 
to get everyone's attention. API wrote you a letter in February 
and stated their belief that EPA should not grant small 
refineries exemptions.
    The law provides flexibility when it comes to small 
refineries, however, the press reports that EPA has been given 
as many as 25 waivers including some that refineries are not 
experiencing hardship and some may not be that small. The 
smallest I have in my area is a hundred thousand barrels a day. 
The other ones have two quarter of a million every day. There 
is lack of transparency in the small refinery waiver process 
and we understand and respect confidential business 
information, but the EPA is a Federal Government Agency, and 
secrecy is not something that I think the EPA ought to be 
worried about, and it gives appearance of partiality and 
unfairness.
    Do you know how many applications for waivers did the 
Agency receive in 2016 and '17 compliance years for these 
waivers?
    Mr. Pruitt. Well, it runs about a year behind, Congressman. 
The applications we got in '17 relate to the 2016 obligations 
and as I recall they were somewhere in the mid-20s that we 
received. We received more than that this year for the 2017. 
But what is really driving this in a lot of respects, I 
mentioned this earlier, is just the RIN prices, you know, 
dropping to 40 cents, up to 85 cents, and the rest. And so you 
just see a lot of pressure on those small refineries 
particularly because of these escalating RIN prices and the 
instability of the market.
    Mr. Green. Well, I have said it many times in this 
committee over the last 10 years, the Chair and I have a 
difference from southern Illinois to East Houston on the RIN 
issue. Has the Agency granted any waivers to facilities that 
output exceeds 75,000 barrels a day?
    Mr. Pruitt. We look at it on a facility by facility basis 
and the statute says that it is 75,000 barrels or less. So it 
is objectively determined in that regard.
    Mr. Shimkus. The gentleman's time is expired. The Chair now 
recognizes the gentleman from Texas again, another one, for 5 
minutes, Mr. Olson.
    Mr. Olson. I thank the chairman and Mr. Pruitt, welcome. I 
wish your second appearance before this committee was under 
much different circumstances. As you know there has been many 
press reports about problems at the EPA under your watch. These 
problems can't be solved by Congress and this committee. That 
is not our role. The solution is between you and President 
Donald Trump. You work at his pleasure and that is pure and 
simple.
    But today, right now, you are America's EPA Administrator 
and my home district of Texas 22 needs you to work hard for our 
district. We are still trying to recover from Hurricane Harvey. 
We also have a Clean Air Act that actually works with local 
officials, local governments, to make our air cleaner instead 
of pursuing goals that can be never be achieved with technology 
that doesn't exist.
    On Harvey, I have to publicly thank you for two things. 
First of all, your EPA helped my home county of Fort Bend break 
through this whole log jam of regulations to allow us to start 
dredging our flooded bayous, our flooded waterways, quickly, 
and get that stuff taken care of. You did that sir. Thank you 
so much for letting my home county get moving forward.
    Also, I want to echo my comments from Senator Green, and by 
the way this may be the only bipartisan thing you hear in this 
committee today, but it is true. I want to thank you for all 
the hard work you did to fast track efforts to use the 
Superfund to clean up the San Jacinto Waste Pits. As you know, 
Hurricane Harvey displaced the protective caps. We don't know 
how much dioxin, cancer-causing dioxin exploded out of there. 
You stepped up like that with a plan to fix that and that will 
be fixed sometime as you mentioned within the next year or so 
at the latest. So thank you, thank you, thank you for that.
    My first question is about ozone and air quality. This 
committee has heard over and over about how the impacts of 
ozone and pollution some of this happens outside of our 
control, yet for some reason we have to regulate that. This 
ozone comes from as far away as China or maybe as close in 
Texas as forest fires in Bastrop County a couple years ago. 
These uncontrolled sources, which EPA calls them, can create 
chaos for compliance with their rules by local governments. 
They are just frustrated, frustrated, frustrated.
    Our President recently asked you to respond faster to 
States' petitions for relief under exceptional events and 
international emissions provisions of the Clean Air Act. For 8 
years those were never used before. Now you have a great weapon 
to help us out. How do you comply with this new request from 
the President? Can you give this committee progress through 
efforts to make sure that actually exceptional events and 
international emissions are complied with and taken into 
account with the Clean Air Act issues?
    Mr. Pruitt. Congressman, thanks for the question. It is a 
very important question. And I think with exceptional events I 
think there is probably more latitude we have, but you 
mentioned something else that I think is extremely important 
and that is the international transport, air transport of 
pollution and ozone. We have nonattainment areas all over this 
country that are being caused by what is occurring in Asia. 
There has been much effort, much work done by industry and 
States and citizens across the country to lower emissions with 
ozone and we have made tremendous success.
    But some of the problems we have are caused by others as 
you have indicated, particularly in the international arena. So 
we need to find answers there. It may be something we need to 
come back to Congress and ask for your assistance to address on 
that particular front. Exceptional events, I think, are a 
little bit different. I think it is more factually driven than 
the other issue, but nonetheless it is a very important issue 
that we need to address.
    Mr. Olson. One final question, very briefly. We have heard 
over and over about burdens placed on States from regulation 
after regulation after regulation. Last administration would 
save the same life three times with three different laws, 
different regulations. That puts a huge bite into some local 
governments and local people trying to comply with the Federal 
laws.
    Do you have the resources you need in the Office of Air and 
Radiation to issue guidance to make sure working with States 
that we count one life and make these things actually viable?
    Mr. Pruitt. Well, I mean, as I came in to this position, we 
had 700 State Implementation Plans, SIPs, where States have 
invested money and resources to actually provide a plan on how 
to improve air quality, and they were sitting on a shelf. We 
have moved on 350 of those. I mentioned that in my opening 
statement. But we need to focus on those priorities partnering 
with States, and the first place to start is to work with them 
on those State Implementation Plans.
    Mr. Shimkus. The gentleman's time is expired. The Chair 
recognizes the gentlelady from Colorado, Ms. DeGette, for 5 
minutes.
    Ms. DeGette. Thank you, Mr. Chairman.
    Administrator Pruitt, when you were in front of this 
committee in December, we discussed the installation of a 
soundproof privacy booth in the Administrator's office, or the 
SCIF, at a cost of over $40,000. At that time you told me that 
your view was that the expenditure was appropriate despite the 
fact there were two other SCIFs at the EPA. Is that correct?
    Mr. Pruitt. This is actually not a SCIF.
    Ms. DeGette. OK. Well, whatever it is, the soundproof 
booth, you expressed your view that it was appropriate, 
correct? Yes or no.
    Mr. Pruitt. I didn't express that $43,000 was appropriate.
    Ms. DeGette. Yes or no. OK, you are not going to answer my 
question. Did you know at that time that this expenditure 
violated Section 710 of the Financial Services and General 
Government Appropriations Act and the Antideficiency Act? Yes 
or no, sir.
    Mr. Pruitt. It is actually the opinion of the Office of 
General Counsel at the Agency that that is not the case.
    Ms. DeGette. So you are not going to answer that question 
either. Do you know whether any one of your staff knew that 
that expenditure violated these two laws? Yes or no, sir.
    Mr. Pruitt. The OGC again has indicated that their opinion 
is it is not a violation.
    Ms. DeGette. So you are not going to answer that question.
    If we can, please give the witness a copy of the April 
16th, 2018 letter. Are you familiar with that letter from the 
GAO, Mr. Administrator? Yes or no.
    Mr. Pruitt. I am familiar with the GAO's decision, yes.
    Ms. DeGette. Thank you. And in that decision----
    Mr. Shimkus. Will the gentlelady suspend for a minute? Can 
we see a copy of that?
    Ms. DeGette. Certainly. I would be happy to present what is 
asked unanimous consent that it be placed in the record.
    Mr. Shimkus. After we look at it, we probably will. And 
while we are waiting, we are going to--I think we are ready to 
accept that other letter that you asked to be submitted. 
Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Shimkus. The gentlelady may continue.
    Ms. DeGette. Thank you very much, Mr. Chairman.
    Now the conclusion of this was that these two laws were 
violated. Is that correct?
    Mr. Pruitt. Their conclusion is that those statutory 
requirements were not followed by the Agency.
    Ms. DeGette. Yes. Now, did you know about that at the time?
    Mr. Pruitt. I did not.
    Ms. DeGette. Did your staff know about that at the time?
    Mr. Pruitt. About what, Congresswoman?
    Ms. DeGette. About these two laws that were supposed to be 
complied with before the expenditure happened, yes or no.
    Mr. Pruitt. As I indicated, the Office of General Counsel, 
career individuals at the Agency advised----
    Ms. DeGette. No, I am sorry. You can't filibuster, sir. Did 
you know or did your staff know?
    Mr. Pruitt. I am not filibustering, Congresswoman. I am 
trying to answer your question.
    Ms. DeGette. OK. Well, let me ask you this. The EPA has the 
ability to impose penalties for this illegal activity. Will you 
or your staff be subject to these penalties, yes or no?
    Mr. Pruitt. We are investigating this internally with 
appropriate individuals both here as well as the Inspector 
General.
    Ms. DeGette. Well, you don't know. All right, my next 
question, sir, is would you agree that public officials should 
be held to the highest standards of ethical conduct?
    Mr. Pruitt. I believe that, yes.
    Ms. DeGette. Yes. Now, in that vein, I want to ask you 
about two troubling financial housing transactions that you 
have been involved with as a State then a Federal elected 
official. In 2003, you were an Oklahoma State senator with a 
State salary of $38,400, correct?
    Mr. Pruitt. And also an attorney with a law practice.
    Ms. DeGette. Yes, correct?
    Mr. Pruitt. And also an attorney with a law practice.
    Ms. DeGette. OK. Now you lived in a second home near the 
State capital purchased by a shell company, Capital House LLC, 
from a lobbyist, Marsha Lindsey, correct?
    Mr. Pruitt. It was not a shell company.
    Ms. DeGette. OK. But it was an LLC, Capital House, correct?
    Mr. Pruitt. Which is normally how you buy real estate in 
Oklahoma.
    Ms. DeGette. You know, yes or no would work.
    Mr. Pruitt. I am seeking to answer your question, 
Congresswoman.
    Ms. DeGette. OK. Now, what was your financial investment in 
Capital House, LLC?
    Mr. Pruitt. It was one-sixth of the purchase price, as I 
recall.
    Ms. DeGette. And so, what, do you remember the amount?
    Mr. Pruitt. I do not. I did not negotiate the purchase 
price.
    Ms. DeGette. So you actually put that amount into the LLC. 
Is that right?
    Mr. Pruitt. That was the portion that I was responsible 
for, yes.
    Ms. DeGette. And did you actually pay that amount into the 
LLC?
    Mr. Pruitt. I did. I did.
    Ms. DeGette. Thank you. Now, it has been reported that 
another lawmaker rented a room in that home and paid rent to 
you although you never listed your share in the shell company 
or that rent on your financial disclosures. Is that correct?
    Mr. Pruitt. I don't ever recall that. No.
    Ms. DeGette. OK. Was that rental income distributed among 
the owners of the shell company in the proportion that you 
contributed to the company?
    Mr. Pruitt. K1s were issued to each of the individual 
members. Those were reported as income through our tax filings, 
and so all income was reported.
    Ms. DeGette. Did you pay taxes on that income?
    Mr. Pruitt. We did.
    Ms. DeGette. Can we get that information, sir?
    Mr. Pruitt. I can provide you K1----
    Ms. DeGette. Did you personally pay taxes on your income 
from that rental?
    Mr. Pruitt. I can provide you the K1.
    Ms. DeGette. That would be great. Did you pay taxes on that 
income?
    Mr. Pruitt. As I indicated, I received a K1----
    Ms. DeGette. I know you received a K1. Did you pay taxes on 
that income?
    Mr. Pruitt. That was provided to my accountant in our 
filing.
    Ms. DeGette. So you are not going to answer that question 
either.
    Mr. Pruitt. I am answering the question, Congresswoman.
    Ms. DeGette. Yes, OK. Did you pay taxes on the income that 
you got for your share?
    Mr. Pruitt. Congresswoman, as you know, you provide 
information to your accountant, they determine what you pay.
    Ms. DeGette. So you are not going to answer that question. 
Now I have some other questions about your DC condo, but I am 
out of time. And I just want to say to my colleagues on the 
other side of the aisle and also to you, I am not doing this to 
hassle you. I am doing this because, as elected officials and 
appointed officials, we have the public trust. Everything we do 
has to be to the highest ethical standard, as you just agreed 
with me. And when we have these transactions, it brings 
disrespect on us as public officials----
    Mr. Shimkus. The gentlelady's time----
    Ms. DeGette [continuing]. And as the job we do.
    Mr. Shimkus [continuing]. Has expired.
    Ms. DeGette. So I am just going to continue this, and I 
would hope you would be forthcoming with this committee. Thank 
you.
    Mr. Shimkus. The gentlelady's time has expired. Your 
unanimous consent request will be respected, and we will put 
your letter, the GAO letter, into the record.
    [The information appears at the conclusion of the hearing.]
    Mr. Shimkus. The Chair now recognizes the gentleman from 
Ohio, Mr. Johnson, for 5 minutes.
    Mr. Johnson. Mr. Chairman, you know, I served for 26\1/2\ 
years in the United States Air Force, and I do believe that 
public officials have a standard of conduct that should be 
beyond reproach, but so should Members of Congress. And, you 
know, I think it is shameful today that this hearing has turned 
into a personal attack hearing and a shameful attempt to 
denigrate the work that is being done at the EPA and with this 
administration and make this a personal attack rather than 
focus on what we are here to talk about, which is the budget 
and the functioning and the policy work being done at the EPA.
    So I am going to redirect my questioning to you, Mr. 
Pruitt. Under the provision, under the previous administration 
the EPA put severe squeezes on job opportunities and businesses 
in Eastern and Southeastern Ohio which, by the way, we didn't 
make personal attacks when that happened, we talked about 
policy at the time. And this has had, you know, our district 
has an abundance of fossil energy resources and energy 
opportunities.
    Today we have an EPA that recognizes the importance of 
those jobs and is willing to work with the States like Ohio to 
provide a healthy balance between jobs and environmental 
regulations. That approach has made a real difference in my 
State and in my district, and I applaud those efforts at 
restoring sensibility. Along those lines I would like to talk a 
bit about New Source Review and the Agency's work to date on 
some of the issues surrounding New Source Review.
    In February, this committee held a hearing exploring the 
challenges that New Source Review standards pose for our energy 
and infrastructure investments and opportunities. We learned 
that many companies avoid carrying out projects to improve 
existing facilities because they are afraid of being targeted 
by an EPA enforcement action for having incorrectly interpreted 
New Source Review requirements. I have been encouraged to see 
the EPA's recently released guidance memos clarifying certain 
NSR program requirements and policy.
    So, Mr. Pruitt, from your perspective what is the goal of 
these NSR guidance memos and what impact are they having?
    Mr. Pruitt. Well, it is one of the greatest issues that I 
think we are dealing with at the Agency to address that which 
companies want to do across the country which is invest, invest 
in capital infrastructure to improve the reduction of 
emissions. And so what we want to do is provide clarity. You 
mentioned a couple of memo guidances we provided. One is a 
once-in, always-in approach that we took to this issue along 
with the project netting approach that was a second step.
    So we are engaged in those kinds of initial steps, but 
overall we are looking at a comprehensive rule that will 
address New Source Review in order to provide certainty and 
clarity to those across the country that as they make 
investments to improve outcomes as far as emission reductions 
that they are not going to face new permitting requirements 
under the Clean Air Act.
    Mr. Johnson. Yes. Do you think the NSR program can be 
further reformed so that we continue to protect air quality 
while removing unnecessary burdens placed on industry?
    Mr. Pruitt. I mean I do. I think, you know, the Clean Air 
Act was last amended in 1990, 28 years ago, and so I think 
there are provisions of the Clean Air Act that should be looked 
at and that is one.
    Mr. Johnson. In regards to the Clean Air Act, how is the 
EPA striving to provide more flexibility and deference to State 
agencies?
    Mr. Pruitt. Well, as mentioned earlier, we are providing 
guidance in certain and many programs encouraging States to be 
active partners there. But one of the things that I think is 
most essential with respect to air quality is just the 
utilization of State Implementation Plans and us being 
responsive, responding to those Departments of Environmental 
Quality, Departments of Natural Resources, whatever the Agency 
may be, to really work with them in close partnership to adopt 
those plans and approve those plans in a timely way. It really 
sends a bad message when States take those steps, invest, and 
then don't get a response from the Agency for years, and air 
quality suffers as well.
    Mr. Johnson. Well, I have some other questions, but I am 
running out of time.
    Lastly, I know that EPA has expressed interest in finding a 
resolution to some of the concerns regarding EPA's current 
brick MACT rule which was issued in 2015. Would you commit to 
working with me and this committee in providing further 
information on this work and any potential possibilities? 
Compliance dates are right around the corner and it is 
important to provide this industry with some common-sense 
regulatory certainty.
    Mr. Pruitt. Yes, Congressman, absolutely.
    Mr. Johnson. OK, thank you.
    And Mr. Chairman, I yield back.
    Mr. Shimkus. The gentleman's time is expired. The Chair now 
recognizes the gentleman from California, Mr. McNerney, for 5 
minutes.
    Mr. McNerney. I thank the chairman.
    Administrator Pruitt, since becoming EPA Administrator your 
public calendar is filled with meetings with oil and gas 
companies, trade associations, and lobbyists, but not with 
environmental groups or public health groups. It seems that 
deep pockets are a prerequisite to getting a spot on your 
calendar. Mr. Pruitt, isn't it true that you and your 
affiliated political organizations received nearly $4 million 
in campaign contributions from fossil fuel interests?
    Mr. Pruitt. Congressman, I haven't looked at those numbers 
in some time, so I am not sure.
    Mr. McNerney. Well, I can assure you that it is. And as an 
example of pay-to-play, on June 5th, 2017, you announced that 
the EPA halted implementation of the methane rule. This was an 
attempt to retroactively delay the rule's requirements on oil 
and gas industry for 90 days. A few weeks prior to that on May 
24th, 2017, you spoke to the American Exploration and 
Production Council.
    Mr. Pruitt, was your June 5th actions made in response to a 
request by the American Exploration and Production Council or 
any of its individual members?
    Mr. Pruitt. Methane is something that we take very 
seriously and will regulate. In fact, we have proposals that we 
are considering now to regulate methane going forward as part 
of the VOC approach. And so methane is----
    Mr. McNerney. So you aren't answering my question. You had 
a meeting----
    Mr. Pruitt. The actions that were taken then were unrelated 
to any meetings or events. It was actions to provide certainty 
to those in the marketplace with respect to how we were going 
to approach methane.
    Mr. McNerney. OK. Well, I ask this because Concho 
Resources, an oil and gas exploration and production company is 
a member of the American Exploration and Production Council. 
Concho Resources also happens to be represented by the 
Washington, DC, lobbying firm Williams & Jensen. You made these 
decisions on the methane rule that would directly benefit 
Williams & Jensen's client while living in a Capitol Hill condo 
owned by the wife of a then Williams & Jensen lobbyist with a 
rent of $50 a night.
    I wonder what the owners got or tried to get in return for 
their generosity. This is another example of pay-to-play. 
Arbitrarily delaying a rule is illegal and the DC Circuit Court 
found your actions to be in excess of statutory authority.
    Mr. Chairman, I have a statement from the American 
Association for the Advancement of Science on the EPA 
Administrator's plan to disallow the use of scientific evidence 
in decisionmaking, and I would like to submit this for the 
record.
    Mr. Shimkus. If the gentleman would pass it over to the 
Chair so I can look at it.
    Mr. McNerney. Mr. Administrator, do you have confidence in 
the AAAS and the Union of Concerned Scientists in deciding what 
would be best practices for transparency and good science?
    Mr. Pruitt. I am sure their opinion is credible.
    Mr. McNerney. Thank you. Then how can you justify the 
proposed rule disallowing science that was supported by these 
agencies?
    Mr. Pruitt. Well, the actions that we take at the Agency 
are different than their responsibilities. We actually issue 
rules of general applicability that apply to people all over 
the country and we need to ensure that the science that we use 
that underpins those rules actually show methodology, data, and 
conclusions.
    Mr. McNerney. Science which disagrees with professional 
scientists that are practicing professional scientists.
    Mr. Pruitt, by reducing the CAFE standards you will both 
allow more pollution on American streets and make U.S. cars 
less competitive with overseas manufacturers. Yes or no, did 
the $4 million that you received from the oil and gas industry 
influence your decision?
    Mr. Pruitt. The decision we made on midterm evaluation was 
a decision based upon the record.
    Mr. McNerney. Administrator Pruitt, I find it very 
disturbing that you appear to personally benefit from many of 
your decisions and actions that will ultimately harm the people 
of this country, especially people who have little or no 
ability to defend themselves.
    Mr. Chairman, I yield back.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
recognizes the gentleman from Texas, Mr. Flores--we got a lot 
of Texans here--for 5 minutes.
    Mr. Flores. That is right.
    Administrator Pruitt, thank you for joining us today. Let 
me start by echoing Chairman Shimkus' comments regarding the 
Renewable Fuel Standard. While I am pleased that the Agency is 
beginning to look at its authorities after 2022, I would like 
to respectfully remind the EPA that administrative actions 
prior to that time are limited by statute. Accordingly, I 
request that the Agency work with Congress, particularly 
Chairman Shimkus, Mr. Welch, and me as we try to develop 
interim and long-term solutions, fuel solutions that are good 
for the environment and good for auto mileage, good for the 
American consumers, good for the agricultural and ethanol 
interest, and really good for all impacted stakeholders.
    A few minutes ago, Mr. Ruiz was trying to defend the EPA's 
practice under the prior administration of using hidden science 
to develop policy solutions, and you weren't given a chance in 
regard to your efforts to open that process up and become more 
transparent with scientific studies. Can you spend about 30 
seconds describing what you are trying to do to make science 
inside the EPA more transparent, especially because it is paid 
for by the American taxpayer?
    Mr. Pruitt. It seems to me that it is common sense that as 
we do rulemaking at the Agency, when we base it upon a record, 
scientific conclusions, that we should be able to see the data 
and methodology that actually caused those conclusions. That 
just makes common sense to me. That is the only change we are 
making. So any third-party study, we are agnostic about who 
actually adopts the study, we are just simply saying to all 
third-party science, they need to have methodology, data, and 
findings packaged together so that we can make an informed 
decision about the efficacy of their scientific findings.
    Mr. Flores. OK. So I think you and I both agree that the 
American people deserve to see that science. It shouldn't be 
hidden as it was hidden in the prior administration. So I thank 
you for your efforts to make that science more transparent.
    Now to my questions, as the American people are well aware 
the EPA under the Obama administration abused environmental 
regulatory process by ignoring congressional statutes and by 
circumventing the U.S. Constitution. Fortunately, the Federal 
court system stepped in to protect American families from this 
abuse of the rule of law. In this regard I have the following 
questions: one--I will go through the questions first, and you 
all can respond supplementally if you would like to.
    Can you provide this committee with a list of those 
overreaching and overturned regulations that were overturned by 
the court systems? Can you provide this committee with the 
economic cost of those overturned regulations, and can you also 
inform the committee about EPA's actions, if any, to modify 
those regulations so those overreaching regulations to conform 
with the rule of law?
    Mr. Pruitt. Yes, on all fronts.
    Mr. Flores. OK. And I would ask you to do that 
supplementally in the interest of time.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the gentlelady from Michigan, Mrs. Dingell, for 
5 minutes.
    Mrs. Dingell. Thank you, Mr. Chairman.
    Administrator Pruitt, yesterday I sent you a letter on 
EPA's January 25th, 2018, guidance to reverse the longstanding 
once-in, always-in policy for major sources of hazardous air 
pollutants. This document rolls back one of the bedrock 
safeguards to limit toxic air pollution from factories and 
industrial operations. The Clean Air Act requires EPA to 
control hazardous air pollutants to protect public health. 
These pollutants are the worst of the worst and they include 
many that cause cancer in children like mercury, arsenic, and 
lead. The law focuses on limiting these pollutions from 
industrial sources by requiring them to control their emissions 
using the maximum achievable control technology, or MACT.
    The once-in, always-in policy ensured that polluters 
continued to clean up their act and didn't backslide on their 
progress, but in the January 25th guidance you punched a huge, 
giant loophole in these critical public health protections, 
essentially allowing sources to increase their toxic air 
emissions with no consequences. At a Senate hearing in January, 
you were asked about the new once-in, always-in guidance and 
indicated that, quote, ``It was a decision made outside of the 
Air Program office. It was a policy office decision,'' unquote.
    At the time, you didn't seem aware of the details, and that 
happens when things are--you have a lot of stuff, but I am 
hoping now that you have had more time to familiarize yourself, 
and I would like to ask you some questions. It is not clear 
whether EPA has any idea how many sources might increase their 
emissions of hazardous air pollutants as a result of this 
policy change, and I would like to ask you some yes-or-no 
questions.
    Yes or no, did EPA determine which sources and how many 
would be covered by this policy change before releasing the 
January 25th guidance?
    Mr. Pruitt. Yes. There was a review of those issues, 
Congresswoman.
    Mrs. Dingell. Yes or no, thank you.
    Mr. Pruitt. And I would say to you that this was an 
incentive to companies to actually invest in emissions.
    Mrs. Dingell. OK, did you--yes or no--did EPA determine the 
location of these sources?
    Mr. Pruitt. That is something that I would have to--I don't 
know about the locations.
    Mrs. Dingell. Please, for the record--yes or no--did EPA 
provide that? Yes or no, did EPA assess the magnitude of 
hazardous air pollution that could increase as a result of the 
January 25th guidance?
    Mr. Pruitt. It is actually a benefit with respect to 
providing incentive, as I indicated, to those major emitters to 
get into another category.
    Mrs. Dingell. Yes or no. So----
    Mr. Pruitt. I understand that they looked at that, yes.
    Mrs. Dingell. Has EPA initiated or completed any of the 
previously mentioned analyses since the release of January 25th 
guidance?
    Mr. Pruitt. The work that was done was in support of the 
guidance that was issued.
    Mrs. Dingell. It is also not clear whether EPA has looked 
at the potential health effects of this decision. Yes or no, 
did EPA conduct an analysis of the health effects including the 
potential increased risk of cancer of this decision before 
releasing the January 25th guidance memo?
    Mr. Pruitt. That is something we will have to provide and 
verify.
    Mrs. Dingell. Yes or no, did EPA conduct an analysis of the 
potential health effects of this policy on children, babies, or 
pregnant women before releasing the January 25th?
    Mr. Pruitt. That is something we will have to assess and 
provide.
    Mrs. Dingell. Yes or no, did EPA conduct an analysis of the 
potential health effects of this policy on older Americans or 
those with chronic health problems before releasing the January 
25th guidance?
    Mr. Pruitt. I hate to be redundant, but that is something 
we will have to assess and provide.
    Mrs. Dingell. Yes or no, did EPA conduct an analysis of the 
potential health effects of this policy on minority and low-
income communities before releasing the January 25th?
    Mr. Pruitt. I would answer the same way.
    Mrs. Dingell. In the absence of information from EPA, a 
number of independent groups have taken it upon themselves to 
analyze the potential toxic impacts this policy would have on 
communities near and downwind from major sources. They found 
that the chemical industry stands to benefit substantially from 
this loophole. Have you met with any industry representatives 
who requested the repeal of this once-in, always-in policy?
    Mr. Pruitt. Again, this was a decision to provide incentive 
to companies to invest to lower emissions.
    Mrs. Dingell. There are no incentives for pollution. I am 
going to conclude with one different subject, because this is 
very important to me. You recently concluded the midterm 
evaluation of fuel economy standards for model years 2022 to 
'25. It is my deep belief that the auto companies, their 
workers, and the consumer have benefited from having one 
national program for fuel economy and that it is critical to 
preserve that moving forward. The importance of these standards 
besides saving energy, reducing emissions, is the certainty 
that businesses need. I am deeply worried about reports that 
California doesn't matter to you.
    Mr. Shimkus. The gentlelady's time is expiring.
    Mrs. Dingell. All right. I just want to say it is my hope 
that we can have one national program moving forward. If you 
do, we work on it together, everybody wins.
    Mr. Shimkus. The gentlelady's time is expired.
    We are going to accept for submission into the record the 
statement from the American Association for Advancement of 
Sciences.
    [The information appears at the conclusion of the hearing.]
    Mr. Shimkus. Just for our colleagues' note, the chief 
executive officer is a guy named Rush Holt, who you will all 
remember.
    The Chair now recognizes the gentleman from North Carolina, 
Mr. Hudson, for 5 minutes.
    Mr. Hudson. Thank you, Mr. Chairman, and thank you, Mr. 
Pruitt, for being here today. I have two areas of questions I 
want to jump into with you. The first relates to the chemical 
GenX and the Cape Fear River back home in North Carolina. In 
your testimony, you highlighted the importance of safe drinking 
water and the EPA's efforts to proactively protect source water 
as well as address contamination concerns. As I am sure you are 
aware, my State of North Carolina is facing growing concerns 
over the emerging contaminant GenX. I have been engaged with 
you on this issue several times in the past.
    My concern is that we have a chemical that is spreading 
that we simply do not know enough about. I am worried that on 
the EPA's website you state that a management plan for PFOS, 
the related family of chemicals, won't be developed until the 
fall of 2018. 2 days ago I received a letter from the Office of 
Water addressing some but not all of our questions that I have 
asked about GenX. I understand the EPA has posted comprehensive 
scientific literature related to GenX on its website, but EPA 
is also developing human health toxicity information on GenX to 
aid States and localities in setting or refining public health 
goals.
    I would just ask, sir, what information is EPA seeking that 
the literature has, does not already provide, and when will the 
results of the EPA's information development be available to 
the public?
    Mr. Pruitt. Yes, a very important issue, and I have talked 
to the Governor there in North Carolina, and it is something 
that I am aware of the issues in North Carolina. We will have a 
toxicity review by the summer.
    Mr. Hudson. By the summer.
    Mr. Pruitt. With respect to GenX. And as you know this is 
an iteration beyond PFOA and PFOS. GenX was a successive, you 
know, chemical. I am very concerned about its impact and we are 
accelerating that tox review and then we will look at further 
steps in the fall. But we have been in communications with 
North Carolina and the Governor particularly about that.
    Mr. Hudson. Great. Well, I appreciate the attention you put 
on this. What were the updates to EPA's risk management of GenX 
based upon independent laboratory analysis of compounds found 
in the Cape Fear River water samples and what about those 
findings can you discuss now?
    Mr. Pruitt. With respect to the toxicity review or other 
studies, Congressman?
    Mr. Hudson. Well, there were independent laboratory 
analyses of the compounds that was done.
    Mr. Pruitt. Yes. That is part of the work that is being 
done to support the tox review that will occur this summer and 
then there will be additional standards set in the future. But 
what we are trying to do is work with those States like North 
Carolina that have an imminent concern and trying to provide 
them guidance as they adopt State responses as well.
    Mr. Hudson. OK. Well, then I don't know if you are able to 
make a conclusion yet, but was GenX used in a manner that was 
incompatible with the consent agreement under the Toxic 
Substances Control Act or are you in a position to determine 
that?
    Mr. Pruitt. That is something I am not able to speak to at 
this point, but we can get you the information, Congressman.
    Mr. Hudson. Great. Well, I appreciate the seriousness with 
which you have taken this and the work you are doing with our 
Governor and also on this. So thank you for that.
    Mr. Pruitt. Governor Cooper has been very, very concerned 
about it and very focused upon it, and it is important that we 
address it with him and the State.
    Mr. Hudson. Great, thank you. I would like to pivot now and 
discuss another area that you have highlighted as a priority 
for the Agency, which is clean air. In the 47 years since the 
enactment of the Clean Air Act, the EPA has never taken an 
enforcement action against amateur racers who make 
modifications to vehicles used exclusively on tracks for 
racing. Do you support this policy?
    Mr. Pruitt. The policy of taking no enforcement?
    Mr. Hudson. Yes, sir.
    Mr. Pruitt. I think it is wise, yes.
    Mr. Hudson. I appreciate that. In 2015, under the previous 
administration, the EPA slipped a few sentences into a 600-page 
unrelated rule that proposed to repeal this policy. And after a 
public outcry and a number of us raised concerns, they backed 
off, but they sort of left some ambiguity there about the 
legality of this. Would you support legislation clarifying that 
vehicles can be modified for racing and that doing so does not 
violate the anti-tampering provisions in the Clean Air Act as 
long as those vehicles are not used on public roads or used 
exclusively for competition?
    Mr. Pruitt. It is always helpful to us to get congressional 
clarity on these issues, so absolutely.
    Mr. Hudson. Great. Well, I appreciate that. I appreciate 
the time you have given us here today and thank you for your 
focus on clean air and clean water, goals we all share.
    Mr. Pruitt. Thank you.
    Mr. Hudson. Thank you.
    With that, Mr. Chairman, I will yield back.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the gentlelady from California, Ms. Matsui, for 
5 minutes.
    Ms. Matsui. Thank you, Mr. Chairman.
    Administrator Pruitt, it is widely reported at this point 
that most of your patrons and supporters are from the oil, gas, 
and coal industries. The regulations you have withdrawn, 
delayed, or weakened, rules on coal ash disposal, water 
pollution from coal-fired utilities, methane gas emissions from 
oil and gas operations, air pollution from glider trucks, 
formaldehyde emission standards, all translate into additional 
profits for those industries but negatively impact public 
health.
    So it doesn't come much as a surprise that you have 
determined in the midterm evaluation that the stronger vehicle 
fuel efficiency standards are too stringent. I strongly 
disagree with this determination. There is a very robust record 
to support the need for stronger standards and the availability 
of technology to achieve them highlighted by the 1,200-page 
Technical Assessment Report issued by the EPA.
    Administrator Pruitt, you have stated many times that you 
intended to operate at the EPA on the basis of cooperative 
federalism and the rule of law. But when it comes to California 
and vehicle emission standards all of a sudden neither of these 
concepts seem to apply. You have made it clear that you do not 
favor California's waiver under which the State sets greenhouse 
gas emission standards for vehicles and you have stated that 
California should not have, quote, an outsized influence on 
vehicle standards. But this position is inconsistent with your 
preference for States' rights, and more importantly it is 
inconsistent with the law.
    California's special status with respect to vehicle 
emission regulation has been enshrined in Federal law for over 
50 years. Section 209(b) of the Clean Air Act states the 
Administrator shall, not may, shall grant a waiver to any State 
if the State, not the Agency, determines the State standards 
will be at least as protective of public health and welfare as 
the Federal standards.
    The auto manufacturers have repeatedly said that they do 
not want the protracted legal fight that would inevitably occur 
if EPA moved to revoke California's waiver. But many of your 
public statements allude to the Agency moving in that 
direction. So I would ask you, does the Agency intend to 
initiate proceedings to revoke California's waiver, yes or no?
    Mr. Pruitt. Not at present. In fact, we work very closely 
with California officials on that issue. I have sent EPA 
representatives to California----
    Ms. Matsui. So that is a no?
    Mr. Pruitt [continuing]. To meet with CARB and Ms. Nichols. 
It is important that we work together to achieve, as was 
indicated earlier, a national standard.
    Ms. Matsui. OK. So it is really not a yes or no. It is a--
--
    Mr. Pruitt. Congresswoman, we are working very diligently 
and diplomatically with California----
    Ms. Matsui. All right, OK. OK.
    Mr. Pruitt [continuing]. To find answers on this issue.
    Ms. Matsui. OK. OK. Well, I believe the answer should be a 
no because you said you have said you want a national program, 
and you won't get this without California's agreement. The law 
requires you to set standards that protect public health and 
welfare. California standards' does just that. California 
agreed to a national program to enter into an agreement to 
accomplish that goal. If you challenge the waiver or 
significantly weaken the standards you are not following the 
rule of law.
    If you are, in fact, doing what you were appointed to do, 
what you said you were going to do, you must uphold the law and 
set protective standards. So far you have demonstrated little 
intention to do that. That is why the entire country needs 
California's waiver to ensure that public health and the 
environment are protected even in the face of an Administrator 
who cares maybe more about repaying special interests than 
about safeguarding the public's interests.
    Now, Administrator Pruitt, I believe, to a question that 
you answered from Mrs. Blackburn earlier, you said the EPA has 
data supporting your decision to revise emission standards for 
light-duty vehicles. Will you commit to providing that data to 
both sides of the committee by the end of the day? And that is 
a yes or no.
    Mr. Pruitt. We actually have two responsibilities under 
this process. One is a midterm evaluation and then proposed 
rulemaking that will occur. And so we will provide the data to 
you that gave rise to the midterm evaluation.
    Ms. Matsui. Will you provide it at the end of the day, the 
day that you have----
    Mr. Pruitt. I will instruct our team to get that together 
and get that to you as soon as possible.
    Ms. Matsui. End of the day, yes.
    Mr. Pruitt. I will instruct my team to get that and get 
that to you as soon as possible.
    Ms. Matsui. As soon as possible, hopefully within a week, 
then?
    Mr. Pruitt. Well, we will get it to you as soon as 
possible, Congresswoman.
    Ms. Matsui. OK. I will hold you to that, OK.
    Mr. Pruitt. It is my intent to do so, yes.
    Ms. Matsui. I will hold you to that. OK, thank you, and I 
yield back.
    Mr. Pruitt. Thank you.
    Mr. Shimkus. The gentlelady yields back her time. The Chair 
now recognizes the gentleman from North Dakota, Mr. Cramer, for 
5 minutes.
    Mr. Cramer. Thank you, Mr. Chairman. And thank you, Mr. 
Administrator, for lots of things, first of all, for being 
here.
    And once again I never cease to be impressed with the 
incredible depth of knowledge you have on the details of so 
many things. It seems to me, however, the more details you 
know, the more some people demand and they expect you to know 
everything. And I have to say, in my years both on this 
committee and on previous committees, I have never had a 
Cabinet official that knew as much about the policies that your 
Agency is implementing as you have with yours. So thank you for 
that.
    I also want to thank you for your incredible not just an 
understanding of, but commitment to, cooperative federalism. It 
is something that has been lost in previous administrations, 
including by some of your critics that were predecessors to 
you, and the restoration of it is no small matter. And I want 
you to know on behalf of the people of North Dakota how very 
much we appreciate your approval of our State's application for 
primacy over class VI wells, which is our CO<INF>2</INF> wells, 
so I think it was a clear demonstration of the policy.
    I am also, I have to say I am somewhat struck by some of 
the accusations that have come at you today. For example, you 
were accused of picking winners and losers with your policies. 
And I just have to ask, isn't the Clean Power Plan at its very 
core the picking of winners and losers by trying to regulate 
electric generation outside of the fence line? I mean isn't 
that a picking of winners and losers?
    Mr. Pruitt. Well, I mean the Agency, in response to that, 
Congressman, actually defined a best system of emission 
reduction under the statute as being able to coerce decisions 
being made at the local level on how you generate electricity. 
So I think, by definition, that was almost picking winners and 
losers.
    Mr. Cramer. You have also been accused of hypocrisy. You 
have been accused of the lack of transparency by people who in 
the same breath are defending secret science as a means of 
carrying out their political philosophy, all the while accusing 
you of being the ideologue in the room. The irony is rich 
beyond rich with me.
    Mr. Pruitt. And I think what--if I may, for a second.
    Mr. Cramer. Please.
    Mr. Pruitt. I think what is important with respect to the 
scientific transparency, it doesn't apply to only certain 
studies. It applies to all third-party studies of every type. I 
mean, many Members on this committee, I am sure, would be very 
concerned that, if API went out and did a study, didn't provide 
the methodology, didn't provide the data, provided conclusions 
to the EPA, and then the EPA acted on rulemaking with respect 
to methane or other issues, there would be tremendous concerns 
about that.
    So it applies to all third-party science irrespective of 
the source. It just simply says data, methodology, conclusions 
matter, and the American people need to be able to consume 
that.
    Mr. Cramer. Well, it seems to me and I appreciated the 
inquiry earlier and maybe you could elaborate a little bit on 
how personal data can be protected and is protected. Nobody is 
asking for the names of every victim of every, you know, of 
every pollution source that has ever happened in the world or 
that has been sourced in any study. They are not asking for 
personal data, we are asking simply for the science to be 
revealed. I mean you can protect the personal data, right?
    Mr. Pruitt. Both the personal data, Congressman, as well as 
confidential business information, both CBI and personal 
information can be redacted and can be addressed and still 
serve the purposes of the proposed rule.
    Mr. Cramer. I have to say I think, though, of all of the 
accusations today, it was interesting after about 4 minutes of 
defending the swamp, one of their leaders said, ``So much for 
draining the swamp.''
    Mr. Administrator, I think the greatest sin that you have 
committed, if any, is that you have actually done what 
President Trump ran on, what he won on, and what he has 
commissioned you to do in finding some balance in both carrying 
out the mission of environmental protection while at the same 
time looking out for the economy and jobs creation. And I just, 
again, for the people in North Dakota, I appreciate that so 
much.
    In my remaining minute, if you would take some time to just 
elaborate even a little bit more on the New Source Review 
issue, because, you know, in North Dakota we have a number of 
existing plants that are finding it very difficult to even meet 
the spirit of the intent, if you will, of New Source Review, 
and I think it just seems to be working against itself.
    Mr. Pruitt. I mean, I think for the American people as we 
talk about, I mean what New Source Review is, is when you have 
a company that wants to invest sometimes hundreds and millions 
of dollars in their facilities to reduce pollution they refuse 
to do so because if they invest too much it is considered a 
major modification to the facility which then requires what, 
additional permitting responsibilities which they may not get. 
So dealing with New Source Review is something that is very, 
very important to actually incentivize companies and reward 
companies who want to invest in better outcomes.
    It was talked about earlier with respect to once-in, 
always-in. That effectively is what that is, because under the 
category of major emitters and minor emitters in what we said 
is that, as you are a major emitter and you invest and you 
actually reduce your pollution down to minor levels, you can 
actually be rewarded for that and actually, I think, 
incentivized to do that.
    Mr. Shimkus. The gentleman's time has expired. The Chair 
recognizes the gentleman from California, Mr. Cardenas, for 5 
minutes.
    Mr. Cardenas. Thank you very much, Mr. Chairman, for 
calling this hearing and also I marked your words that you said 
that today hopefully we are going to be talking about policy 
and stewardship. So I hope that we can get that on the record 
as well on both of those fronts.
    Mr. Pruitt, welcome to the people's House. The list of your 
failures is long and your wasteful spending is an embarrassment 
to Government and very offensive to the taxpayers who pay all 
of our salaries. This administration is so packed with 
unethical behavior, but yet at the same time you have to 
understand that your power directly impacts health and well-
being of vulnerable populations in this country--seniors, our 
children, our sick, and our disabled.
    It is tempting to ask why you spent nearly $68,000 on 
hotels and travel from August through February, just in 5 
months, and 50,000 on modifications to your office including a 
privacy booth that cost over $43,000, and an oversized desk 
with ornate woodworking that cost over $2,000, but we already 
know that some of these purchases were made in violation of 
Federal laws.
    When you appeared before the subcommittee in December, this 
subcommittee, you said that your phone booth is used for 
classified conversations and sensitive conversations with the 
White House. Has this $43,000 phone booth, has it been 
certified as a SCIF, and also so are you using it for 
classified conversations, is that appropriate?
    Mr. Pruitt. It has not been certified as a SCIF, and it 
does provide protection on confidential communications. And I 
think it is important, Congressman, to know where this 
originated. I did have a phone call that came in of a sensitive 
nature and I did not have access to secure communications. I 
gave direction to my staff to address that, and out of that 
came a $43,000 expenditure that I did not approve. That is 
something that should not occur in the future.
    Mr. Cardenas. OK, so you are not taking responsibility for 
the $43,000 that was spent in your office, you are saying that 
staff did it without your knowledge?
    Mr. Pruitt. Career individuals at the Agency took that 
process through and signed off on it all the way through.
    Mr. Cardenas. OK. So you were not involved in that, is what 
you are saying?
    Mr. Pruitt. I was not in involved in the approval of the 
$43,000, and if I had known about it, Congressman, I would have 
refused it.
    Mr. Cardenas. OK. That seems a bit odd. If something 
happens in my office, especially to the degree of $43,000, I 
know about it before, during, and after. But anyway, let me get 
on to my next points. I am sure you can see the irony of this 
$43,000 expenditure, even though you are saying before the 
public that you are not taking responsibility for it.
    EPA's budget is far from unlimited. When you commandeer 
public resources for your personal use, other lifesaving Agency 
activities do suffer. In another troubling example, Millan 
Hupp, an EPA appointee who came with you from Oklahoma and was 
recently awarded with a large raise over the White House's 
objections, reportedly went out to open houses in search for a 
condo for you. Mr. Pruitt, I hope you understand that using 
public employees for your private business is illegal.
    Turning now to your highly questionable condo lease from 
Vicki Hart, I find it highly concerning that you apparently 
never had an EPA ethics attorney review the lease before you 
signed it. Did you have an EPA ethics attorney look at that 
lease before you signed it?
    Mr. Pruitt. On the other issue, Congressman, I want to 
address that I am not aware of any Government time being used 
by Millan Hupp. She is a friend of both my wife and myself and 
has been for a number of years, and she is a friend. And the 
activities----
    Mr. Cardenas. OK. You stated for the record that you are 
not aware that she used her official time. Thank you very much. 
But did any of the attorneys at the EPA look at your lease 
before you signed it?
    Mr. Pruitt. The review that took place took place 
afterwards.
    Mr. Cardenas. Afterwards, OK. And what did they say about 
that lease afterwards when they reviewed it?
     Mr. Pruitt. They said that the rate paid was comparable to 
other--what I leased actually was comparable to other 
arrangements.
    Mr. Cardenas. Did they state that in writing or verbally?
    Mr. Pruitt. Actually in writing, in writing twice.
    Mr. Cardenas. In writing, OK, can you get a copy of that to 
the committee?
    Mr. Pruitt. I can get the ethics opinions to you, yes.
    Mr. Cardenas. OK, thank you. It was also recently reported 
that as Attorney General of Oklahoma you reassigned an 
investigative staff of the office to be your personal driver 
and security team. Are those reports accurate?
    Mr. Pruitt. I am not aware of what you are referring to, 
Congressman.
    Mr. Cardenas. OK. All right, to my next question. In an 
apparent attempt to rebut reports, your Agency published data 
in February claiming a large increase in penalties against 
polluters, but that data included the penalties assessed by the 
Obama administration. In fact, 90 percent of those numbers that 
you reported were actually assessed by the previous 
administration. Did you intentionally claim credit for the 
enforcement actions taken by the Obama administration to 
obscure your weak record on enforcement, yes or no?
    Mr. Pruitt. In fact, the Obama administration cut into 
agents at that office. We have increased the number of agents 
in that office.
    Mr. Cardenas. Thank you. On my time----
    Mr. Shimkus. The gentleman's time is expired.
    Mr. Cardenas. I just want to show you a picture of the----
    Mr. Shimkus. The Chair recognizes the gentleman from 
Michigan. The gentleman----
    Mr. Cardenas [continuing]. That I grew up in, and that is 
the new picture here.
    Mr. Shimkus. The gentleman will suspend. His time is 
expired. The Chair will recognize the gentleman from Michigan 
for 5 minutes.
    Mr. Walberg. I thank the chairman.
    Mr. Cardenas. I yield.
    Mr. Walberg. And I would thank the Administrator for being 
here. I appreciate you taking the time to do this. It is 
important for us as we work in our relationship, the 
constitutional relationship that we have time with you. So 
thank you for being here and thank you for your policy efforts 
as you perform your functions.
    Administrator Pruitt, the last time you were before this 
committee you told me then, I quote, the Great Lakes 
Restoration Initiative is something that we should work 
together to make sure is achieving good outcomes and I think it 
has and we will continue that discussion as we head into 2018. 
I appreciate those words, but we have seen a lack of support 
for the GLRI.
    Again in this fiscal year 2019 budget request, the GLRI was 
funded at 30 million by this administration. Obviously I was 
and am not OK with that level of funding and worked with my 
colleagues on both sides of the aisle in the Great Lakes Caucus 
in an effort to restore full funding, which we did, for that. 
And I certainly would love to stand on the banks of one of the 
Great Lakes in my district, Lake Erie, with you, and just have 
an opportunity to discuss further what is so important about 20 
percent of the world's fresh water resources being there in the 
Great Lakes and what a job we have attempted to do as Great 
Lakes States to make that work for us.
    Do you believe that 30 million is adequate funding for such 
a critical program?
    Mr. Pruitt. Well, I commend what Congress has done to 
address that. I think Congress restored that level to 300 
million, I think, in the omnibus.
    Mr. Walberg. 300 million.
    Mr. Pruitt. And I remain personally and as Administrator of 
the EPA committed to you to work----
    Mr. Walberg. Will you make a request to the administration 
to work with us on that?
    Mr. Pruitt. I will continue to do that Congressman.
    Mr. Walberg. I would appreciate that because it is 
important and I think again it is something that we want to in 
the Great Lakes Region take care of that resource as good 
stewards and I believe you do as well.
    Mr. Pruitt. Well, the challenges there, the invasive 
species we know is an issue. We want to do all that we can. I 
was actually in Region 5 earlier this week and obviously they 
are very focused on those efforts as well. I am hopeful that we 
can find better outcomes as we go forward on the funding 
levels.
    Mr. Walberg. Well, with that, with invasive species and 
with algae bloom, which has been significant, touching my 
district, across the line in Ohio as well, when we discussed 
last time you mentioned that there would be an interest--and 
let me find--you said it is something that we ought to do going 
forward and ensure that there is a partnership like that and 
specifically referring to Agriculture and Interior.
    Have you had an opportunity to talk with Sonny Perdue or 
Ryan Zinke about this issue of algae bloom and how to address 
it in the Great Lakes?
    Mr. Pruitt. Secretary Perdue and I have actually talked 
about issues with respect to geographical focal areas, but Ryan 
and I have not. And I think it is important, you know, as I 
indicated, for States like the Great Lakes Initiative, you have 
States that have joined together partnering and collaborating 
with the Federal Government to achieve better outcomes, and I 
think that is an example of true federalism.
    Mr. Walberg. Is there anything I can do to assist in 
bringing that coalition together? I would be delighted to stand 
on the banks of Lake Erie with you and Secretary Zinke.
    Mr. Pruitt. Well, yes. We ought to do that together with 
the other two individuals as well.
    Mr. Walberg. OK, next topic is the constant threat of 
invasive species. I believe we have an administration right now 
that isn't committed to some of the shipping interests in 
Illinois and Indiana that there were before and I don't 
discredit that. But we have a water resource that could be 
impacted in many different ways recreationally, commercially as 
well, if Asian carp, one of those species were to get into the 
Great Lakes.
    Can you please provide an update on what your efforts have 
been with the Army Corps of Engineers that have been dragging 
their oars in the water for too long on this issue? Have you 
had any significant contact with them in moving this issue 
forward?
    Mr. Pruitt. I have had contact with Secretary Esper as well 
as R.D. James there at the Corps on a multitude of issues. I 
don't recall speaking about this particular issue, but I 
appreciate you making me aware of it, and we will talk to them 
about their involvement.
    Mr. Walberg. Yes, if you could get on that. That is just so 
significant. And it is amazing right now though we have seen 
DNA that have come from carp in the Great Lakes, thus far we 
are not seeing the impact of the fish themselves. We can't have 
that happen. If it happens there is no turning back, and this 
is an environmental protection issue. And so I hope that you 
will check into that further, and I certainly would like to 
check with your office.
    Mr. Shimkus. The gentleman's time is expired. The Chair 
recognizes the gentleman from Georgia for 5 minutes.
    Mr. Carter. Thank you, Mr. Chairman.
    Thank you, Mr. Pruitt for being here. As you know, I have 
the honor and privilege of representing the 1st congressional 
district of Georgia which includes the entire coast of Georgia 
and it also includes the Savannah Harbor. The Savannah Harbor 
Expansion Project is a billion-dollar project, arguably the 
most important economic development project in our State's 
history next to the Interstate System. It supports the 
infrastructure and economic principles that were laid out by 
President Trump. It is exactly that.This is what he has been 
talking about when he has been talking investing in the 
infrastructure in our country. It is one of the most studied 
projects in the history of mankind.
    We started this project in the late 1990s. Since that time, 
three ports in China have been started and completed, yet this 
is not completed yet. Back when you were here in December, I 
brought to your attention the Tier 4 emission standards that 
are being required for the harbor pilots and for their boats 
and the problem that it was causing us then. You understand 
that unless we can get those ships in and out of port, it does 
us no good to invest a billion dollars into this project. We 
have to have those harbor pilots and their vessels in order to 
get these ships in and out of port.
    Now the Tier 4 emission standards, I spoke to you in 
December about those. This was after months of my staff and 
your staff going back and forth to discuss this. Since that 
time almost 5 months ago, I have had the harbor pilots come up 
to Washington at their own expense and their own time to meet 
with your staff. Your staff was completely unprepared. It was 
complete waste of time for the harbor pilots to be here. You 
gave me a commitment back in December that you would look into 
this. I need to know where we are at with this. This is 
extremely important for us.
    Can you give me an idea of where we are at with this?
    Mr. Pruitt. First, Congressman, my apologies to you and 
your constituents if we weren't responsive. And that is the 
first I have heard of that and I will check on that very issue 
and my apologies there.
    Secondly, as I shared with you recently, we are actually 
sending representatives, I think, to California to meet with 
the architect on the construction of the vessels to determine 
whether there is a way to modify----
    Mr. Carter. When will they be going to California?
    Mr. Pruitt. I think this month. I think it is actually this 
month.
    Mr. Carter. This month, April?
    Mr. Pruitt. May, I am sorry. It is happening in May.
    Mr. Carter. May, so next month.
    Mr. Pruitt. Yes.
    Mr. Carter. Can I have the commitment that we are going to 
get this fixed? Are you personally involved in this? Are you 
personally looking into this?
    Mr. Pruitt. I am now.
    Mr. Carter. You are now as of today.
    Mr. Pruitt. Yes.
    Mr. Carter. But you told me you were in December.
    Mr. Pruitt. Yes. My communication----
    Mr. Carter. Now you are telling me today. I want to believe 
you.
    Mr. Pruitt. Yes. So my communications to the team in 
December were to take steps, and apparently that has not been 
done.
    Mr. Carter. That has not been done.
    Mr. Pruitt. Yes. So I will be personally engaged on this 
going forward.
    Mr. Carter. I certainly hope so, because look, I want to 
help you, OK, because I want you to help me. This is extremely 
important. This is, as I said before, the largest economic 
development project in the State of Georgia since the 
Interstate System. We have got to have this done. If we don't 
have the bar policy, they don't have the vessels and the 
manufacturer is telling us that they cannot meet the Tier 4 
emission standards and build these vessels that they need.
    Mr. Pruitt. I think it is also a competitive situation with 
other regulations outside of our Agency that are causing a 
certain type of vessel along with the engine. So there is work 
to be done.
    Mr. Carter. I just need a commitment. Can I have a 
commitment from you that this will be resolved in 30 days?
    Mr. Pruitt. You have the commitment from me to get engaged 
on this issue with our Air Office to find answers. We will have 
answers----
    Mr. Carter. Can I have a commitment from you that you will 
get this resolved as soon as you can?
    Mr. Pruitt. I will find answers to this within 30 days.
    Mr. Carter. OK. I can't stress to you how important this 
is. Also, the Tier 4 emission standards are causing problems 
with generators. They are not able to build the large one 
megawatt generators. And keep in mind now I said I was 
representing the entire coast of Georgia. We have hurricanes in 
Georgia, therefore we need generators. In fact, in one 11-month 
period we had two hurricanes. They cannot make these. Will you 
commit to reviewing the Tier 4 standards to see if they are 
practical and if they are rational?
    Mr. Pruitt. Yes. I will engage in conversations around this 
issue with our Air Office to see what the options are.
    Mr. Carter. The last thing I want to ask you about is 
biobutanol. It is my understanding that you have----
    Mr. Pruitt. About what, I am sorry?
    Mr. Carter. I am sorry?
    Mr. Pruitt. About what, I am sorry?
    Mr. Carter. Biobutanol.
    Mr. Pruitt. OK.
    Mr. Carter. This is one of the biofuels that is an 
alternative fuel, and it is my understanding that you have a 
comment period that is about to end at the end of April. Is 
that correct?
    Mr. Pruitt. I can verify that.
    Mr. Carter. OK. Well, please verify that because, as you 
know, the ethanol additives cause a lot of deterioration to 
marine engines. Biobutanol, as I understand it, is much better, 
much more compatible for marine engines, and we need that to 
come to market. When this comment period is up, I hope that you 
will act on it.
    Mr. Shimkus. The gentleman's time is----
    Mr. Pruitt. Pathway for advanced categories under the RFS, 
is that what you are referring to?
    Mr. Carter. Yes.
    Mr. Pruitt. OK.
    Mr. Shimkus. The gentleman's time is expired.
    Mr. Carter. Thank you, Mr. Chair.
    Mr. Shimkus. The Chair recognizes the gentleman from 
Mississippi for 5 minutes, Mr. Harper.
    Mr. Harper. Thank you, Mr. Chairman.
    Administrator Pruitt, welcome. It appears that it has 
become a political blood sport to try to destroy anybody 
associated with the Trump administration, and I want to say 
thank you for what your Agency has done and the attention that 
they have given to the New Source Performance Standards for 
residential wood heaters. That was very helpful to some, you 
know, employers that were in real danger of not being able to 
meet a particular deadline and I appreciate the work that your 
Agency has done on that.
    And I also want to ask you a few questions and I need to 
ask you about a series of media reports that I found 
particularly concerning. According to these reports at least 
five EPA officials have been reassigned, demoted, or requested 
to switch jobs because they raised concerns about your spending 
and management of the Agency. You know, you have already 
testified this morning that these actions were based on other 
reasons, but even the implication of retaliation can have an 
impact on the morale of EPA employees. Will you explain these 
allegations and tell us what steps EPA takes to investigate 
allegations brought forward by EPA employees?
    Mr. Pruitt. First, there is no truth to the assertion that 
decisions have been made about reassignment or otherwise as far 
as employment status based upon the things that you reference. 
I am not aware of that ever happening, and it is something I 
want to make very, very clear. The individuals, I don't know to 
whom you reference across the board, but the folks that I am 
aware of, two of those individuals are SES individuals that are 
serving in other capacities. They are actually still employees 
of the Agency.
    So I think that is important to note, but I just want to 
emphasize very, very clearly to you that there is no actions 
that we have taken that I am aware of related in any way to the 
issues you raise as far as reassignment or employment action 
based upon that.
    Mr. Harper. Can you assure me and the employees of EPA that 
all whistleblower complaints are taken seriously at EPA and 
that you will make your best efforts to ensure that 
whistleblowers are protected from any kind of retaliation?
    Mr. Pruitt. Absolutely, and I think that is how we get 
better. I think that is how we improve outcomes and processes. 
And this is not one of those situations, Congressman, in this 
situation, but absolutely, prospectively that is something that 
I can commit to you and will commit to you.
    Mr. Harper. You know, I have had some of my constituents 
raise an issue regarding oil spill response training and I am 
told that the funding for certain training courses for Federal 
and local responders involved in inland oil spill prevention 
and cleanup have been eliminated and that the EPA Environmental 
Response Team is no longer able to consistently make these 
courses available. With an increase in oil production across 
the country there remains a need for oil spill response 
training for local, State, and Federal responders.
    Would you be willing to commit to looking into whether 
funding can and will be made available for what we believe is a 
very important training?
    Mr. Pruitt. Yes. Yes, Congressman, I agree with that.
    Mr. Harper. Over the last 6 years, EPA has used its 
discretion to reduce and perhaps eliminate the effectiveness of 
the on-site technical assistance appropriated by Congress to 
small and rural communities in my home State of Mississippi 
including terminating funding for my State's two full-time EPA 
funded circuit rider positions. My rural and small communities 
have told me numerous times, however, that this is the best and 
most helpful assistance with EPA water standards and unfunded 
mandates.
    So to address this problem in 2015, Congress passed and the 
President signed a version of my bill, the Grassroots Rural and 
Small Community Water Systems Assistance Act, solely to stop 
this problem that was caused by EPA and still continues today. 
So this bill requires EPA to give preference to the technical 
assistance that small and rural communities find the most 
beneficial and effective.
    So on April 11th of 2018, EPA announced the award of 
technical assistance grants. It was my hope that this 
announcement would have returned the two full-time circuit 
rider positions funded by EPA to Mississippi and the other 
States, yet I am told that there is less help with EPA mandates 
to small and rural communities. So did EPA conduct a review of 
what small communities find is the most beneficial and will you 
look into this for possible necessary correction?
    Mr. Pruitt. Yes. So those TAG grants are so important. And 
when you reference small and rural communities, some of our 
water infrastructure we think about the dense markets as far as 
the age in infrastructure across the country but those rural 
communities also need tremendous assistance. So those TAG 
grants are something that should be a focus in that area that 
you raised and I will look into the status of that for you.
    Mr. Harper. Thank you very much for what you are doing for 
the country.
    Mr. Shimkus. The gentleman's time is expired. The Chair 
recognizes the gentleman from Illinois, Mr. Rush, for 5 
minutes.
    Mr. Rush. Administrator Pruitt, I must say unlike my 
colleagues, no, thank you, no, thank you, to the policies of 
the Environmental Protection Agency under your tenure. But in 
my home city of Chicago we are in the middle of a dire 
situation as reported in a recent Tribune article entitled, 
``Brain-damaging lead found in tap water in hundreds of homes 
tested across Chicago, results show,`` and this article is 
written on April the 12th, 2018. The article went on to state 
that, in the nearly 2,800 homes tested between 2015 and to 
2017, close to 70 percent were found to contain elevated levels 
of lead. Additionally, three of every ten homes tested 
contained lead concentration higher than 5 parts per million, 
the maximum amount allowed in bottled water by the FDA.
    I understand that EPA is currently considering revisions to 
the lead and copper rule. This rule was supposed to have been 
issued last year, but the Agency under your leadership has 
repeatedly delayed any action on this. You have also delayed 
action on the lead renovation, repair, and painting rule for 
commercial buildings. And your recent proposal on scientific 
data could block the EPA from considering landmark studies, 
what you misleadingly have termed, quote, secret science, end 
of quote. These important studies are critical in identifying 
potential risks to public health including those related to 
lead contamination, cancer as it related to smoking, as well as 
the health impacts associated with other dangerous 
contaminants.
    And I would like to hear from you on how the Agency will 
move to phase out lead in drinking water such as require 
replacements of lead service lines as well as your 
justification for your attacks on established scientific data. 
I have also been concerned by some of your public statements 
expressing a belief that there might be a safe level of lead 
and suggesting that lead contamination of drinking water is 
caused by Superfund sites as opposed to lead piping.
    Mr. Administrator, as you well know, even your own Agency 
has declared that there are no safe levels of lead for 
consumption. According to the Center for Disease Control and 
Prevention, even consuming tiny amounts of lead can permanently 
damage the developing brain of children and contribute to 
kidney failure, heart disease, and other severe health 
problems. I also understand that this issue of replacing lead 
piping will require billions of dollars to remediate this 
problem on a national level. So I am curious to hear from you 
on ways that the EPA might provide financing and other 
mechanisms to help address this issue.
    As you know, the administration's fiscal year 2019 budget 
proposed $863 million on Drinking Water State Revolving Funds 
which is an $81.2 million decrease from the fiscal year 2017 
enacted levels. However, the most recent EPA Needs Survey 
estimates that it will cost over some $472 billion for capital 
improvements between the years 2015 and 2034. I will be 
meeting, Mr. Administrator, with senior State officials in the 
near future to discuss these and other issues, but I would like 
to hear from you on what steps the EPA will be intending to 
address these critical issues which have of course----
    Mr. Shimkus. The gentleman's time has expired.
    Mr. Pruitt. If I may, Mr. Chairman?
    Mr. Shimkus. Just for a short minute.
    Mr. Pruitt. There is no safe level of lead in our drinking 
water. It is something we need to act aggressively upon as an 
Agency and as a country. We have estimated it is about $45 
billion to replace the lead service lines across the country, 
and with WIFIA and the authority this Congress has given the 
EPA, I really believe that we can prioritize funding in the 
WIFIA program up to 4 billion a year in over a 10-year process, 
or thereabouts, achieve tremendous results.
    Mr. Shimkus. OK, the gentleman's time is expired. The Chair 
now recognizes the gentleman from Virginia, Mr. Griffith, for 5 
minutes.
    Mr. Griffith. Thank you very much, Mr. Chairman. Continuing 
along these lines, thank you, Administrator Pruitt. And, Mr. 
Chairman, if we could submit for the record the article from 
The Roanoke Times from today--the article came out yesterday, 
but it is in today's electronic clips--``Virginia Tech team 
gets EPA grant to engineer citizen-science water quality 
project.''
    As you will recall, in the previous administration there 
was a regional EPA Administrator who looked the other way. The 
Flint, Michigan, problem became a problem, but it was exposed 
by Marc Edwards, a professor at Virginia Tech, because he went 
out there on his own dime with his own monies and started doing 
the studies that needed to be done. Now your EPA has granted 
his group $1.9 million to have folks test their water and send 
it in so we can find out exactly where the hot spots are, 
whether they be in Mr. Rush's district of Chicago or elsewhere.
    And Professor Edwards says he calls this the largest 
engineering citizen-science project in American history. The 3-
year grant will support his team, and some other universities 
are involved, and he said that, ``All the work we did with 
consumers over the years and the students at Virginia Tech 
created this bottom-up, organic science phenomena. It created a 
tidal wave of understanding that couldn't be ignored. This is 
how science is supposed to work, to me.'' Marc Edwards, 
Virginia Tech. If we could have that article put in the record 
by unanimous consent?
    Mr. Shimkus. The Democrats have looked at it, and they have 
approved. Without objection, it is submitted for the record.
    [The information appears at the conclusion of the hearing.]
    Mr. Griffith. Thank you very much. Now I am going to switch 
gears, but I couldn't help think Mr. Rush's comments were so 
timely for that.
    All right, I am going to switch now to the final rule for 
Greenhouse Gas Emissions and Fuel Efficiency Standards for 
Medium and Heavy Duty Engines and Vehicles: Phase 2 that was 
approved in the prior administration. You all are taking some 
action in regard to one part of that which I want to talk about 
in a minute, but I first want to talk about trailers. And I 
asked these questions of the prior folks at the EPA and I don't 
know how they have authority to regulate trailers when the 
Clean Air Act clearly says that the term ``motor vehicle'' 
means any self-propelled motor vehicle designed for 
transporting persons or property on a street or a highway and a 
trailer is not self-propelled, nor is it a motor vehicle, nor 
does it have an engine. It might have a compressor if it is a 
refrigerator truck.
    You would agree with me that this needs attention and that 
we need to make sure that trailers are not being declared by 
the EPA to be self-propelled motor vehicles, yes or no?
    Mr. Pruitt. Yes. We are in process----
    Mr. Griffith. Thank you. I have got to move on to the next 
one, because I have got a more complicated one. You are also in 
the process of looking at the situation in that same regulation 
related to gliders and to big trucks. And I have got a problem 
because my district has the Volvo North America truck 
manufacturing site, thousands of jobs, billions of dollars were 
spent to meet the new requirements. Now I would agree with you 
in that, that the law does not say the EPA can do what they did 
because they went after gliders and they didn't, they went 
after it and just said you basically can't do it, which they 
don't have authority to do because it is not a new motor 
vehicle engine, which is defined in the code in similar 
sections to what I just read on the trailers, utility trailers, 
in my district as well.
    But what is interesting is, I do believe that there ought 
to be something because, you know, Volvo and other truck 
manufacturers spent billions upgrading. And what the code says 
is, is that you really don't have any authority over used motor 
vehicles during the useful life of that motor vehicle, but that 
is 11 years and 120,000 miles. So what is happening is in some 
cases the gliders are not being used just on wrecked trucks or 
other trucks that might be, you know, within that time frame, 
but they are being used on trucks outside of their useful life.
    Don't you think that it would be appropriate to take a look 
at--and all that is in the law, you have that authority. Take a 
look at it and see what can be worked out so that we don't have 
trucks that are just being overhauled by the glider companies 
that are decades old and nowhere near meeting the emission 
standards of the United States, but at the same time 
recognizing they have a right to do that if the truck has not 
used up its useful life as defined already as 11 years and 
120,000 miles.
    Mr. Pruitt. So that alternative is something that we 
haven't reviewed yet, but I appreciate you bringing it to my 
attention. We have been focused upon the statutory analysis 
both for gliders and trailers, but this is something we need to 
add to the evaluation.
    Mr. Griffith. And I just have to say what is interesting 
is, is I think about 80 to 85 percent of what the previous 
administration wanted to accomplish could have been 
accomplished if they hadn't done sloppy legal work. I yield 
back.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
recognizes the gentleman from South Carolina, Mr. Duncan, for 5 
minutes.
    Mr. Duncan. Thank you, Mr. Chairman.
    Administrator Pruitt, thank you for being here today and I 
apologize for the abrasiveness of some of my colleagues who 
would rather tarnish your character than really try to delve 
into the issues facing this great Nation.
    I would like to spend a few minutes discussing the Obama 
administration's Waters of the U.S. rule, otherwise known as 
WOTUS. And I know Congresswoman Blackburn brought it up 
earlier, but I want to go into a little more detail. As you 
know, this flawed regulation sought to expand Federal control 
over 60 percent of our country's streams, millions of acres of 
wetlands that were previously non-jurisdictional. It has 
allowed the EPA and the Army Corps to regulate almost every 
water from manmade conveyances to large rivers.
    The rule has created an unnecessary confusion and suffering 
for farmers, ranchers, job creators, and private property 
owners, and in reality the regulations have done very little to 
benefit environmental stewardship. WOTUS is by far the largest 
issue for agriculture in South Carolina, and I know on your 
multistate action tour this past summer hosted by, I think, 
Super-Sod there in Anderson, you saw the real negative impact 
that WOTUS regulations had on farmers and local businesses.
    These regulations are emblematic of the aggressive and 
unconstitutional overreach by the Federal Government under the 
Obama administration and the habitual undermining of State and 
local authority regarding environmental matters. It is our 
responsibility in Congress to use our lawmaking power to enact 
legislative and permanent fix.
    Mr. Administrator, I appreciate your attention and efforts 
to curtail the WOTUS rules. We talked about that the last time 
you were in front of this committee about the President's 
Executive order, and I just want to ask this question. I saw 
earlier this month that you issued a memo taking control of 
decisionmaking from the EPA's regional administrators on 
important matters to streams and wetland jurisdictions. Can you 
elaborate on the intentions of this document and why you issued 
that memo?
    Mr. Pruitt. Yes. There have been many decisions made at the 
regional level through delegation, as I was talking about 
earlier, utilizing that definition historically, you know, that 
2015 decision and then even prior to that in 1986 and the 2008 
guidance. And so we had inconsistency across the country with 
respect to what jurisdiction we had, and this was an effort to 
draw that back to make sure we had uniformity and how we review 
our responsibility on the Clean Water Act and make sure that 
every region is implementing that the way that they should.
     Mr. Duncan. So why is this important to Waters of the 
U.S.?
    Mr. Pruitt. Well, certainty is, certainty and clarity 
around the Waters of the United States rule is terribly 
important because, you know, if you have landowners across this 
country guessing about whether the EPA or the Corps of 
Engineers or any other Agency at the Federal Government has 
jurisdiction over their decision, meaning that they have to 
seek a permit, then they don't want to find out years later 
that they should have got that permit and then face fines each 
day for those number of years. So clarity and certainty around 
where Federal jurisdiction begins and ends really is at the 
heart of our efforts this year with respect to the Waters of 
the United States rule.
    Mr. Duncan. All right. Is there any effort by the Agency to 
go back and look at these maps that were drawn? Because when I 
look at the Waters of the U.S. ruling and I look at streams or 
doggone ditches in my district that were falling under the 
jurisdiction, these are ditches that only hold water in an 
increment rain event, that aren't navigable waterways in 
anybody's opinion. And if you came out there and looked at some 
of these areas you would go, ``Why in the world is that 
covered?'' Is there any attempt by the Agency to go back and 
review these maps and really pull some of those designated 
areas back in?
    Mr. Pruitt. Well, that is part of our objective and effort 
with the rewrite of the Waters of the United States rule. It is 
not just that there was rescission, repeal in the marketplace. 
It is also, what is coming next? Where is the clarity? Where 
does jurisdiction begin and end? Because these jurisdictional 
determinations you are referring to, you are right, they have 
been so inconsistent, so different in certain parts of the 
country that ephemeral drainage ditches, dry creek beds, 
puddles, prairie potholes in North Dakota, you know, are 
considered waters of the United States, which I believe, 
looking at the text of the Clean Water Act, clearly was not 
within the intent of Congress.
    So that is something that we are going through that 
process, providing that clarity, and then those jurisdictional 
determinations will take effect or maybe change after that.
    Mr. Duncan. Just the last question, during my time as a 
State legislator we had instances where areas were considered 
isolated wetlands and these were areas where logging loading 
decks were loaded, were situated, and they sat there for a 
while. Water settled, no wetland, no streams, but bulrushes 
popped up because water settled in there from where the 
equipment had set and all of a sudden this area was designated 
an isolated wetland and wasn't able to be replanted, wasn't 
able to be developed.
    Is there anything the EPA is doing to look at those 
isolated wetland issues like that?
    Mr. Pruitt. Yes, and also prior converted crop lands. I 
mean there are similar issues around that issue, so absolutely 
we are.
    Mr. Duncan. OK, thank you.
    Mr. Chairman, I yield back.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
recognizes the gentlelady from California, Ms. Eshoo, for 5 
minutes.
    Ms. Eshoo. I thank the chairman for holding today's hearing 
and for extending the legislative courtesy for me to 
participate at your subcommittee which I am not a member of. I 
am very glad to be here.
    Administrator Pruitt, public officials and public office 
have a public trust to live up to. We are called to hold 
ourselves to the highest ethical standards so that the people 
that we serve have the confidence that we work for them. Not 
for ourselves, not for special interests, but for them. In 
front of your title Administrator, is U.S. EPA, an Agency that 
Richard Nixon founded. And I think if a public official loses 
the trust of people, his or her ability then becomes crippled 
because of the trust factor.
    Now you have a solid record of breaking ethics rules from 
the State level right up to the Federal Government. It is a 
long list and it includes wasteful spending. I think it is an 
embarrassment to our country, and I think it is offensive to 
constituents. My constituents raise a lot of questions about 
and say, ``How can he be doing this?'' So the question that I 
want to ask you might be a little unusual one: Do you have any 
remorse for the excessive spending on behalf of yourself, the 
expensive air tickets, stopping in Paris, the amounts of 
dollars that you have expended at the Agency for an expensive 
telephone booth? I know you said it is for a SCIF, but there is 
a SCIF at the EPA. Do you have any remorse about this? Do you--
--
    Mr. Pruitt. Let me say to you, Congresswoman.
    Ms. Eshoo. Well, you can answer it yes or no. Do you have 
any remorse?
    Mr. Pruitt. I echo your comments. I think that what you 
said is absolutely true about the importance of public trust--
--
    Ms. Eshoo. No, I want you to answer me. I have--sir, I have 
2 minutes and 38 seconds.
    Mr. Pruitt [continuing]. And I endeavor to achieve to live 
in a way that respects that.
    Ms. Eshoo. Do you have any remorse?
    Mr. Pruitt. I think there are changes I have made already, 
the change from first class to coach travel. That is a change I 
have made. I learned about the pay raises.
    Ms. Eshoo. All right. Well, sir, you are not going to 
outtalk me. You are not going to outtalk me. You claim that 
Steven Hart, the lobbyist who owned the condominium where you 
paid below-market rent, never lobbied you. However, we now know 
this isn't true. Mr. Hart's firm disclosed that he met with you 
regarding cleanup of the Chesapeake Bay. Did you have any other 
official meetings with Mr. Hart, yes or no?
    Mr. Pruitt. The meeting that you referred to was not a 
meeting----
    Ms. Eshoo. Did you have any other meetings with him?
    Mr. Pruitt [continuing]. It was with respect to an 
individual----
    Ms. Eshoo. All right, I am moving on. Did you ever discuss 
Mr. Hart's clients or EPA business with him outside of official 
settings?
    Mr. Pruitt. There was no other meeting with Mr. Hart except 
for nonprofit.
    Ms. Eshoo. Do you have any other lobbyists or 
representatives of industries with business before the EPA 
provide you with similar personal favors that you haven't 
previously disclosed?
    Mr. Pruitt. Congresswoman, as I have indicated with respect 
to this situation with Mr. Hart and Mrs. Hart, the only event 
that took place was a meeting with a nonprofit Chesapeake Bay--
--
    Ms. Eshoo. Are there any other instances in which you 
granted----
    Mr. Pruitt [continuing]. And I am not aware of any other 
instances.
    Ms. Eshoo. Are there any other instances in which you 
granted access to donors or lobbyists to whom you owed personal 
favors?
    Mr. Pruitt. I am not aware of any instances.
    Ms. Eshoo. Your travel including regular upgrades to first 
class at the taxpayers' expense has cost over $200,000 since 
you became Administrator. Are you reimbursing the taxpayer for 
any of that?
    Mr. Pruitt. We can provide you the analysis that occurred 
in June of last year with respect to what caused the change to 
first class.
    Ms. Eshoo. I don't need any analysis. I know what airline 
tickets cost. I fly across the country every week.
    Mr. Pruitt. And I have changed that recently.
    Ms. Eshoo. No, so what are you going to--you didn't answer 
my question. I asked you if you were going to reimburse the 
taxpayers for the overage and this includes ten trips to 
Oklahoma as well. So are you going to reimburse or what are you 
going to do about it?
    Mr. Pruitt. The travel office and the security team 
determine where I sit on a plane and all trips that I have 
taken with respect to EPA dollars have been for official trips.
    Ms. Eshoo. Well, you know what. With all due respect, I may 
be elected, but I am not a fool. That is really a lousy answer 
from someone that has a high position in the Federal 
Government. I mean, this is not a dodge-question day. We ask 
these questions on behalf of our constituents, and I don't 
really find you forthcoming.
    So the last few questions that I would like to ask with 5 
seconds left is, when you traveled to your home State----
    Mr. Shimkus. The gentlelady's time has expired.
    Ms. Eshoo [continuing]. Did you attend political 
fundraisers during any of these visits?
    Mr. Shimkus. The gentlelady's time is expired.
    Ms. Eshoo. I would like an answer.
    Mr. Shimkus. The Chair recognizes the gentleman from 
Pennsylvania. The gentleman from Pennsylvania?
    Mr. Costello. Thank you, Mr. Chair.
    Mr. Pruitt, I think the opprobrium that you generated on 
some of these spending decisions is actually warranted, and I 
have reviewed your answers and I find some of them lacking or 
insufficient. And I believe you have demonstrated--or, you have 
not demonstrated the requisite degree of good judgment required 
of an appointed executive branch official on some of these 
spending items, and I would like to follow up on a couple of 
specific instances.
    It has been reported that EPA officials who have challenged 
your spending decisions and who have been reassigned or demoted 
were not reassigned or demoted over the challenging of your 
spending decisions but they all had performance issues. Have in 
each of those instances, those performance issues, been 
documented prior to them being reassigned or demoted?
    Mr. Pruitt. I am not sure to what you are referring as far 
as a conclusion that they had been performance related. I 
talked about this earlier. I am aware of two individuals being 
reassigned because they were in the SES category, and that 
routinely happens in that category. I know of no instance where 
there were decisions made at the Agency based upon counsel or 
otherwise on spending with respect to employment-related 
decisions. I said that earlier, and I say it again to you.
    Mr. Costello. Are there instances where current EPA 
officials have objected to spending decisions that you have 
made who still remain in their present positions?
    Mr. Pruitt. I am not aware of any employment action taken 
with respect to anyone and spending-related counsel. These 
individuals to whom you refer, I had limited interaction with 
them. They did not spend meaningful time with me with respect 
to spending and recommendations around spending. One of the 
individuals was the head of Advance. Most of the time I spent 
with him was in the field and not at headquarters. So there is 
really no factual connection whatsoever in employment status 
with those individuals and any counsel regarding spending.
    Mr. Costello. Now the issues of the two close aides who 
used to work for you in Oklahoma and their pay raises, are you 
saying that you were not aware that those pay raises were 
provided to them until after the fact?
    Mr. Pruitt. I was not aware of one of those individuals 
even seeking a pay raise. I was aware of another person going 
through the process, but I was not aware of the amount that was 
provided or the process that was utilized to evaluate that. And 
that is what I have spoken to historically.
    Mr. Costello. The other issue that has received a lot of 
attention is the $43,000 phone booth. And you are saying that 
at no time from the point between when you learned that it was 
$13,000 to the time that it became $43,000, you were never 
apprised of the additional cost related to that?
    Mr. Pruitt. I was not aware of it--13,000, 8,000, or 
43,000. I gave a simple instruction to my leadership team to 
address secure communications in the office and then a process 
began and we have documentation we can provide you on that, 
Congressman. Career individuals were involved in that process 
from beginning to end and made the decision that you see in 
that, with the $43,000 allocation.
    Mr. Costello. Now, I tend to be very conscientious of those 
who have personal security-related concerns. And I don't know 
who has said what to you or when, but I do think that there is 
a lot more to that than some people may realize in the general 
public.
    Having said that, it has been reported that, I believe the 
IG has indicated or at least someone in the IG's Office has not 
found some of the personal security concerns that you have 
proffered in relation to the enhanced security that you have 
received to be either warranted or credible. Would you kindly 
provide a little bit more detail on why you think you need--and 
I am just going to be very honest with you. When folks read 
about trips to Disneyland, professional basketball games, Rose 
Bowl, and the additional security detail related to that, that 
doesn't sit well with a lot of people.
    Mr. Pruitt. So I can, Congressman, I can read directly from 
an Inspector General threat investigation, and I can provide 
this to you. There are several on here listed with respect to 
threats, and I will just read you two. ``The threats were 
directed toward her father. The threat stated, `I hope your 
father dies soon, suffering as your mother watches in horror 
for hours on end.'''
    There is another entry, correspondence between the subject 
and individuals. ``Pruitt, I am going to find you and put a 
bullet between your eyes. Don't think I am joking. I am 
planning this.''
    Mr. Shimkus. The gentleman's time has expired.
    Mr. Pruitt. So these are threats that the IG has 
documented. We can provide this to you. The IG has said that 
the threats against me as Administrator----
    Mr. Shimkus. The gentleman----
    Mr. Pruitt. [continuing]. Are unprecedented----
    Mr. Shimkus. If the Administrator, if you will suspend, I 
think the point has been made. The gentleman's time has 
expired. The Chair now recognizes the gentleman from New York.
    Mr. Engel. Thank you, Chairman Shimkus and Ranking Member 
Tonko.
    Mr. Pruitt, the person appointed to run the EPA needs to be 
someone who cares about protecting the health and safety of 
people all across the country, and until now both sides, both 
Presidents on both parties, we have had a pretty good track 
record with our EPA Administrators. But your time in office 
really has been different. Your tenure has been stained by 
repeated abuses of public trust and violations of ethical 
guidelines, guidelines that are designed to ensure that the 
Government's business is conducted with impartiality and 
integrity.
    But what really bothers me perhaps even more, on top of 
that your Agency is willfully ignoring sound science and 
stripping the protections that keep millions of Americans safe. 
You are making our water less safe to drink and our air less 
safe to breathe. You are increasing our exposure to more 
dangerous chemicals and you are making our planet less healthy 
for our children and our grandchildren.
    And that is not just hyperbole. Under your leadership, Mr. 
Administrator, the EPA has weakened standards for ozone 
pollution, proposed a repeal of the Clean Power Plan, announced 
a repeal of the Waters of the United States rule, abandoned the 
once-in, always-in policy that aimed to lock in reductions of 
hazardous air pollution from industrial sources, withdrew the 
mercury effluent rule, delayed the implementation of safety 
procedures at chemical plants to prevent explosions and spills, 
withdrew a proposal to track emissions of methane and volatile 
organic compounds from oil and natural gas facilities, proposed 
eliminating the Lead Risk Reduction Program, announced a 
reconsideration of a rule regarding coal ash, announced a 
reconsideration of vehicle emission standards for model years 
2022 to 2025--and we did a lot of work in this committee on 
these vehicle emission standards.
    You proposed repeal of emission standards for heavy-duty 
vehicles. You announced a plan to weaken emission standards for 
brick and tile manufacturers. You proposed a rule reducing air 
pollutants at sewage treatment plants. You have scrubbed the 
content of your website, including the page devoted to 
explaining climate change. You have removed the word 
``science'' from the mission statement of your Office of 
Science and Technology. You have dismissed 12 of the 18 members 
of the Board of Scientific Counselors.
    You stayed silent when counties failed to meet new ozone 
standards by an October 2017 deadline. Your EPA has collected 
far fewer fines from polluters than any of the last three 
Administrators during the same time, and more staff and funding 
cuts are looming which means even fewer toxic chemicals and 
other environmental hazards will be measured and the statutes 
that protect all Americans will not be enforced.
    There is so much here, Mr. Administrator, that I wish I had 
more time. But instead I will focus on an issue that is in the 
headlines now and has profound implications for our future, the 
Paris Agreement. By announcing that we will abandon our 
commitment to the Paris Agreement, and we heard this from Mr. 
Macron yesterday being critical of it, this administration is 
setting the clock back on U.S. climate action and forfeiting 
our Nation's position as the global leader in developing the 
clean energy economy of the future. The move will only open the 
door for others to take our place.
    This decision is bad for the planet and bad for public 
health. Scientists at the EPA and the U.S. Global Change 
Research Program have found that climate change is a 
significant threat to the health of the American people, 
increasing exposure to disease, increasing the risk of illness 
and death from extreme heat and poor air quality, and 
increasing dangerous extreme weather events. The Paris 
Agreement was and still is our best chance to address these 
risks for all Americans but we can't do it alone. Mr. Pruitt, 
you have supported the President's decision to announce a 
withdrawal from the Paris Agreement.
    President Trump and you have said that the deal unfairly 
puts constraints on the U.S. coal industry and that it somehow 
is a threat to our sovereignty. It doesn't make any sense 
because the Paris Agreement is voluntary. It imposes absolutely 
no constraints on U.S. trade policy or U.S. domestic energy 
policy, but there is an historic economic opportunity for 
American companies and workers to lead the world in creating 
and providing newer, cleaner forms of energy.
    Again, yesterday French President Macron reminded us that 
there is no planet B--that is a quote--but turn to our future. 
And he said, quote, I am sure one day the United States will 
come back and join the Paris Agreement and I am sure we can 
work together to fulfill with you the ambitions of the global 
compact on the environment. I certainly hope he is right for 
the sake of our children and our grandchildren.
    To me, an Administrator should be someone who cares about 
these things, not someone who is going to ruin these things. 
Not someone who is going to make our future more dangerous for 
our families. And that is what bothers me, because you are not 
doing----
    Mr. Shimkus. The gentleman's time has expired.
    Mr. Engel. You are instead--I am finishing, Mr. Chairman. 
You are instead----
    Mr. Shimkus. Finish quickly.
    Mr. Engel [continuing]. You are going against the tenets of 
what your job is supposed to do, and that makes me very, very 
angry.
    Mr. Shimkus. The gentleman's time has expired. The Chair 
recognizes the gentleman from New Jersey for 5 minutes, Mr. 
Lance.
    Mr. Lance. Thank you, Mr. Chairman, my thanks to you and 
the ranking member for allowing me to participate. I am a 
member of the committee, but not of this subcommittee.
    Administrator Pruitt, the EPA has a long and distinguished 
history established by President Nixon as you know better than 
anybody. I represent a district in northern New Jersey outside 
New York and we are concerned about some of the allegations 
regarding the overspending, and in particular the $43,000 for 
the security of the phone booth. As you know, this has been 
criticized by the Government Accountability Office. The general 
counsel, Mr. Armstrong, said that you had a responsibility to 
notify lawmakers. You have indicated that you believe this is 
not part of renovations.
    Having said that, isn't there other secure locations within 
your Agency, and why did we need to spend taxpayer funds to 
build a new secure place for making of telephone calls?
    Mr. Pruitt. First, on the GAO matter, we have in fact 
notified the GAO with respect to those issues and rightfully 
so, based upon their determination. And I do want to say that 
the Office of General Counsel at the Agency, career 
individuals, interpreted the expenditure as not being within 
the guidelines of the statute, and that is the reason the 
Agency acted as they did. And those were all individuals, 
career individuals, that were part of that process.
    Mr. Lance. The GAO disagrees with you, the General Counsel 
disagrees with you?
    Mr. Pruitt. That is right. But steps were taken to notify 
irrespective of that.
    Mr. Lance. I tend to agree with the GAO General Counsel. I 
want that on the record. Why did we need another SCIF or SCIF-
like facility when there was already one at your Agency?
    Mr. Pruitt. So it is not a SCIF, and it was not intended to 
be. As I shared earlier, Congressman, in an earlier question, I 
simply requested for a secure communication, a secure line in 
my office based upon phone calls that occur that are 
confidential in nature. And so, based upon that instruction, a 
process ensued where this investment took place. And that is--
--
    Mr. Lance. Did any of your predecessors suggest that this 
be needed, Republican or Democratic?
    Mr. Pruitt. I am not sure, Congressman.
    Mr. Lance. Well, I think the answer is no. It is either a 
yes or a no. And I don't demand just a yes or no, you are 
willing to elaborate. But did any of your predecessors suggest 
this?
    Mr. Pruitt. I am not sure.
    Mr. Lance. And I am not a person here who requires a yes or 
no. I would like you to answer in detail, did any of your 
predecessors require that?
    Mr. Pruitt. I am just not aware of any requests of 
previous----
    Mr. Lance. Well, I have the honor of representing a 
predecessor of yours, Christine Todd Whitman. She is a 
constituent of mine. She was the Administrator for the second 
President Bush, and she has indicated that she saw no need for 
such an enhanced telephone system when she was Administrator 
and there was secure communications then, and she has indicated 
that she did not think this was appropriate. And respectfully, 
I do not think it is appropriate. And I think that there are 
already secure locations, and I think it was a waste of funds.
    Regarding a completely different issue: In a March 30th 
memo, you stated you signed a directive to give more authority 
to your office over environmental regulations for a project 
near regional waterways. It is my view that taking this 
authority may supplant the role of local representatives and 
experts, water quality boards. You have relied heavily and when 
you were Attorney General of Oklahoma on federalism and perhaps 
appropriately so for local and State control over suits against 
the EPA. Yet, it appears to me that your directive supplants 
local control and that it would give you as Administrator final 
decision-making authority over the protection of streams, 
ponds, and wetlands under the Clean Water Act.
    I would be interested in your views. It impresses me that 
your views may have changed, Administrator, now that you are 
the Administrator, from your position as Attorney General of 
Oklahoma.
    Mr. Pruitt. They haven't changed with respect to the 
collaboration with the States in that regard. I think what you 
are referring to is a decision to bring that delegation back 
from the regions. And what we have seen, Congressman, is a 
great variation, inconsistency from one region to another with 
respect to the issues that you have described. And so this is 
an effort at the Agency to get uniformity and to get 
consistency across the regions. Collaboration, consultation 
will continue both at the regions and with the States.
    Mr. Lance. Thank you. I end my questioning by saying that I 
am concerned about what I believe is overspending. I am 
particularly concerned about the secure location. It is my 
judgment that that was not needed and that is the judgment 
certainly of at least one of your predecessors, a constituent 
of mine, Christine Todd Whitman.
    Mr. Pruitt. And, Congressman, I agree with your statement. 
I believe that that was an amount of money that should not have 
been spent and was never authorized by myself.
    Mr. Shimkus. The gentleman's time is expired.
    Mr. Lance. Thank you very much, Mr. Chairman.
    Mr. Shimkus. The Chair recognizes the gentlelady from 
Illinois, Ms. Schakowsky, for 5 minutes.
    Ms. Schakowsky. Thank you. I would like to thank the Chair 
and ranking member for allowing me, a member of the committee 
but not this subcommittee, to be here today.
    There is a lot of interest, Secretary Pruitt, in your 
testimony. And I also have been troubled by certain behaviors. 
And it has been reported that your decision to abandon the 
planned fuel efficiency standards was heavily influenced by 
Samantha--is it ``Dravis'' or ``Dray-vis''?--one of the 
employees you brought with you from Oklahoma who is now under 
investigation for receiving a salary from taxpayers despite not 
coming to work for 3 months. You personally brought Ms. Dravis 
on the job at EPA when you became Administrator. Is that 
correct?
    Mr. Pruitt. She is not from Oklahoma, and yes, she came in 
upon the start of our administration. And are you referring to 
the midterm evaluation, the decision reached on the midterm 
evaluation?
    Ms. Schakowsky. I am going to continue with my questions, 
and maybe I will get to that. She was hired using the same Safe 
Drinking Water Act authority that was used to give unapproved 
raises to other staff that you did bring from Oklahoma. Is that 
correct?
    Mr. Pruitt. I am not aware if she was hired under that Safe 
Drinking Water Act authority. There is authority on the Safe 
Drinking Water Act to administratively determine certain 
individuals. It is legal, authorized, it has been used by 
previous Administrators, and it could have been used in that 
instance. I am just not aware.
    Ms. Schakowsky. How much was Samantha Dravis paid for the 3 
months during which she did not report to work?
    Mr. Pruitt. Well, I am not aware. There is a pending 
investigation, as you have indicated, review of that and I am 
not aware that she did or did not appear for work. So that is 
something that is being reviewed at this point.
    Ms. Schakowsky. Senator Carper has stated on the basis of 
information, I believe, from a whistleblower, has stated that 
he worked with you on a deal to preserve fuel efficiency 
standards. He has said that you abandoned that deal at the 
urging of Samantha Dravis. Did Samantha Dravis urge you to 
abandon the potential deal with Senator Carper?
     Mr. Pruitt. I am just not aware. I don't know if you are 
speaking of the midterm evaluation or another issue. I just 
don't, I am not sure what you are asking.
    Ms. Schakowsky. Well, regardless of what the source of 
the--I mean these are pretty straightforward questions about 
her and the 3 months that she--are you contesting that she did 
not work for 3 months?
    Mr. Pruitt. No, I am not speaking to that at all. I am 
not----
    Ms. Schakowsky. So I don't know what your point is about 
asking where it came from. I am asking if she worked for 3 
months without any--she did not work for 3 months, with pay.
    Mr. Pruitt. But your question was about fuel efficiency and 
I am not entirely sure what the question was with respect to 
her influence in that regard. So that is what I was trying to 
determine, what area you were talking about. I am not aware 
of----
    Ms. Schakowsky. OK.
    Mr. Pruitt. I will just say it to you this way: I am not 
aware of any decision around fuel efficiency, CAFE or 
otherwise, was an influence in that way.
    Ms. Schakowsky. Are you aware that she was paid and did not 
work for 3 months?
    Mr. Pruitt. I am not aware of any. I know it is under 
review at this point, and those facts will bear out.
    Ms. Schakowsky. I wanted to ask you also, I have a little 
time left, about your vehicles. At the same time that the EPA 
has moved to increase fuel costs for American households, you 
have reportedly asked taxpayers to cover the cost of a luxury 
SUV for your use. Is it true that as Administrator you upgraded 
from a Chevy Tahoe, which I know your predecessor used, to a 
Chevy Suburban with leather interior and other luxury features?
    Mr. Pruitt. As I understand it, the decisions to add a 
vehicle to the fleet was something that was in process prior, 
and they asked for input about the vehicle, that I did not give 
direction to start that process or end that process, they just 
asked for consultation.
    Ms. Schakowsky. It isn't the first time in public service 
that you have upgraded your official vehicle. As Oklahoma 
Attorney General you upgraded to a big, black SUV when your 
predecessor used a sedan. Is that correct?
    Mr. Pruitt. The sedan was something that went out of 
service and we had to replace that with an SUV, yes.
    Ms. Schakowsky. You had to replace it with an SUV?
    Mr. Pruitt. There was a replacement that occurred because 
of the other one coming out of service.
    Ms. Schakowsky. So it is not just that it had to be 
replaced. It had to be replaced with a bigger, less fuel-
efficient and larger, more expensive car. So it just seems to 
me that this pattern that we have been hearing today of 
behavior----
    Mr. Shimkus. The gentlelady's time----
    Ms. Schakowsky [continuing]. Is very concerning. And I 
thank you for your answers.
    Mr. Shimkus. The gentlelady's time is expired. The Chair 
recognizes the gentleman from southwest Missouri, Mr. Long, for 
5 minutes.
    Mr. Long. Thank you, Mr. Chairman, and thank you, 
Administrator Pruitt, for being here today. And I think that it 
has been well established today that you have the most famous 
cone of silence since Agent 86.
    But that is not where my questioning is going to go today. 
I have a 30-year career--had a 30-year career--as a real estate 
broker before I came here, and part of being a real estate 
broker, it was very important to people the energy efficiency 
of their homes. And when they were looking for a new home they 
looked at that Energy Star certified program, things that 
complied with that. In your testimony you talk about the Energy 
Star program and how it helps businesses and consumers save 
money by reducing their energy use. The Energy Star program 
provides consumers with accurate information about what 
products and systems deliver high quality energy savings, as 
you know.
    I am wondering if you can talk about the process involved 
with updating the Energy Star standards to include the most 
innovative and up-to-date technologies such as high performance 
HVAC systems which can outperform current Energy Star-approved 
equipment.
    Mr. Pruitt. Well, the program to which you refer, 
Congressman, has been extremely successful from the public-
private partnership and there is actually a rulemaking schedule 
that will occur in January of next year, as I understand, to 
establish fees that will, you know, support that program. I 
think the concern has been just the long-term stability and 
viability of the program. So we are in the process now of 
preparing for that and it is something we are committed to and 
I think it has been very successful.
    Mr. Long. OK. I think that it is important to both the 
regulating community and the public that the Government speak 
with one consistent voice. I know from experience, you talk to 
people--if they call an IRS office, they may call seven 
different days and get eight different answers, depending on 
which office they call. What are your plans for ensuring the 
EPA's policy positions are implemented consistently across 
Government, including the EPA headquarters and the EPA regional 
offices in litigation and enforcement? And I was just using IRS 
as an example, because that is somewhere a lot of people get a 
lot of different answers, so for the EPA.
    Mr. Pruitt. It is a very important question because we have 
10 regions across the country, and what we have seen from a 
compliance and assistance perspective--enforcement, permitting, 
many, many issues--a great inconsistency. And so we are in the 
process of going through a Lean program at the Agency 
evaluating metrics.
    Mr. Long. I am sorry, what program?
    Mr. Pruitt. It is a management program to ensure that we 
are committed to metrics.
    Mr. Long. What did you call it? What was the----
    Mr. Pruitt. It is Lean.
    Mr. Long. Lean, OK.
    Mr. Pruitt. Yes. It is a private--but I have a person, a 
COO, that is dedicated to ensuring that we are setting metrics 
objectives at each of the regions and that there is 
verticality, uniformity from headquarters to the regions and 
across the country to ensure on compliance, assistance, 
permitting, all these various issues that we don't see this 
dispersion and great variety.
    Mr. Long. On these EPA proposed rule revisions which 
recognize the importance of the States overseeing the 
implementation of the program regulating coal combustion 
residuals, I believe that oversight is critical. Has your 
Agency given more thought to adjusting deadlines imposed under 
the existing Federal rules so the States have time to get their 
programs developed and approved by the EPA?
    Mr. Pruitt. There has been consideration of that, yes, and 
I think you make a great point about the timeline, that States 
need to develop their own programs. We provide a guidance in 
that regard to the States, but they need time to adopt and 
implement those programs. And so both are very important trying 
to address the impending deadlines but also work with the 
States to achieve the startup of their programs.
    Mr. Long. With Oklahoma being a neighbor to Missouri, I am 
sure that you know that electric power providers in Missouri 
rely on a balanced portfolio of energy inputs including a large 
amount of coal for our energy. Is it still your plan to 
undertake a timely repeal of the carbon regulations for power 
plants?
    Mr. Pruitt. If you are referring to the Clean Power Plan of 
the previous administration, you know, that is in the 
marketplace today, yes.
    Mr. Long. OK. And those regulations were dependent on the 
last EPA's official finding that carbon endangers the 
environment. Is EPA planning on revisiting that endangerment 
finding also?
    Mr. Pruitt. You know, our focus has been in the Clean Power 
Plan and addressing that from a rulemaking perspective. So that 
has been our focus today.
    Mr. Long. OK. And Mr. Chairman, I yield back.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
recognizes the gentleman from North Carolina, Mr. Butterfield, 
for 5 minutes.
    Mr. Butterfield. Thank you very much, Mr. Chairman.
    Mr. Administrator, I have been listening to your testimony 
here in the committee room, and back in my office I have been 
watching it very constantly on television. And I must tell you 
this is very disturbing, what I am hearing today. One of the 
most alarming aspects that I have heard concerns your 
expenditures. I am going to call them your outlandish 
expenditures on security.
    And what is even more alarming to me is the fact that there 
has been an obvious practice of retaliation against EPA 
employees who question your spending. And you are a lawyer, I 
read your bio. You have been a civil servant for many years and 
you have done a lot of great things. You must certainly know 
that whistleblower protections are essential to ensuring 
fairness and good government. But according to press accounts, 
five EPA staff members were fired or reassigned after 
questioning your spending or advising you that you need to 
notify Congress of expenditures over $5,000.
    Now, the nonpartisan GAO office has now validated those 
employees finding that you broke the law. That is not the 
Democrats or any other political group. That is the nonpartisan 
Government Accountability Office has now validated those 
employees, finding that you broke the law in failing to notify 
the Congress. Now do you intend to hold yourself or your staff 
accountable for this action?
    Mr. Pruitt. First, I want to say I know of no instances, 
Congressman, where a decision has been made on employment 
status related to spending or any recommendations regarding 
spending. I have said that earlier and I will say it again to 
you now.
    With respect to the accountability----
    Mr. Butterfield. But my point is notifying Congress.
    Mr. Pruitt. That is an issue that I have addressed already 
a couple of times here. Office of General Counsel, career 
individuals at the Agency advised those folks going through the 
expenditure process that they did not need to notify Congress. 
GAO came out recently and said otherwise. That notification has 
taken place. Those individuals, those career individuals that 
made the decision on that expenditure, were following the 
advice of counsel and the direction of what they knew to be 
right at the time.
    Mr. Butterfield. So it is your position that you had no 
responsibility to notify Congress of these expenditures?
    Mr. Pruitt. No, I believe that the decision has been 
remedied, and it should have been done at the beginning. But it 
was not done, and the question is, as they made those 
decisions, who guided that? And it was career individuals at 
the Agency.
    Mr. Butterfield. I was further alarmed that the pattern was 
extended to the head of the Office of Homeland Security at EPA, 
who signed off on a February memo finding that you did not face 
direct death threats. That person was removed from his role, I 
am told, the day that the Senate Democrats revealed the 
existence of the memo. The timing of the move clearly suggests 
an effort to intimidate, in my opinion, and to deter staff who 
might share their concerns with Congress. Any truth to that?
    Mr. Pruitt. And I think Donna Vizian at the office, who 
heads our Human Resources area, would say the contrary to that. 
The reference I made earlier to a previous question about the 
Inspector General and their actual recitations of threats I can 
provide to you, Congressman. The person to whom you refer does 
not have all the information with respect to the collection of 
threats.
    Mr. Butterfield. Let me take you to question 2, I am 
running out of time. Last month, you moved to weaken 
protections from toxic coal ash, which poses serious risks to 
human health and the environment. I had a coal ash spill in my 
State of North Carolina and they are still mitigating that 
damage. The spill that occurred in Kingston, Tennessee caused 
30 premature deaths, 200 serious illnesses among workers who 
cleaned up the spill.
    Amazingly, you have proposed weakening the protections 
despite the hard science proving the dangers caused by the 
spills. This is unacceptable. Were you aware of these severe 
worker impacts when you proposed weakening the coal ash rule?
    Mr. Pruitt. The specific examples that you refer to, no, I 
was not aware of those specific examples.
    Mr. Butterfield. Last January, you delayed the essential 
protections for farm workers from dangerous pesticides, 
including delaying protections for minors. That delay has now 
been thrown out. My staff says thrown out. You and I as 
lawyers, I guess we would call it something different, 
dismissed by the courts. Is that true or not true?
    Mr. Pruitt. No, it is my understanding that there is a 
proposal to deal with those age requirements that are being 
considered but there has not been any final action on that. 
States, as you know, have age requirements as well and we are 
contemplating in that process whether those age requirements 
should be deferred to in this process. But I am not aware of it 
being final at this point, Congressman.
    Mr. Butterfield. Well, let me thank you for your testimony. 
I have listened to as much as I could today and, again, I say I 
am very disappointed with your record at the Agency. It is not 
commensurate with your record over many, many years in other 
capacities, and your lack of concern for workers is what 
concerns me most of all. You have wasted taxpayer money. You--
--
    Mr. Shimkus. The gentleman's time has expired. The Chair 
recognizes the gentleman from Florida, Mr. Bilirakis, for 5 
minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it. 
And thank you for allowing me to sit on this subcommittee. Of 
course, as you know, I sit on the full committee.
    Administrator Pruitt, I want to talk about the 
environmental review and approval process for local projects. 
With the significant portion of my constituents living on 
Florida's west coast, I am always concerned about hurricanes as 
you can understand as well as flooding. However, our area only 
has two evacuation routes to move residents inland during an 
emergency. To alleviate this problem, the Pasco County 
government initiated the Ridge Road Extension Project to create 
a third evacuation route, but you know they have been working 
on this since 1997. Can you believe that? Since 1997, for over 
20 years, the county has been treading through regulations, 
filling out forms, and meeting with Federal officials to get 
this public safety project up and running. OK, so we are 
talking about again a public safety project we need to save 
lives, God forbid we had a disaster.
    So while they have met with some recent success, and I have 
been working to help them out, the project still has not 
received final approval. Administrator Pruitt, what has the 
Agency done under your leadership to streamline the review of 
projects particularly when they involve public safety where 
lives could be on the line, in this case they definitely are on 
the line, and is permitting improvements something that your 
EPA workforce assessment, are they addressing these issues?
    Mr. Pruitt. It is absolutely a priority. In fact, we began 
an effort last year before we arrived at the Agency. They 
didn't know how long it took to actually go through the 
permitting process, in fact I asked that question upon arrival 
to give me an idea about the length that it took for permitting 
and they didn't know the answer. So we have evaluated that 
data. And I know this won't surprise you but it takes a long 
time. You have already cited your example.
    And so by the end of 2018 we are making changes internal to 
the Agency. The decision that we make on permits up or down 
will occur within 6 months starting in January of '19. So that 
is the effort that we are engaged in. But as you know this is 
an interagency approach as well and we are collaborating with 
the Corps of Engineers around some of these issues in making 
sure that we have consistency in working with them.
    Mr. Bilirakis. OK, so you say within 6 months beginning in 
2019?
    Mr. Pruitt. At the end of this year, we will have a plan in 
place to execute upon as we begin January of '19.
    Mr. Bilirakis. OK. On the same point, the President 
released an infrastructure plan, of course as you know, which 
included sections on permitting improvement. One of the 
proposals is that one Agency, one decision. Is that what you 
are referring to, environmental review structure? Another is 
allowing for localities to complete a single environmental 
review document for a project. Are these things that you could 
support?
    Mr. Pruitt. I do support and I think these are great 
recommendations that have been made as part of the 
infrastructure package the President made and something I hope 
Congress adopts. But whether it is adopted or not, we are 
advancing this 6-month review process internal to the Agency.
    Mr. Bilirakis. OK. As far as, you know, there are a lot of 
local governments that can't afford to hire high priced 
consultants, as you know. So this is very, very important to 
them and they shouldn't be penalized because they can't afford 
to hire these high priced consultants. You know, in my area 
over the years they have spent a lot of money on this project 
and but I am sure that there are examples all over the country 
where it has taken many, many years. So I appreciate you 
working with me on this and hopefully we get approval soon.
    Mr. Pruitt. Thanks, Congressman.
    Mr. Bilirakis. I thank you very much and I yield back.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
recognizes the gentlelady from Florida, Representative Castor, 
for 5 minutes.
    Ms. Castor. Well, thank you, Chairman Shimkus, for allowing 
me to participate in the hearing today.
    Mr. Pruitt, your pattern of unethical conduct and conflicts 
of interest are now very well known, but I am very troubled by 
your failure to take personal responsibility for your actions. 
You simply dismissed all of the ethical lapses at the beginning 
of your testimony as troubling media reports so I think that is 
a failure in leadership.
    But the point I want to make today is that those costs, 
your wasteful spending, those costs pale in comparison to the 
damage you are doing to the health of American families and the 
assault on our clean air and clean water protections, our 
protections against dangerous chemicals and pesticides. Mr. 
Pallone highlighted the issue of the dangerous paint stripper, 
methylene chloride, at the beginning, that is known to have 
caused over 50 deaths and yet the EPA under your administration 
now has, you say we are stalled, we don't have a final 
decision, but in essence you have turned a blind eye to those 
families.
    There is also the case of chlorpyrifos which is a dangerous 
nerve agent. It is in the same chemical class as sarin. There 
was a recommendation by EPA scientists when you came in, in 
fact the last administration had said we are going to propose 
very significant restrictions especially to protect babies, 
children, young people under 18. You came in and turned that 
around. You said, ``Oh, well, this, well, it is not final.''
    But you have set a pattern here. America's pediatricians 
are outraged. Public health advocates are outraged and so am I, 
because we are talking about the development of brain in babies 
and children. We are talking about not just children that might 
be in farmlands, but they live and work or they live and play 
in those areas. There were a lot of kids in the audience today 
and parents who care about this a great deal. It is Take Your 
Child to Work Day. That was good to have them in here.
    So my first question is why are corporate polluter profits 
more important to you than the health of families and children?
    Mr. Pruitt. Well, on the issue that Ranking Member Pallone 
brought up and this issue that you have raised, I would ask you 
not to jump to conclusions, that there is a final process 
there. As you know, the previous administration----
    Ms. Castor. But there is a pattern. There is a pattern. 
And----
    Mr. Pruitt. I am trying to respond.
    Ms. Castor. And, you know, your actions belie what you say 
when your EPA scientists and public health advocates and 
pediatricians all say here is the ban and you come into office 
and time and time and time again you are siding with the 
special interests and not with the public.
    Mr. Pruitt. Yet that solvent that you are referring to is 
actually one of the 10 priority chemicals that we are reviewing 
under TSCA that you authorized. And so we are----
    Ms. Castor. You are right. And that was a recommendation 
that was the action of this committee and you have set the 
pattern. And, really, whatever you could say today, I think 
people need to look at your actions rather than your rhetoric.
    But in addition to your failure to take any responsibility, 
I have to say that I am disappointed in a lot of my colleagues 
on the other side of the aisle that have let the Administrator 
off the hook today by barely asking any tough questions. There 
were a few exceptions, and my hat is off to them. Maybe they 
are trying to save his job because they are worried, if he 
doesn't perform well today, he could be fired.
    Several congressional Republicans have already publicly 
called for your firing, but unfortunately not on this 
committee. Either way it is embarrassing that most of the 
Republicans refuse to take this committee's oversight 
responsibility seriously and hold you accountable. They claim 
to have requested documents from the administration regarding 
Administrator Pruitt's misconduct and conflicts of interest, 
but there is no evidence of any investigation.
    Meanwhile, the Democrats on this committee, we have sent 
numerous inquiries to EPA, the Office of Inspector General, the 
GAO, the Office of Special Counsel, and some of those have 
borne out and you have been found in violation of the law. 
Unfortunately, we have yet to see any real effort from my 
colleagues on the other side of the aisle.
    So I have been keeping a list today as well, Mr. 
Administrator, of the unanswered questions, because you often 
say it is not final, we are looking at this, the jury is out. 
But you failed to give direct responses on a number of 
questions.
    So, Mr. Chairman, I would like to submit this list for the 
record of the endless string of questions that Administrator 
Pruitt has not answered today.
    Mr. Shimkus. Let us look at that. Pass it over here, 
please.
    Ms. Castor. Will do.
    And finally close out by saying----
    Mr. Shimkus. The gentlelady's time has expired.
    Ms. Castor [continuing]. Mr. Pruitt, you violated----
    Mr. Shimkus. The gentlelady's time has expired. The Chair 
recognizes the gentleman from Maryland for 5 minutes.
    Mr. Sarbanes. Thank you, Mr. Chairman.
    Thank you for being here, Mr. Pruitt. I have been watching 
you during the hearing and you certainly have the bearing of a 
man who thinks he is untouchable. I don't know if that is true 
or not, but I would be careful of that because I don't think 
Americans go for that, and in your position they just want you 
to protect their air, they want you to protect clean water, and 
they want you to conserve the land.
    As has been said by many of my colleagues, EPA under your 
tenure has been cloaked in secrecy and swamped with ongoing 
legal and ethical failures. You have refused to release 
detailed information from your calendar, often provide no 
advanced notice of where you are going to be, Agency career 
staff, we are told, have been instructed not to take notes or 
carry their cell phones, and this level of secrecy has forced a 
lot of citizens to take the avenue of filing Freedom of 
Information Act requests. I understand that EPA political 
leadership has added a new layer of so-called awareness reviews 
to those requests, which can delay the release of information 
to the public and also limit the amount of information redacted 
in the responses.
    Are you aware that your political appointees are conducting 
these reviews before information is released to the public, yes 
or no?
    Mr. Pruitt. First, let me say that there has been no 
instruction not to take notes or to carry phones. That is 
simply fabricated. With respect to the process you are 
referring to, the FOIA process is governed by statute. And----
    Mr. Sarbanes. But you have set up these political 
appointees to do reviews, are you aware of that?
    Mr. Pruitt. The Office of General Counsel is conducting 
FOIA reviews.
    Mr. Sarbanes. OK, all right. You are not aware of that. I 
am going to move on because, as you know, we are limited here. 
But if that was done, that is a pretty clever move. We wrote to 
you last year with concerns about Carl Icahn's role as special 
advisor on regulations, potential conflict of interest due to 
his financial holdings and outspoken positions on the Renewable 
Fuel Standards programs. So here we are a year later, the EPA's 
implementation of the RFS programs, specifically the small 
refinery waiver provision, is under fire from both farmers and 
refiners.
    My colleague Mr. Green raised the issue of secret waivers. 
I want to build on that a little bit. I want to know about CVR 
Energy in which Carl Icahn owns a majority stake. Administrator 
Pruitt, you met with representatives from Carl Icahn's company, 
CVR Energy, in June of 2017. Is that correct?
    Mr. Pruitt. If that is what the calendar represents.
    Mr. Sarbanes. OK. Did Carl Icahn's company apply for a 
waiver from ethanol blending requirements for any of its 
refining facilities?
    Mr. Pruitt. I am unsure.
    Mr. Sarbanes. OK. We will look at the record for that. And 
did Carl Icahn's company receive a waiver for any of its 
refining facilities?
    Mr. Pruitt. These exemptions are governed by statute, as 
you know.
    Mr. Sarbanes. OK. Well, you are going to find that out for 
us and we appreciate your following up because that is 
important to know because it raises serious questions about 
conflicts of interest. I have had the privilege of chairing 
here in the Congress the Democracy Reform Task Force. We have 
been trying to keep up with the ethical lapses of the Trump 
administration, which I will tell you is kind of a full-time 
job, and you certainly have been at the center of some of that 
focus. To date, five independent Federal investigations have 
been initiated at this committee's request and more than eight 
independent Federal reviews are currently underway with respect 
to your office.
    Yesterday, the Democracy Reform Task Force released another 
report in a series that is looking at failures and ethical 
lapses within the Trump administration. This one was detailing 
your wasteful spending and favors for your friends. It put the 
interests of dirty polluters ahead of the American people. So 
this is now available for people to take a look at. It goes 
through the litany of ethical violations that have come to 
characterize and be the hallmark of your time in office.
    You have really become--I mean, it is sad to say it--but 
you have become in many respects, and you ought to take this to 
heart as somebody who holds an office in the public trust, you 
are wearing that mantle today, that office of public trust as 
head of the EPA, something people care deeply about. If you are 
going to wear that mantle, you have to exercise the office with 
attention to the public interest and not to private interest.
    But, unfortunately, you have become the poster child for 
the abuse of public trust and this goes back a long way. You 
brought your way of approaching these public offices to the EPA 
and it has undermined the credibility of that organization. But 
it is a hallmark of the Trump administration, and we are going 
to continue to demand answers and we are going to continue to 
hold you accountable in every hearing that you choose to be up 
here.
    I give you credit for coming today, but we are going to 
continue to hold you accountable for the dereliction of duty 
that we see. With that, I yield back my time.
    Mr. Shimkus. The gentleman's time has expired. The Chair 
recognizes the gentleman from Vermont for 5 minutes, Mr. Welch.
    Mr. Welch. Thank you, Mr. Chairman. Mr. Chairman, you, with 
Mr. Flores, and I have been working on ethanol.
    Mr. Pruitt, I have heard reports, read reports that, as a 
result of the pressure on Midwest ag in response to the 
retaliatory tariffs by China, that there is a move by some to 
increase ethanol usage. Can you comment on that very briefly?
    Mr. Pruitt. Well, are you referring to the RVP waiver?
    Mr. Welch. That is correct.
    Mr. Pruitt. Yes. We have been actively evaluating the legal 
authority under the statute to grant the RVP waiver for the 
last several months. And the reason it is taking some time, 
Congressman, is because----
    Mr. Welch. I want to interrupt because actually what I am 
talking about, I appreciate the work on ethanol that my 
colleagues have done, but what is reported is that as a result 
of the tariffs that China is imposing on soybeans and grain 
that there is going to be a concession from the Trump 
administration to go to E15, so I will just leave it there.
    I do want to ask you some questions along the lines of how 
you have been running your department. Is it the case that any 
of your predecessors, Republican or Democrat, who have had the 
high responsibility as Administrator of the EPA have had a 20-
person security detail?
    Mr. Pruitt. I am unaware of previous considerations in that 
regard.
    Mr. Welch. Is it not at all relevant to you what the 
precedents have been with Republican and Democratic 
Administrators in the past?
    Mr. Pruitt. I am just not aware, Congressman, of processes 
prior to my time at the Agency on what was considered and what 
wasn't considered.
    Mr. Welch. All right. Did the taxpayers spend $30,000 for a 
security detail to accompany you on the trip to Disneyland?
    Mr. Pruitt. I am unsure about that. I mean, we took----
    Mr. Welch. That is knowable.
    Mr. Pruitt. Yes. The records show that.
    Mr. Welch. All right. So you can determine this. It is not 
like secret stuff.
    Mr. Pruitt. The detail, the law enforcement make those 
determinations on what type of security should be provided, 
whether----
    Mr. Welch. You know, I have been listening to a lot of the 
answers, and the answers are ``somebody else knows it,'' and it 
really is starting to seem like there is something on your desk 
with a motto that says ``The Buck Stops Nowhere,'' and you are 
the guy who is in charge.
    Mr. Pruitt. Yet, Congressman, I have made decisions to 
switch and make sure to make changes from first class back to 
coach, I rescinded the pay raises to those individuals.
    Mr. Welch. No, I get it.
    Mr. Pruitt. In fact, that has happened.
    Mr. Welch. Let me ask you just about this phone booth, 
because it is a metaphor. Are you aware that at the EPA 
headquarters there are two secure facilities where private 
phone calls could be secure?
    Mr. Pruitt. And, again, I didn't request a SCIF. I 
requested a secure communication that was not accessible to my 
office and----
    Mr. Welch. I understand that. But you are the boss. So you 
tell your folks that you want a secure way of communicating, 
reasonable request, they are going to accommodate it. The boss 
is the one who has to make certain that it is a reasonable 
imposition on taxpayers, or do you disagree with that?
    Mr. Pruitt. And in this instance the process failed. As I 
indicated in my opening statement, those processes will be 
changed going forward.
    Mr. Welch. Did you ask the question--here is the question 
that I think a lot of people would ask, Republican or Democrat, 
how can I make a secure phone call, and the answer would be 
well, Mr. Pruitt, there happens to be two places in this 
building right close to your office where you can do that. Had 
you asked that----
    Mr. Pruitt. They are not right close to my office.
    Mr. Welch. Pardon me?
    Mr. Pruitt. They are not right close to my office.
    Mr. Welch. Well, how often do you have to use your secret 
phone booth?
    Mr. Pruitt. It is for confidential communications, and it 
is rare.
    Mr. Welch. OK. So on those rare occasions, is it too much 
to ask you to walk whatever distance it takes for you to get to 
that secure line?
    Mr. Pruitt. I guess it depends on the nature of the call 
and how urgent the call is.
    Mr. Welch. The point is that you have two locations that 
you can go to when you have to make those rare secure phone 
calls. This is taxpayer money. It is taxpayer money. Let me ask 
you this. Did you have installed or were there installed 
biometric locks on your office?
    Mr. Pruitt. There were problems with locks on two of the 
three doors and changes were made to those locks. No 
instruction was given for biometric locks, but that was a 
decision made by those individuals.
    Mr. Welch. So these things just happen.
    Mr. Pruitt. There was a process at the Agency in that 
regard, and there was an evaluation.
    Mr. Welch. Well, what is a biometric lock?
    Mr. Pruitt. I am not entirely sure.
    Mr. Welch. So do you know, is it the case you don't know 
how to open your door?
    Mr. Pruitt. I just know how to put a code in. Excuse me?
    Mr. Welch. No, seriously. What is a biometric lock?
    Mr. Pruitt. I don't know. I just put a code in.
    Mr. Welch. A biometric lock, it responds, as I understand 
it, to like fingerprints or some other--your eyes, some 
physical characteristic.
    Mr. Pruitt. That is my understanding as well.
    Mr. Welch. All right, so you have them, right?
    Mr. Pruitt. Those are on, those have been added to the 
office, yes.
    Mr. Welch. Why?
    Mr. Shimkus. The gentleman's time has expired. The Chair 
recognizes the gentleman from Iowa for 5 minutes, Mr. Loebsack.
    Mr. Loebsack. Thank you, Mr. Chairman. Thank you for 
allowing me to waive on to this subcommittee. I do appreciate 
that.
    Mr. Pruitt, I share a lot of the concerns my colleagues 
have voiced today on the ethics front, but I am actually here 
to talk about an issue that, as you might imagine, I am from 
Iowa, so of utmost importance to my State, to my district. 
During your confirmation process you stated that you would work 
to uphold the Renewable Fuel Standard and over the last 2 years 
President Trump has pledged on numerous occasions to support 
the RFS, in fact time and time again he has pledged to support 
it. However, over the last several weeks, information has been 
revealed that makes me question that commitment as you might 
imagine.
    Various reports have indicated that the EPA has granted so-
called economic hardship exemptions to numerous refiners who 
appear to be neither small nor financially distressed. You know 
what the law says, it has to be 75,000 gallons or less to be 
granted that economic hardship waiver. I can tell you I have 
heard directly from my constituents, farmers and many others, 
and from farmers across the country who are extremely troubled 
by this action. And this comes at a particularly difficult time 
in farm country as you know when we have had low prices, we 
have seen farm income trending downward, and industry profits 
are soaring.
    I am extremely disappointed in the action as you might 
imagine and the lack of transparency and accountability in the 
process is also unacceptable. Under section 211 of the Clean 
Air Act, the EPA Administrator is required to reassign gallons 
that are waived under the small refinery exemption to other 
obligated parties. Because this entire waiver process has 
happened, really, without any transparency whatsoever, I am 
disappointed, my constituents are disappointed, and we really 
have no idea whether those gallons have been reassigned as 
required by law.
    So my first question, Mr. Pruitt, yes or no, have you 
reassigned these gallons as required by law?
    Mr. Pruitt. It is my understanding that the process has 
happened as it is supposed to under the statute.
    Mr. Loebsack. Well, we are going to need that. And how do 
you plan to reassign then the gallons you waive for going 
forward for the 2019 RVO?
    Mr. Pruitt. And I do think your question is very important 
with respect to the volume obligation, Congressman. And when 
you think about the commitment of this administration to the 
RFS, the point of obligation was denied as you know. That was a 
big issue.
    Mr. Loebsack. But that is not my point. I am talking about 
the waivers.
    Mr. Pruitt. No, I know. I understand.
    Mr. Loebsack. And I would like to move on to my next 
question if I could. Yes or no, do you intend to inform this 
committee and the public about the details behind these waivers 
such as which refiners received a waiver?
    Mr. Pruitt. Subject to the confidential business 
information or other information that would be the only thing 
that would not be available.
    Mr. Loebsack. Well, Mr. Pruitt, we just want to know who 
got these waivers, not why necessarily, and I can't understand 
why that would be considered confidential business information. 
Reports have indicated that 25 refiners received waivers from 
their obligations. Is that number accurate?
    Mr. Pruitt. That was actually in 2017, I think. The 
applications are still pending in 2018.
    Mr. Loebsack. What is the number at the moment?
    Mr. Pruitt. It is over that number for 2018, as I 
understand it.
    Mr. Loebsack. Did you discuss these exemptions with the 
White House?
    Mr. Pruitt. There is ongoing discussions with the White 
House on various issues around the RFS program.
    Mr. Loebsack. Who at the White House specifically was 
involved?
    Mr. Pruitt. I think the NEC in consultation with the Air 
Office.
    Mr. Loebsack. Did you brief the President on these waivers?
    Mr. Pruitt. Well, as I indicated this was a dialogue 
amongst staff members, NEC and Air Office, at our shop. So.
    Mr. Loebsack. Has anybody explained to the President the 
substantial impact that these waivers have on the ethanol 
industry? Some have estimated a billion gallons.
    Mr. Pruitt. I am sure it has come up in many discussions.
    Mr. Loebsack. And moving on, you told me and many others 
that EPA is studying whether it has the legal authority to 
grant the RVP waiver. That was the last time that I waived on 
to this committee and we talked about that issue. And that 
seems like it is taking quite a while as you might imagine for 
many of us in corn country, and with the President's recent 
remarks which were referenced here about his interest in year-
around E15, I am wondering what the holdup is on this at this 
point.
    Mr. Pruitt. It is just trying to ensure that the legal 
basis is solid because there will be litigation that will 
ensue.
    Mr. Loebsack. Well, do you plan to move forward and grant 
the RVP waiver and allow year-round sales of E15?
    Mr. Pruitt. I intend to finish that process very soon to 
make----
    Mr. Loebsack. Yes. Hopefully, the sooner the better because 
this is something that obviously is very important not only to 
my State and my district, many folks around the country. So we 
are looking forward to that. And of course refinery executives 
have called your action on the hardship waivers, to go back to 
that, quote, ``giving out trick-or-treat candy,'' unquote, to 
their industry. And I am here to tell you that farmers are very 
disappointed by this. They have been waiting for years for the 
E15 waiver year-round.
    And, Mr. Chairman, I think this program is in need of 
substantial oversight, the waiver program and certainly the E15 
as well. And these actions I don't think can happen in secret. 
I know that was addressed earlier in this hearing. We need to 
make sure that these waivers are not abused as a financial 
windfall for special interests and I look forward to working 
with you, Mr. Chairman, on this further. And I yield back. 
Thank you very much.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
recognizes the gentleman from New Mexico, Mr. Lujan, for 5 
minutes.
    Mr. Lujan. Thank you, Mr. Chairman.
    Administrator Pruitt, you seem to view the EPA budget as a 
personal slush fund, redirecting resources to your personal 
travel that should go to environmental protection. During your 
tenure you have spent more than $160,000 on travel in first 
class, on private jets, and on military craft. Public office is 
a public trust and I think flying coach is the least we can do 
to deserve that trust.
    My question for you is this. When you are paying for your 
own airfare with personal funds do you fly coach?
    Mr. Pruitt. I follow the security recommendations of my 
team when I pay for it personally as well.
    Mr. Lujan. Will you commit to reimbursing taxpayers for 
your luxury travel?
    Mr. Pruitt. You refer to it as luxury travel, and the 
$160,000 that you refer to pales in comparison to the previous 
administrations. I think you are referring to international 
travel. I took two international trips. Previous 
administrations took multiple trips and spent far more than 
that. These decisions about security detail, who attends and 
what they do to provide protection, happened according to law 
enforcement recommendations and that is what I followed.
    Mr. Lujan. It has been recently reported by EPA ethics 
officials that on at least two personal trips you flew in coach 
on Southwest Airlines using a companion pass from Ken Wagner, 
your subordinate at the EPA. Clearly a plane ticket has more 
than nominal value. Are you aware that Federal ethics rules 
prohibit you from accepting gifts from subordinates?
    Mr. Pruitt. And that is not represented accurately, what 
you said. We actually flew like carpooling. We shared costs 
from Oklahoma----
    Mr. Lujan. Did Ken Wagner give you the boarding pass?
    Mr. Pruitt. There was no gift whatsoever.
    Mr. Lujan. All right, well, I think that those ethics 
officials will continue to look into that.
    Mr. Pruitt, your travel since becoming Administrator has 
taken you to Morocco, Italy, and to luxury resorts around the 
United States. We have even heard from Kevin, a political 
appointee who worked in your office, that you told staffers to, 
quote, ``find me something to do,'' close quote, in order to 
schedule travel to your desired destinations. Unfortunately, it 
seems your desired destinations have rarely included low-income 
communities and communities of color facing serious 
environmental risks.
    The biggest problem with the pay-to-play system is that 
those most at risk are also the most unable to pay for your 
attention and concern. Of your extensive travel spending, how 
much would you say you spend visiting low-income communities 
and communities of color?
    Mr. Pruitt. I would consider East Chicago--which I have 
made trips there, I was in Region 5 recently this week, and San 
Jacinto in Houston, as indicated earlier. The trip to Italy was 
a G7 trip occurring a week after the Paris decision. I was 
there for 4 days around the G7. There is a free trade agreement 
that is in existence in Morocco, and the ambassador of Morocco 
invited me to Morocco to negotiate the environmental chapter on 
that free trade agreement. Both of those things are very 
important to the scope of our duties at the EPA.
    Mr. Lujan. Mr. Administrator, you have gone to great 
lengths to keep your calendar secret, but what has come out is 
it is clear that most of your meetings and stakeholders have 
been with industry and not impacted communities. I think we can 
agree with that. Do you see the problem with granting greater 
access to polluting industries than impacted communities?
    Mr. Pruitt. I have met with stakeholders across the country 
on these issues, people that we regulate that their voices have 
not been heard for many years. Those farmers and ranchers that 
I have met with, they are our first environmentalists and first 
conservationists.
    Mr. Lujan. Do you understand that you have a responsibility 
to protect the health and environment of low-income, minority, 
tribal, and indigenous communities?
    Mr. Pruitt. Absolutely.
    Mr. Lujan. Throughout your brief tenure as EPA 
Administrator you have directed significant policy changes made 
with disproportionate harm to low-income, minority, Tribal, and 
indigenous communities. The repeal of the once-in, always-in 
policy mentioned by my colleague, Ms. Dingell, for example, the 
weakening of coal ash regulations is another. But Mr. Pruitt, 
today you repeatedly blamed your chief of staff, your chief 
counsel, career officials, and others. Yes or no, are you the 
EPA Administrator?
    Mr. Pruitt. I said that in my opening statement, 
Congressman. And I didn't blame anyone. I just simply shared 
facts with you as----
    Mr. Lujan. Mr. Administrator, it is just a simple yes-or-no 
question, sir. Are you the EPA Administrator?
    Mr. Pruitt. I said in my opening statement that I take 
responsibility. I have made changes historically and making 
changes going forward, and I simply have not failed to take 
responsibility. I have simply recited the facts of what has 
occurred.
    Mr. Lujan. It is a simple question, Mr. Pruitt. Are you the 
EPA Administrator?
    Mr. Pruitt. Yes.
    Mr. Lujan. Just to be clear, do you run the EPA?
    Mr. Pruitt. I do.
    Mr. Lujan. Yes or no, are you responsible for the many, 
many scandals plaguing the EPA?
    Mr. Pruitt. I have responded to many of those questions 
here today with facts and information.
    Mr. Lujan. Are you able to answer that in yes or no?
    Mr. Pruitt. That is not a yes-or-no answer, Congressman.
    Mr. Lujan. It is pretty simple that it is a yes-or-no 
answer here. There is clear concern with what has been 
happening not just by the entire Congress. And I appreciate you 
being here today, but these questions need to be asked and 
answered.
    Mr. Pruitt. And we have answered them today.
    Mr. Lujan. And you are not the only one that has been doing 
these ugly things, these horrific things, these scandal-plagued 
things in this administration, and I hope this is one of many 
hearings that this committee will have so we can get to the 
bottom of this and make sure taxpayers are made whole.
    Mr. Shimkus. The gentleman's has expired.
    Seeing there are no further Members wishing to ask 
questions, I would like to thank our witness for being here 
today. Before we conclude, I would like to ask unanimous 
consent to submit the following documents for the record. I 
just want to make sure I get them all in: letter to the 
chairman and ranking member from Lauren Atkins; report from GAO 
on EPA's use of fiscal year 2017 appropriations; letter from 
the American Association for the Advancement of Science; Mr. 
Rush Holt; article from the Roanoke Times; questions from Ms. 
Castor; letter from the American Geophysical Union; letter from 
985 scientists.
    In pursuant to committee rules, I remind Members that they 
have 10 business days to submit additional questions for the 
record, and I ask that witnesses submit their questions within 
10 business days upon receipt of the questions.
    Without objection, the subcommittee is adjourned.
    [Whereupon, at 1:41 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 

    [Mr. Pruitt's response to submitted questions has been 
retained in committee files and also is available at  https://
docs.house.gov/Committee/Calendar/ByEvent.aspx?EventID=108218.]

                                 [all]

</pre></body></html>
